<html>
<title> - COMBATING VIOLENCE AND DISCRIMINATION AGAINST WOMEN: A GLOBAL CALL TO ACTION</title>
<body><pre>[Senate Hearing 113-552]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-552
 
 COMBATING VIOLENCE AND DISCRIMINATION AGAINST WOMEN: A GLOBAL CALL TO 
                                 ACTION

=======================================================================

                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                     OPERATIONS AND ORGANIZATIONS,
                        HUMAN RIGHTS, DEMOCRACY,
                       AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 24, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
       
       
       
       
       
       
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
 
       
       
       
       
       
       
       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
      
                               U.S. GOVERNMENT PUBLISHING OFFICE
           93-138 PDF                  WASHINGTON : 2015               
      ___________________________________________________________________________________
      For sale by the Superintendent of Documents, U.S. Government Publishing Office,
            Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001


                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

          SUBCOMMITTEE ON INTERNATIONAL OPERATIONS AND        
            ORGANIZATIONS, HUMAN RIGHTS, DEMOCRACY,        
                   AND GLOBAL WOMEN'S ISSUES        

              BARBARA BOXER, California, Chairman        

JEANNE SHAHEEN, New Hampshire        RAND PAUL, Kentucky
RICHARD J. DURBIN, Illinois          JAMES E. RISCH, Idaho
CHRISTOPHER A. COONS, Delaware       MARCO RUBIO, Florida
TIM KAINE, Virginia                  RON JOHNSON, Wisconsin

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Baldwin, Hon. Tammy, U.S. Senator from Wisconsin`................     7
Barker, Gary Ph.D., International Director, Promundo, Washington, 
  DC.............................................................    23
    Prepared statement...........................................    25
Boxer, Hon. Barbara, U.S. Senator from California................     1
Durbin, Hon. Richard J., U.S. Senator From Illinois..............    22
Heitkamp, Hon. Heidi, U.S. Senator from North Dakota.............     8
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................     4
Ibrahim, Hauwa, Senior Partner, Aries Law Firm, Nigeria..........    28
    Prepared statement...........................................    30
Klobuchar, Hon. Amy, U.S. Senator from Minnesota.................     5
Markey, Hon. Edward J., U.S. Senator from Massachusetts..........    11
Markham, Susan, Senior Coordinator for Gender Equality and 
  Women's Empowerment, U.S. Agency for International Development, 
  Washington, DC.................................................    16
    Prepared statement...........................................    18
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     3
    Responses of Ambassador Catherine M. Russell to Questions 
      Submitted by Senator Robert Menendez.......................    43
    Responses of Susan Markham to Questions Submitted by Senator 
      Robert Menendez............................................    46
Murray, Hon. Patty, U.S. Senator from Washington.................     8
O'Neill, Jacqueline Director, Institute for Inclusive Security, 
  Washington, DC.................................................    32
    Prepared statement...........................................    33
Paul, Hon. Rand, U.S. Senator from Kentucky......................     2
Russell, Hon. Catherine M., Ambassador at Large for Global 
  Women's Issues, U.S. Department of State, Washington, DC.......    12
    Prepared statement...........................................    14
Stabenow, Hon. Debbie, U.S. Senator from Michigan................     6
Warren, Hon. Elizabeth, U.S. Senator from Massachusetts..........     9

             Additional Statements Submitted for the Record

Senator Maria Cantwell (D. WA)...................................    50
Senator Susan Collins (R. ME)....................................    51
Congresswoman Carolyn B. Maloney (D. NY).........................    52
Esta Soler, President and Founder, Futures Without Violence......    53
Amanda Klasing, Women's Rights Researcher, Human Rights Watch....    55
Dr. Nancy Okail, Executive Director, Tahrir Institute for Middle 
  East Policy....................................................    58
Amnesty International............................................    63
Second Chance Employment Services................................    68
International Medical Corps......................................    70
Various Human Rights and Humanitarian Organizations (one 
  document, 74 signees)..........................................    71

                                 (iii)

  


                         COMBATING VIOLENCE AND



                     DISCRIMINATION AGAINST WOMEN:



                        A GLOBAL CALL TO ACTION

                              ----------                              


                         TUESDAY, JUNE 24, 2014

        U.S. Senate, Subcommittee on International 
            Operations and Organizations, Human Rights, 
            Democracy, and Global Women's Issues, Committee 
            on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:50 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Barbara 
Boxer, chairman of the subcommittee, presiding.
    Present: Senators Boxer, Menendez, Durbin, Markey, Paul, 
and Risch.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Good morning, everybody.
    Our women Senate colleagues will be coming in as they can. 
We have a whole series of votes starting at 11 o'clock. So we 
are going to do our best to move along, combining the last two 
panels, et cetera. But I certainly want to welcome everyone to 
today's hearing.
    I am going to ask Senators to try to do our opening in 
about 4 minutes, if we can. Okay? Four minutes for Senators. 
Then we hope our panels will be as brief as they can.
    Welcome, Senator Baldwin.
    I want to welcome everybody to today's hearing. I am so 
pleased that my ranking member is here and I am so excited that 
the chairman of the full committee is here. It means a lot to 
me, but more importantly, it means a lot to the women of the 
world. And of course, my colleagues, my female Senate 
colleagues--their voices are so powerful.
    We are here today because we all share the same goal: to 
eliminate violence and discrimination against women everywhere.
    Just last month, two young Indian girls were found dead 
hanging from a tree after they had been raped and strangled.
    In Pakistan, a 25-year-old pregnant woman was stoned to 
death by her family for marrying against their wishes.
    In April, more than 200 Nigerian school girls were abducted 
from their boarding school by the terrorist group, Boko Haram.
    Tragically even in the year 2014, the state of women around 
the world remains precarious. Every day women and girls endure 
horrific acts of violence in their homes and communities. Women 
are raped, beaten, disfigured by acid, forcibly married, 
trafficked and sold as slaves. They are denied basic rights--
such as the opportunity to get an education, to see a doctor, 
try to make a living outside the home--simply because of their 
gender.
    But we have an opportunity to take action to help end the 
scourge of violence and discrimination against women, and that 
is why I introduced the International Violence Against Women 
Act, IVAWA, with Senators Menendez, Collins, Kirk, and Shaheen. 
And we have so many supporters on that bill now. And it is why 
I have long supported U.S. ratification of CEDAW, the 
Convention on the Elimination of All Forms of Discrimination 
Against Women.
    I hope this hearing builds momentum for action in the 
Senate on both IVAWA and CEDAW because we have to do more than 
make our speeches and call for an end to violence. We have to 
act.
    I am so proud that we will hear from not only my colleagues 
on the committee but some of the great women of the Senate, and 
I thank them for joining us today.
    I am going to turn first, if it okay with Senator Menendez, 
to my ranking member and then to Senator Menendez.

             OPENING STATEMENT OF HON. RAND PAUL, 
                   U.S. SENATOR FROM KENTUCKY

    Senator Paul. Thank you.
    The great Pakistani poet, Parveen Shakir, wrote: ``They 
insist upon evaluating the firefly in the daylight. The 
children of our age have grown clever.''
    Malala Yousafzai never met the great Urdu poet, Parveen 
Shakir, as their lives missed each other by several years. 
Shakir's life was cut short by an auto accident in 1994. But 
Malala's courage, vibrancy, and wit would have her smile. It 
would have made her proud that a young woman was standing up so 
strongly.
    Unfortunately now, because of the actions of extremists in 
the Pakistani Taliban, young women must fight for the right to 
go to school. Malala in her young life insisted on exposing the 
firefly to daylight. Her crime, as seen by the Taliban, is to 
believe in enlightenment, to believe that out of the darkness, 
tolerance can glow and overcome and overpower ignorance.
    Shakir would have been pleased by Malala's actions. You 
see, Shakir was highly educated in a pre-Taliban Pakistan with 
two masters degrees and a Ph.D. She taught and published poetry 
to widespread acclaim.
    Malala knew if the Taliban won, there would never be 
another Parveen Shakir to come out of Pakistan. There would 
never be another Benazir Bhutto. That is why she fought.
    Asia Bibi is a Pakistani Christian who sits on death row 
for blasphemy. She says it all began when she drew water from a 
Muslim well. As she was filling her bowl with water, the crowd 
formed chanting, ``Death. Death to the Christian.'' She pleaded 
for her life. She was pelted with stones, punched in the face, 
and dragged through the streets. The local imam finally 
intervened only to say, ``If you don't want to die, convert to 
Islam.''
    The crowd descended on her again, pelting her with sticks 
and stones. Finally, the police stopped the attack and she was 
grateful, only to be arrested by the police for blasphemy. She 
has been sitting for 5 years on death row in Pakistan.
    Meanwhile, the U.S. taxpayer has forked over billions of 
dollars to the Pakistani Government, which officially condones 
the persecution of Christians. Many countries that receive U.S. 
foreign aid have laws that officially discriminate against 
Christians and women. Persecution of women is wrong. 
Persecution of Christians is wrong. Persecution of women or 
Christians in the name of any religion is wrong, and our aid 
money should have conditions upon it. We should not give one 
dime of aid to countries that persecute women or Christians.
    Some say our aid projects our power. These same people, 
though, resist any conditions on our aid. Time after time, I 
have attempted to attach restrictions to aid to Egypt, to 
Pakistan, to the Palestinian Authority, and yet the majority in 
Congress and in the Senate has resisted every attempt to attach 
conditions. We should not send aid to countries who have 
official policies that discriminate against women and religious 
liberty.
    We are being taxed to send money to countries that are not 
only intolerant of Christians but openly hostile. Christians 
are imprisoned and threatened with death for their beliefs. Our 
job as the powerful is to use our might to speak to those who 
cannot. Whether that is the bully pulpit of our foreign aid, 
our State Department, our immigration policy, or our trade 
policy, we should not be giving money without restrictions to 
people who violate basic human rights.
    I am glad to be a part of this, and I think this is a good 
step forward. Thank you, Chair.
    Senator Boxer. Thank you, Senator.
    Mr. Chairman Menendez.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Let me thank my friend and colleague, 
Senator Boxer, for chairing an important hearing with so many 
distinguished women.
    I was honored to cosponsor with Senator Boxer the 
International Violence Against Women Act that provides 
critically needed tools that the United States could use to 
address the persistent, horrific violence against women around 
the world.
    But we must also continue to build support for the 
ratification of the Convention on the Elimination of All Forms 
of Discrimination Against Women. CEDAW has been pending before 
the Senate since November 1980.
    So today we are shining a light on the importance of 
preventing and responding to gender-based violence, and it is 
clear from just reading the morning paper, stories on South 
Sudan, Iraq, Nigeria, Syria, Egypt, India, and Pakistan, that 
gender-based violence is a global epidemic. This is a fight 
that demands action from every single one of us, women and men 
alike. When hundreds of girls are kidnapped by Boko Haram in 
Nigeria or women in Afghanistan are raped, burned with the 
acid, or subjected to brutal violence, when these horrific acts 
are committed, it strains the imagination and stains the 
conscience of the global community.
    So everyone in this room, I believe, thanks you, Senator 
Boxer, for being there for every woman in America and around 
the world who needs a champion. And there are many.
    In too many places, women are producing 70 percent of the 
food, but earning only 10 percent of the income and own only 1 
percent of the land. In too many places, women are banned from 
participating in national governments, village councils, and 
peace negotiations. In too many places, girls are prevented 
from attending school, and now a majority of the world's 
illiterate people are women. In too many places women and girls 
are attacked as a deliberate and coordinated strategy of armed 
conflict, and rape is used as a weapon of war.
    And in spite of all of that horrific news, there is also 
some good news. In Uganda, a robust women's movement began a 
tireless campaign to ensure that women were protected in the 
tenure, ownership, and administration of land.
    In Afghanistan, life expectancy for women has risen in just 
10 years from 44 years of age to 62. Ten years ago almost no 
girls went to school. Today 3 million are in school and make up 
40 percent of all primary school enrollments. Nearly 120,000 
Afghan girls have graduated from high school, 15,000 are 
enrolled in universities, and nearly 500 women are on 
university faculties.
    So let me close by saying we know that when women are free 
of gender-based violence and allowed to be educated and safe, 
we know that they will make an extraordinary difference. The 
world needs educated women to take leadership roles, and in my 
view, the world needs more leaders like Senator Boxer and the 
panelists who are here today. And as the chairman of the Senate 
Foreign Relations Committee, Senator Boxer, I look forward to 
working with you to make both initiatives a reality.
    Senator Boxer. Well, I want to thank you, Mr. Chairman, for 
your commitment and the same with my ranking member.
    I want to say I am looking at an iconic picture here. These 
incredible women from all over the country--and it makes me 
very happy that you are here.
    I have the order of arrival. I think some of you had to 
leave by 10:15. I think you will be okay because it is just a 
couple minutes each to tell a quick story. So we will start in 
order of arrival.
    Senator Hirono.

              STATEMENT OF HON. MAZIE K. HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you. Thank you, Chair Boxer and 
Ranking Member Paul, Senator Menendez, for inviting me to speak 
today on such an important matter.
    You will be hearing incredible stories from my colleagues 
about discrimination against women all across our world. This 
violence and discrimination is rooted in sexism and disrespect 
toward women. And I want to share a recent example that 
demonstrates how high this disrespect goes.
    The incident involved a Japanese female representative to 
the Tokyo Metropolitan Assembly, which is akin to a State 
government assembly in the United States. This representative, 
Ms. Iaku Shiamura, spoke out on the importance of supporting 
women who need assistance while pregnant or raising children. 
While she was speaking, her male counterparts in an opposing 
party shouted at her with comments such as, hey, idiot, hurry 
up and get married. Can't you have babies? Although she 
continued to speak, she fought back tears.
    Here is a female parliamentarian who cannot even express on 
the assembly floor her thoughts about empowering women. Blatant 
disrespect and discrimination of women in the form of taunts 
and pigeonholing based on sex role stereotyping provides a 
breeding ground for more direct violence against women in the 
United States and around the world.
    Japan, like many other countries, has a long history as a 
male-dominated society. This type of environment, of course, is 
not limited to Japan. We see echoes of it here in the United 
States as well. And so, yes, the United States has work to do 
to end discrimination and violence against women. In fact, no 
country is perfect in this sense. But I say that we, as women 
and as legislators, must continue to lead by example.
    My call to action is to urge that we continue supporting 
all young women in pursuing all of their interests, including 
politics. After all, as the Civil Rights Act, Title IX--by the 
way, we celebrated the 42nd anniversary of the passage of Title 
IX yesterday--and the Violence Against Women Act showed us, 
changes to law made at the de jure or political level can 
affect the de facto discrimination women around the world face.
    Thank you very much.
    Senator Boxer. Senator, thank you, and I know your personal 
story runs deep inside you. And this is an important issue to 
you, and I thank you.
    We will turn to Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Chairman Boxer. 
Thank you to the members for holding this hearing.
    I want to focus my remarks on sex trafficking. This 
horrific crime has emerged as the third-largest criminal 
enterprise in the world, behind only trafficking of guns and 
trafficking of drugs. The average age of girls who become 
victims is 13, not old enough to drive a car, not old enough to 
go to a high school prom.
    I would like to share with you a brief story about a girl 
named Paloma, who Senator Heitkamp and I met in Mexico when we 
went down there with Cindy McCain on a trip that focused on sex 
trafficking a few months ago. There were girls at this shelter 
at Covenant House in Mexico City that were as young as age 11. 
Paloma was new to the house. The other girls were more 
adjusted. The other girls were much, I would say, friendlier 
and smiling, knowing that they had had horrible things happen 
to them. But Paloma was new to the house. And when she 
introduced herself, she introduced herself in English and then 
she just started to cry and those tears just kept coming, 
rolling down her cheeks.
    We knew that she had suffered unspeakable abuse. We knew 
she was in some place that was safe. But what we did not know 
was what had happened to her, and I think in that way, the fact 
that we did not know made it all the worse. And I remember 
thinking, as I watched her, of meeting a refugee once who had 
told me that he had been through things that were so awful that 
it would make stones cry. That is how we felt when we met with 
those girls.
    We have a major problem in this world. You see it in 
Nigeria, news today that even more children were abducted. You 
see it all over the world.
    But what I think is important to note is that we also see 
it in our own country and that the major source for girls, that 
are sex trafficked in our own country, is our own country. And 
one of the things we realized, as we met with the Mexican 
Attorney General and the head of the Federal Police, is that we 
were able to say we have our own problem in this country. We 
want to work with you. We want to get ideas from you. We want 
to partner together on these prosecutions. But we have to fix 
things in our own country.
    Senator Cornyn and I are leading a bill that has widespread 
bipartisan support called the Stop Exploitation Through 
Trafficking Act. A similar version just passed the House last 
month based on our bill, and we just urge this committee, in 
addition to the work that you will be doing, I am sure, on 
foreign aid and other things, to help with this problem around 
the world and elevate this barbaric crime as we approach 
foreign policy. I also ask for your support as we move forward 
with these sex trafficking bills that will help prosecution in 
our own country.
    Thank you very much.
    Senator Boxer. Thank you so much.
    Senator Markey, would you move a little closer to us 
because you are too far away. [Laughter.]
    No. Seriously.
    Next, we will hear from Senator Stabenow.

              STATEMENT OF HON. DEBBIE STABENOW, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Thank you very much, Madam Chair, for 
your incredible leadership and passion on this, and to our 
chairman of the committee who is doing such an incredible job, 
Ranking Member Paul, and to all of the committee.
    I want to talk for a moment about what is happening in the 
Democratic Republic of Congo. There is a small camp of refugees 
right next to a national park. To get food and firewood, women 
in the camp are forced to go into the forest. But that forest 
is filled with predators, sexual predators and armed groups, 
who prey on these vulnerable women. On an average day, 10 women 
who travel into the forest are raped. Now, think about that. On 
an average day, 10 women going into the forest are raped. These 
women have no choice. If they want to cook food, if they want 
to stay warm at night, they need to go into the forest. And 
they know when they do that they are at very high risk of being 
attacked.
    In this camp, there is a woman we call Colette. It is her 
job to provide counseling and support to the women who are 
victims of violence. She listens 10 times a day as these women 
recount their traumatic experiences. She guides them to 
emergency services that come at no cost, and she helps them to 
overcome the stigma and discrimination these survivors face not 
only from society but sometimes from their own husbands. Ten 
times a day Colette hears the firsthand story of a woman who is 
a victim of sexual violence.
    Colette can relate to these women because she is a survivor 
herself. She was raped and she vividly remembers the fear not 
just of the attack but of her husband as well.
    We can help these women, Madam Chair, as you know so well. 
International groups can provide money for firewood and fuel 
efficient stoves, but that is not sustainable and it does not 
solve the real problem.
    That is why I am proud to join with you as a cosponsor of 
the International Violence Against Women Act. We need to put 
the full weight of the United States of America, our diplomacy, 
behind this basic human right that no woman in any country 
should have to live every day of their lives in fear of being 
attacked or raped.
    Thank you.
    Senator Boxer. Thank you so much.
    Senator Baldwin.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Madam Chair.
    In April 2011, 24-year-old Nicola Ngwaza was murdered in 
South Africa. Her attackers raped, repeatedly beat, and stabbed 
her apparently because of her sexual orientation, before 
dumping her body in a drainage ditch.
    Taunts and insults against LGBTI individuals in South 
Africa are common as are hate crimes like sexual assault and 
other physical attacks, particularly in rural areas. The 
authority's inaction leads to a greater sense of fear and 
insecurity for the LGBTI community.
    We often hear of the egregious acts of violence perpetrated 
against women in South Africa. Yet, headlines often forget to 
mention the violence carried out against members of the 
lesbian, gay, bisexual, transgender, and intersex community. 
Violence directed at individuals perceived to be LGBTI has 
steadily increased. Yet, there has been a consistent failure of 
police authorities to address these acts of targeted violence.
    April 24, 2014 marked the 3-year anniversary of the brutal 
death of Nicola Ngwaza. Three years after her death, no 
progress has been made into the investigation of her murder, 
and her killer or killers remain at large.
    As we hear today's testimony, we must be resolved to take 
action so that there are no longer stories such as Nicola's. 
This will take great effort from the international community 
and the Senate can and should contribute its part by calling up 
and passing bills such as your own, Madam Chairwoman, 
International Violence Against Women Act, and Senator Markey's 
International Human Rights Defense Act of 2014, both of which I 
am proud to join as cosponsor. These bills to help advance the 
cause of human rights, equality, and justice around the world 
are vital.
    Thank you.
    Senator Boxer. Thank you so much.
    It is my privilege to call on Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you for this wonderful event. You 
cannot see it, Senator, but there is a lineup outside of young 
women waiting to hear our voices and waiting to hear your 
voices because they, along with you and everyone on this panel, 
knows that we have leadership responsibilities and leadership 
obligations.
    The story that I want to tell is not about a victim. It is 
about an activist that we met in Mexico City. Her name is 
Nellie Montelegra, and she singlehandedly has built out a 
program for prosecuting violence against women, prosecuting 
human trafficking, prosecuting crimes against children. And she 
has, along with her supporters, made a huge difference for the 
children and the victims of Mexico.
    We stand shoulder to shoulder with all of those advocates. 
And I know in very many corners, there are advocates all across 
the country, all across the world who stand with us. But they 
expect one thing from us. They expect leadership. And a lot of 
us who confront this problem at home, confront the discussion 
at home as we move into a period of isolationism, a lot of us 
get asked why should we care. And we know those countries that 
are most violent against their women and children, who are most 
impoverished are the least stable, present the greatest 
national security risk. And so we have to address this problem 
not only from a human rights standpoint but from a national 
security standpoint because if we stabilize the situation, if 
we are able to provide for women and children in every corner 
of the world, we will have a much more stable, much more 
gracious, and I think, a much better world.
    And so thank you for your leadership, and thank you for the 
leadership of everyone at this table.
    Senator Boxer. Senator, thank you so much for putting this 
into a larger context.
    And now we will hear from Senator Murray and our cleanup 
batter will be Senator Warren.
    And I just want to say how proud I am, Senator Murray. I 
know with your leadership responsibilities, as well as all your 
committees, you made time for this, and it says a lot to us. 
Thank you.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Well, thank you very much, Senator Boxer 
and Senator Paul. It is so important that you convened this 
important issue. It is something very near and dear to me and 
to all of us, and I appreciate the opportunity to be here with 
so many of our female colleagues.
    I joined forces with many of the fellow Senators before you 
to pass the Violence Against Women Act last spring, and I said 
then it was one of the privileges of my career to ensure that 
VAWA included strong protections for tribal women, the LGBT 
community, and immigrants, among others. And I stand by those 
words today. I could not be more proud of the work we have done 
to advocate on behalf of women wherever they live.
    But there is much more to be done especially in countries 
where women are still fighting for basic human rights. So I am 
pleased to be here today to address gender-based violence and 
girls' education, and I want to do so by highlighting the story 
of Lahli, a 15-year-old girl from India. Her story was brought 
to my attention by the International Center for Research on 
Women.
    She was raised as the only daughter among four children and 
had to fight for food, among other resources in the family. Her 
own well-being was placed behind that of her brothers, despite 
the fact that she may very well care for her own family one 
day. When Lahli's mom tried to enroll her daughter in school, 
she was met with opposition from the elders of her community. 
They did not believe that the family had enough to pay for both 
Lahli's education and her dowry.
    Eventually Lahli and her mother gave up the fight, and her 
dowry was deemed far more important. She was married at the 
young age of 15 and certainly was not ready to accept the 
responsibilities of matrimony. Ultimately, her marriage ended 
any potential opportunity to better herself and her family.
    That is the fate that awaits millions of other girls in 
India. Girls like Lahli perpetuate a cycle that is difficult to 
break.
    But there is a solution: invest in quality basic education. 
Investing in girls' education will improve the welfare of 
millions of people worldwide and will improve health outcomes 
because educated women are more likely to invest in their 
families and communities, and they are less likely to die in 
pregnancy and child birth, and their children are less likely 
to die in infancy. It will reduce child marriage because 
educated girls and women are more likely to marry later in life 
when they have developed the strength and maturity to accept 
the role with pride. And it will reduce violence because 
educated women are less likely to be victims of sexual or 
gender-based violence and are less likely to tolerate it among 
their families.
    It is timely that on Thursday the Global Partnership for 
Education will hold its second replenishment pledging 
conference in Brussels. The partnership was actually 
established in 2002 in order to coordinate international 
resources in pursuit of a lofty goal: to deliver a good quality 
education to all girls and boys, prioritizing the poorest and 
most vulnerable. The multilateral conference will hear from 
nonprofit partners and governments alike about the need to 
invest in quality basic education.
    It is my hope that the international community will heed 
this call so that girls like Lahli and so many like her can 
pursue an education, escape the trappings of poverty, and 
fulfill her full potential.
    Thank you, Madam Chair.
    Senator Boxer. Senator, thank you.
    In conclusion, we hear from the Honorable Elizabeth Warren.

              STATEMENT OF HON. ELIZABETH WARREN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Warren. Thank you very much. Chairman Boxer, 
Ranking Member Paul, members of the committee, thank you for 
this opportunity to discuss the importance of combating 
violence and discrimination against women worldwide.
    I want to celebrate an inspiring woman who confronted these 
challenges head on from the age of 13 until her untimely death 
from a heart attack at the age of 48 in 2011.
    Sonia Pierre was one of 12 children. She was of Haitian 
descent, raised in a Dominican migrant worker camp. From her 
early teens, Sonia dedicated her efforts toward protecting the 
human rights of Dominicans of Haitian descent, particularly 
women and children who are the most vulnerable targets of 
discrimination. She founded the Movement of Dominican-Haitian 
Women to combat gender-based discrimination and anti-Haitian 
prejudice and to improve women's health care services and 
education programs. She faced continuous physical attacks, 
imprisonment, and threats to her life. She was first arrested 
at 13 years old while marching for humane labor conditions for 
Haitian Dominicans working on sugar cane plantations, and she 
faced constant danger and attacks for the rest of her life. But 
she kept fighting back.
    Sonia's actions in the face of these threats is an 
inspiration to people everywhere, but particularly to thousands 
of my constituents in Massachusetts, which is home to the 
third-largest Haitian population in the United States. Nearly 3 
years after her death, Sonia's legacy of promoting the human 
rights of women and children of Haitian ancestry lives on.
    Around the world too many women and girls confront the 
challenges similar to those faced by Sonia. Too many women and 
girls are victims of gender-based violence and discrimination 
as weapons of intimidation, coercion, and power. The United 
States must be committed to protecting the rights of women and 
girls committed to combating violence and discrimination 
against women across the globe.
    Congress should pass the International Violence Against 
Women Act, a bill that you introduced, Chairman Boxer, and that 
I am proud to cosponsor with many of my colleagues, in order to 
strengthen existing strategies for reducing gender-based 
violence and discrimination worldwide. Investing in women and 
girls means investing in a future that is more prosperous, 
secure, just, and peaceful for all. And it is time for Congress 
to carry this fight forward. The leadership should be ours.
    Thank you, Madam Chairman.
    Senator Boxer. Senator, thank you.
    And to my colleagues, it meant so much to me and, more 
importantly, to the girls and women of the world that you took 
time to come here today. So we will allow you to get back to 
your busy schedules with our deepest thanks. Thank you very 
much.
    And we are going to combine our panels into one. As they 
come up, I want to hear from Senator Markey and Senator Risch, 
if they have opening statements.
    Senator Risch. I yield back.
    Senator Boxer. So then I would ask panels two and three to 
come forward. There are six of you, but we need you to come as 
quickly as you can, given the schedule we have.
    The Honorable Catherine Russell, Ambassador at Large for 
Global Women's Issues at the State Department; Ms. Susan 
Markham, Senior Coordinator for Gender Equality and Women's 
Empowerment, U.S. Agency for International Development. And I 
want to say these women work on these issues night and day.
    It is actually five panelists. The next three are Mr. Gary 
Barker, Ph.D., international director, Promundo, Washington, 
DC; Ms. Jacqueline O'Neill, director, Institute for Inclusive 
Security, Washington, DC; and Ms. Hauwa Ibrahim, senior 
partner, Aries Law Firm, Nigeria.
    So we will ask you all to take your seats.
    Senator Markey. Madam Chair?
    Senator Boxer. Yes.
    Senator Markey. Maybe I could be recognized for 1 minute.
    Senator Boxer. Please. Yes, Senator Markey.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. I thank you, Senator Boxer, for convening 
this critically important hearing, and I thank all of my 
colleagues for your thoughtful and inspiring testimony. I think 
that was an incredible opening to this hearing.
    According to Amnesty International, violence against women 
and girls is one of the most pervasive human rights abuses and 
a global epidemic. Almost daily we read of another woman raped, 
another woman murdered by an abusive spouse, another group of 
girls trafficked. In far too many countries, nothing is done to 
the perpetrators of these horrific crimes.
    Violence and discrimination against women and girls is not 
just a human rights issue or a moral issue. It is a matter of 
national security. It should come as no surprise that the 
countries where women are safe, the countries where women are 
equal, are the countries with the greatest stability, both 
economically and politically. Where women are safe, laws are 
enforced. Where women are safe, girls are educated. Where women 
and girls are safe, women are productive, able to contribute to 
their families and to their communities.
    That is why our foreign policy must focus laser-like on 
ending violence and discrimination against women and girls. 
That is why I am a cosponsor of your legislation and why I also 
introduced the International Human Rights Defense Act. We need 
to be sure that women's rights and LGBT rights remain a focus 
of our foreign policy until all women and girls around the 
world are free and safe and equal. We need to be sure that the 
positions our next witnesses, Ambassador Russell and Ms. 
Markham, hold are made permanent in this administration and in 
every administration until this epidemic of violence and 
discrimination ends.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    So here is how we are going to go. I am going to introduce 
the first two speakers who are our government panel, and then 
we will take a breath. Then I will introduce our next three 
speakers and then when you are all done, we will ask questions 
to whomever we choose.
    So our first witness today is the Ambassador at Large for 
Global Women's Issues at the State Department, Catherine 
Russell. Prior to assuming this post, Ambassador Russell served 
as Deputy Assistant to the President and Chief of Staff to 
Second Lady, Dr. Jill Biden. While at the White House, 
Ambassador Russell coordinated the development of the 
administration's Strategy to Prevent and Respond to Gender-
based Violence Globally, which was released in 2012. She 
previously served as the senior adviser to the Senate Foreign 
Relations Committee on international women's issues.
    And I want to also welcome her brilliant staffer, Ann 
Norris, who learned everything she needed to learn in my 
office. [Laughter.]
    We are very proud to see you here, Ann.
    I was pleased to chair Ambassador Russell's nomination 
hearing last July. So I am very happy to welcome her back.
    And we will then hear from Ms. Susan Markham, the Senior 
Coordinator for Gender Equality and Women's Empowerment at the 
U.S. Agency for International Development, USAID. Ms. Markham 
has a long history of working on women's political empowerment, 
both in the United States and globally. And most recently she 
served as the Director of Women's Political Participation at 
the National Democratic Institute, NDI, where she worked to 
support the meaningful participation of women around the world 
in civic and political life.
    So thank you both for your dedicated service, and we 
certainly look forward to your testimony. We will begin with 
you, the Honorable Catherine Russell.

STATEMENT OF HON. CATHERINE M. RUSSELL, AMBASSADOR AT LARGE FOR 
GLOBAL WOMEN'S ISSUES, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Russell. Thank you so much. Thank you, Chairman 
Boxer, Senator Markey, Senator Risch, for being here.
    And I just have to say, Senator Boxer, I have never seen so 
many amazing women lined up here today. I thought that was a 
very powerful statement, and I really appreciate that very 
much.
    Before I begin, I would like to thank the subcommittee 
under Chairman Boxer's leadership for the tremendous work you 
have done to profile these issues.
    I would also like to recognize my counterpart, Susan 
Markham, at USAID, as well as the organizations who are here 
today who are really indispensable partners in this work.
    I want to speak today about three tools that the United 
States has to address and respond to the continuing epidemic of 
gender-based violence.
    Senator Boxer, I would also like to take a moment to thank 
you for your support of U.S. ratification of CEDAW, which would 
be an important additional tool to help urge countries to 
meaningfully address gender-based violence, as well as other 
issues.
    The first of our tools is diplomacy. One of my highest 
priorities as Ambassador is to ensure that efforts to address 
and end gender-based violence are a key aspect of U.S. 
diplomatic engagement. Gender-based violence is on the agenda 
of every trip I take, from encouraging the Afghan Government to 
fully implement the Elimination of Violence Against Women law, 
to meeting with survivors of acid attacks in Pakistan. Like 
you, I am motivated by the deeply personal stories I have heard 
during my travel: the young Nepalese girl whose family did not 
value her enough to send her to school, the young Sri Lankan 
woman who told me of the brutal gang rape she suffered during 
police interrogation, or the Afghan school girl whose father 
wanted to sell her rather than send her to school.
    This issue is a top priority for Secretary Kerry as well. 
Our voices joined with yours must ring loud and clear. This 
violence is unacceptable.
    The second powerful tool we employ in this fight is our 
policy efforts. This past December, the Department launched 
three interagency committees to implement the administration's 
strategy that you mentioned to prevent and respond to gender-
based violence globally. To help address impunity, the United 
States recently suspended entry into our country of 
perpetrators, including government officials at any level, who 
are responsible for war crimes, crimes against humanity, or 
other serious violations of human rights, including those 
involving rape, sexual assault, and sexual slavery. We are 
encouraging other governments to take similar action to send a 
strong message to those who engage in these crimes.
    This brings me to our third and final tool: programming to 
match our policy priorities and our diplomatic engagement. I 
would like to take a moment to highlight a number of recent 
efforts announced by Secretary Kerry.
    First, we will soon release a new funding opportunity to 
build on our $10 million Safe from the Start initiative which 
aims to protect women and girls from the very onset in 
humanitarian emergencies.
    Secondly, we recently announced a doubling of the original 
commitment in the Gender-Based Violence Emergency Response and 
Protection Initiative to $1 million, which provides immediate 
financial assistance to women and girls who have experienced 
severe violence or are in danger of imminent harm.
    And as announced at the recent global summit in London, the 
United States is launching a new Accountability Initiative to 
help us build the capacity of partner governments to bring 
perpetrators to justice in innovative ways such as through the 
use of mobile courts.
    Yet, we know that a tremendous amount of work remains to be 
done. In particular, we need to change mindsets so that 
violence against women and girls can never be dismissed as 
cultural or inevitable. It is criminal.
    The statistics regarding gender-based violence are 
sobering, and yet somehow when I meet with women and girls who 
have faced this kind of violence, I continue to feel hopeful. 
The young Afghan girl I mentioned earlier, whose father wanted 
to sell her, was part of a larger group of girls. When I asked 
them what they wanted to be when they grow up, their answers 
were no different than the ones my daughter or her friends 
might give, lawyer, doctor, teacher. One wanted to be President 
of Afghanistan.
    These girls embody promise and possibility. We know that 
empowering women and girls and protecting them from violence 
will lead to stronger families, communities, and countries. I 
look forward to working with you to make this a reality.
    Thank you very much.
    [The prepared statement of Ambassador Russell follows:]

               Prepared Statement of Catherine M. Russell

                              introduction
    Good morning, and thank you, Chairman Boxer, Ranking Member Paul, 
and distinguished members of the committee for inviting me to testify 
today. I am happy to be here to discuss the importance of preventing 
and responding to gender-based violence and to highlight U.S. and 
international tools and strategies to combat violence and 
discrimination against women and girls globally. Before I begin, I'd 
like to thank this subcommittee, under Chairman Boxer's leadership, for 
the tremendous work you have done to raise the profile of these issues 
and to ensure they receive the attention they deserve. I'd also like to 
recognize my counterpart, Susan Markham, at USAID, as well as the NGOs 
in the room today who are instrumental partners in this work.
    Gender-based violence, which we have seen splashed across the front 
pages of newspapers most recently in India, Nigeria, Pakistan--as well 
as here in the United States--is a global epidemic. It crosses every 
social and economic class, ethnicity, race, religion, and education 
level, and transcends international borders. It takes the form of 
intimate partner violence, early and forced marriages, sexual violence, 
acid attacks, and traditional harmful practices such as female genital 
mutilation/cutting. And it is widespread. Worldwide, an estimated one 
in three women will be physically or sexually abused in her lifetime, 
and one in five will experience rape or attempted rape. In some places, 
especially in conflict zones, these statistics are even higher. This 
violence doesn't only affect women and girls, but it threatens entire 
communities, precludes economic growth, and fuels cycles of violence 
and conflict.
    My job as Ambassador at Large for Global Women's issues is to 
ensure that the rights and empowerment of women and girls are 
integrated into all aspects of U.S. foreign policy, to reiterate that 
peace, security, prosperity, and economic growth cannot be achieved 
without the full participation of women, and to ensure that men and 
boys are engaged as important partners in this effort. I believe firmly 
that gender-based violence is inextricably related to women's status 
and that we must address the issue in a comprehensive manner, including 
through women's economic empowerment and girls' education. I want to 
speak today to some of the tools we have at our disposal to address and 
respond to gender-based violence, and to the reasons why this topic is 
so critically important to the work of this administration.
                                 tools
A. Diplomacy
    One of my highest priorities as Ambassador is to ensure that 
efforts to end gender-based violence are a key aspect of U.S. 
diplomatic engagement. That is why I make sure that gender-based 
violence is on the agenda of every trip I take and nearly every meeting 
I hold. These efforts range from encouraging the Afghan Government to 
fully implement the Elimination of Violence Against Women (EVAW) law to 
meeting with survivors of acid attacks in Pakistan. Like you, I am 
motivated by the deeply personal stories I have heard during my 
travel--from the young Nepalese girl whose family did not value her 
enough to send her to school, the Sri Lankan young woman who told me of 
a brutal gang rape during a police interrogation, and the Afghan 
schoolgirl whose father wanted to sell her rather than send her to 
school. We cannot rest until the violence stops.
    I know that this is a priority for Secretary Kerry as well. Two 
weeks ago, he traveled to the United Kingdom to attend the Global 
Summit to End Sexual Violence in Conflict, where he powerfully stated 
that ``Gender-based violence, anywhere, is a threat to peace, security, 
and dignity everywhere.'' He also recently visited an obstetric fistula 
clinic at St. Joseph's hospital in the Democratic Republic of the 
Congo, where some of the world's worst atrocities against women and 
girls are committed. Just as this is a personal priority for me, it is 
a priority for him. Our voices, joined with yours and with those of the 
survivors of gender-based violence, must ring loud and clear: it is 
unacceptable.
B. Policy
    The second powerful tool we employ in this fight is through our 
policy efforts. While serving as Chief of Staff to Dr. Jill Biden, I 
spearheaded an interagency effort to develop the ``U.S. Strategy to 
Prevent and Respond to Gender-Based Violence Globally,'' which the 
administration released in August 2012. This past December, the 
Department launched three interagency committees to implement the 
strategy and the accompanying Executive order from President Obama. The 
committees are currently working to identify focus countries, ensure 
that U.S programming to prevent and respond to gender-based violence is 
based on best practices, and implement intensive monitoring and 
evaluation programs for our initiatives. This work also complements and 
builds upon the December 2012 ``U.S National Action Plan on Women, 
Peace and Security,'' which aims to protect women and advance their 
participation in conflict, post-conflict, and relief and recovery 
settings. The National Action Plan also focuses specifically on 
addressing gender-based violence in countries characterized by war, 
violence, and insecurity.
    To help address impunity, Secretary Kerry recently issued a 
``challenge'' to other governments to restrict travel by those 
responsible for crimes against humanity, war crimes, and other serious 
violations of human rights, including those involving sexual violence. 
The United States has suspended entry into the United States of 
perpetrators--including government officials, at any level--of war 
crimes, crimes against humanity, or other serious violations of human 
rights, including those involving rape, sexual assault and sexual 
slavery. We are hoping that other governments around the world take 
similar action, and we encourage you to raise this issue with them in 
your bilateral discussions.
    All of these efforts are a direct extension of the broad gender 
policy initiatives undertaken by the Obama administration, which has 
brought an unprecedented focus to bear on promoting gender equality in 
service of our national security and foreign policy objectives. 
Advancing the status of women and girls is woven into our National 
Security Strategy, the QDDR, our Department of State Foreign Affairs 
Manual, and in policy guidance recently released by Secretary Kerry 
directing all bureaus and embassies to continue to further integrate 
gender equality in all aspects of our diplomacy, including preventing 
and responding to sexual violence in peacetime and conflict.
C. Programming
    This brings to me to my third and final tool: programming to match 
our policy priorities and our diplomatic engagement. We recognize that 
prevention and response to gender-based violence is a critical part of 
our work, and I'd like to take a moment to highlight a number of recent 
efforts announced by Secretary Kerry. These efforts build upon long-
standing work being done by the Department and USAID on this issue.
    First, we will soon release a new funding opportunity to build on 
our $10 million Safe from the Start Initiative. Safe from the Start is 
a joint State-USAID effort that focuses on getting the right systems in 
place at the very onset of a conflict or crisis. The United States has 
already provided support to the Office of the High Commissioner for 
Refugees (UNHCR) and the International Committee of the Red Cross 
(ICRC) to help hire specialized staff and to develop innovative methods 
to protect women and girls at the onset of emergencies worldwide. We 
know that women and girls are most at risk in these settings, and we 
must make every effort to ensure their safety.
    Second, we recently announced a doubling of the original commitment 
to the Gender-Based Violence Emergency Response and Protection 
Initiative to $1 million. This initiative addresses the immediate 
security needs of survivors of severe gender-based violence, as well as 
individuals under credible threat of imminent attack due to their 
gender. Individuals can quickly receive U.S. assistance for up to 6 
months, reaching a total of $5,000. These flexible funds can be used to 
address short-term emergency needs such as payment of legal and medical 
bills, relocation, security, and dependent support. This fund provides 
a mechanism to respond immediately to the horrible stories of violence 
we read about so often in the news. In addition, it also provides 
targeted training to implement gender-based violence laws and support 
activism to address cultural attitudes and norms around gender-based 
violence.
    Third, the United States just committed an additional $2.5 million 
to expand our partnerships with countries undertaking Centers for 
Disease Control and Prevention (CDC) National Violence Against Children 
Surveys along with the global public-private partnership Together for 
Girls. Together for Girls, which the United States Government helped to 
launch, helps countries undertake comprehensive surveys to document the 
magnitude, nature, and impact of physical, emotional and sexual 
violence against children with a specific focus on girls. Based on this 
data, Together for Girls helps implement evidence-based coordinated 
policy and program actions to address issues identified through the 
surveys, including legal and policy reforms, improved services for 
children who have experienced violence, and prevention programs.
    And finally, as announced at the Global summit in London, the 
United States is launching a new Accountability Initiative to help 
survivors of gender-based violence access the justice they deserve. 
This effort will help us build the capacity of partner governments to 
prosecute sexual violence crimes and bring perpetrators to justice 
through specialized judicial mechanisms in countries ravaged by war, 
violence, and insecurity. As you know, many countries facing serious 
sexual violence crimes often lack functioning judicial systems. This 
initiative is designed to send a strong message to would-be 
perpetrators that they will be held accountable for their crimes.
    In addition to these recent announcements, the Department of State 
runs a variety of programs focused on preventing and responding to 
gender-based violence. For example, through our Bureau of International 
Narcotics and Law Enforcement Affairs, we are currently funding women's 
protective shelters in Afghanistan. One of our largest programs, the 
President's Emergency Plan for AIDS Relief (PEPFAR) specifically 
addresses the link between gender-based violence and HIV/AIDS. My own 
office has administered a series of small grants over the past few 
years to support civil society organizations working in their 
communities to address gender-based violence. I would be happy to share 
more information about these efforts.
    Yet we know that a tremendous amount of work remains to be done. We 
need additional research and data on best practices to end this global 
scourge, and we need to know more about how best to engage men and 
boys, who often serve as leaders in the community. Finally, we need to 
change mindsets so that it is clear to everyone that violence against 
women and girls can never be dismissed as cultural or inevitable--it is 
criminal.
    Gender-based violence is a collective problem that demands a 
collective solution--it requires not only the expertise of private, 
public, and nonprofit sectors, but the commitment of the global 
community. The United States will continue to be a vocal advocate on 
this issue in the multilateral space, including at the Commission on 
the Status of Women and the U.N. General Assembly.
    The statistics regarding gender-based violence are sobering, and 
the challenge and needs are great. And yet, somehow when I meet with 
women and girls who have faced this kind of violence, I walk away 
feeling reenergized. The young Afghan girl I mentioned earlier in my 
testimony--whose father wanted to sell her--was part of a larger group 
of girls I spoke with. When I asked them what they wanted to be when 
they grew up, their answers were no different than the ones my own 
daughter might give: lawyer, doctor, teacher. One girl said she wanted 
to be President.
    These girls embody promise and possibility. We know that empowering 
women and girls and protecting them from violence will lead to stronger 
families, communities, and countries. I look forward to working with 
you to make this a reality.

    Senator Boxer. Thank you.
    And we will turn to Ms. Susan Markham.

   STATEMENT OF SUSAN MARKHAM, SENIOR COORDINATOR FOR GENDER 
EQUALITY AND WOMEN'S EMPOWERMENT, U.S. AGENCY FOR INTERNATIONAL 
                  DEVELOPMENT, WASHINGTON, DC

    Ms. Markham. Thank you. Good morning, Chairwoman Boxer, 
Senators Durbin and Risch, and other distinguished members of 
the subcommittee. Thank you for the opportunity to testify 
before you today regarding the critical issue of gender-based 
violence.
    And, Senator Boxer, I must say we appreciate your years of 
work on behalf of women and girls around the world.
    Under the leadership of President Obama, the United States 
has put gender equality and the advancement of women and girls 
at the forefront of U.S. foreign policy, and preventing and 
responding to gender-based violence is a cornerstone of the 
administration's commitment to advancing gender equality.
    Gender-based violence cuts across ethnicity, race, sexual 
orientation, class, religion, educational level, and even 
international borders. The majority of survivors are women and 
girls, but men and boys are also subjected to this crime. An 
estimated one in three women worldwide has been beaten, coerced 
into sex, or otherwise abused in her lifetime with intimate 
partner violence as the most common form of violence 
experienced by women globally.
    Gender-based violence can also take the form of harmful 
traditional practices such as female genital mutilation or 
cutting, so-called honor killings, bride abductions, and early 
enforced marriage.
    For over two decades, USAID has partnered with 
nongovernmental, public international, and faith-based 
organizations, as well as host government institutions, to 
address the issue of gender-based violence. USAID programs 
focus on four strategies to combat gender-based violence.
    First, we address the root causes of violence.
    Next, we increase the awareness of the scope and impact of 
gender-based violence.
    We also try to work to improve services for the survivors 
of violence.
    And finally, we support legal frameworks to strengthen 
prevention efforts.
    In the last 2 years, USAID has reinvigorated its work on 
gender equality and women's empowerment, launching a number of 
complementary policies and strategies to bolster our efforts, 
building on our expertise in development assistance to maximize 
the impact of agency efforts to prevent and respond to gender-
based violence.
    All USAID gender-based violence programs seek to reach the 
most vulnerable populations, including women, children, persons 
with disabilities, lesbian, gay, bisexual, and transgender 
persons, and the elderly who often face extraordinary levels of 
violence and abuse.
    Poverty, social norms, and the imbalance of power between 
men and women are often drivers of gender-based violence. So in 
South Africa, USAID is supporting the scale-up of the 
Intervention with Microfinance for AIDS and Gender Equity 
project, called IMAGE, and findings from this work indicate 
that economic and social empowerment of women can contribute to 
reductions in intimate partner violence.
    USAID recognizes that protection of vulnerable populations 
must be addressed in both public and private spaces. So USAID's 
Safe Schools pilot program worked to reduce gender-based 
violence in schools in Ghana and Malawi for 30,000 girls and 
boys. By the end of the project, teachers and students 
exhibited changed attitudes about gender-based violence.
    The most effective approaches to providing services to 
survivors are often holistic. So in 2013, USAID's Victim of 
Torture program in the Democratic Republic of Congo reached 
more than 42,000 beneficiaries to provide medical treatment, 
psychological and social support, legal assistance, awareness 
raising, and economic strengthening.
    Strengthening laws and policies is also critical in 
combating gender-based violence. In 2013, USAID provided 
funding to support a state-of-the-art training in the Middle 
East and North Africa that expanded the number and regional 
diversity of experts with the capacity to investigate these 
kinds of crimes.
    Looking ahead, USAID will continue to refine tools and 
interventions to effectively address gender-based violence. The 
agency is actively involved in finding ways to adopt 
appropriate technology that will provide innovative, effective, 
and cost-effective solutions while also encouraging stronger 
evaluations of activities that address gender-based violence.
    As mentioned by my colleague, Ambassador Russell, the Safe 
from the Start initiative is a joint USAID and State Department 
effort to build capacity of the humanitarian system to better 
meet the women and girls in emergency situations.
    USAID will continue to address gender-based violence 
through partnerships with host communities, civil society 
organizations, universities, donor organizations, foundations, 
and private companies.
    Chairman Boxer, thank you once again for the opportunity to 
speak to this vitally important issue.
    [The prepared statement of Ms. Markham follows:]

                  Prepared Statement of Susan Markham

    Good afternoon, Chairwoman Boxer, Ranking Member Paul, and 
distinguished members of the subcommittee. Thank you for the 
opportunity to testify before you today regarding the critical issue of 
gender-based violence. It is an honor to be joined by my colleague from 
the State Department and by others working to effect change on this 
issue.
    Under the leadership of President Obama, the United States has put 
gender equality and the advancement of women and girls at the forefront 
of the three pillars of U.S. foreign policy--diplomacy, development, 
and defense. This is embodied in the President's National Security 
Strategy, the Presidential Policy Directive on Global Development, and 
the 2010 U.S. Quadrennial Diplomacy and Development Review. Women's 
empowerment is critical to USAID's core mission of ending extreme 
poverty and promoting resilient, democratic societies while advancing 
our security and prosperity and addressing pressing health and 
education challenges.
    Preventing and responding to gender-based violence is a cornerstone 
of the administration's commitment to advancing gender equality. Such 
violence is often a direct result of existing inequalities and hinders 
the ability of individuals to fully participate in and contribute to 
their families and communities--economically, politically, and 
socially.
    The United States Congress, and this committee in particular, has 
long championed efforts to prevent and respond to gender-based 
violence. As a result of these tireless efforts, Congress has been a 
key driver in responding to gender-based violence in the context of 
early and forced marriage, female genital mutilation/cutting, and 
region-specific violence against women, from Latin America and the 
Caribbean to the Middle East and North Africa. Congress has played a 
critical role in highlighting the bipartisan commitment of the United 
States to preventing and responding to gender-based violence, and has 
helped strengthen ongoing U.S. efforts.
                statement of the problem and statistics
    The United States has a strong interest in preventing and 
responding to gender-based violence around the world. Regardless of the 
form that gender-based violence takes, it is a human rights abuse, a 
public health challenge, and a barrier to civic, social, political, and 
economic participation. It leads to many negative consequences, 
including adverse physical and mental health outcomes, limited access 
to education, increased costs relating to medical and legal services, 
lost household productivity, and reduced income.
    Gender-based violence cuts across ethnicity, race, sexual 
orientation, class, religion, education level, and international 
borders. The majority of survivors are women and girls, but men and 
boys are also subjected to this crime. An estimated one in three women 
worldwide has been beaten, coerced into sex, or otherwise abused in her 
lifetime, with intimate partner violence as the most common form of 
violence experienced by women globally. An appalling 38 percent of all 
murders of women globally were reported being committed by their 
partners. Gender-based violence can also take the form of harmful 
traditional practices, such as female genital mutilation/cutting, so-
called ``honor killings,'' bride abductions, and early and forced 
marriage.
    An estimated 10 million girls are married every year before they 
reach 18. Early and forced marriage is a practice that increases a 
girl's risk of school dropout, maternal mortality, short birth 
intervals, and vulnerability to other forms of gender-based violence, 
among other adverse outcomes. Children are particularly vulnerable to 
violence, especially sexual abuse. According to the United Nations 
Population Fund, almost 50 percent of all sexual assaults worldwide are 
against girls 15 and younger. In 2002, 150 million girls and 73 million 
boys under the age of 18 years experienced forced sexual intercourse or 
other forms of sexual violence. Sexual violence is also often used as a 
tactic of war during conflicts. In the context of humanitarian crises 
and emergencies, civilian women and children are often the most 
vulnerable to exploitation, violence, and abuse because of their 
gender, age, and status in society. Women with a disability are two to 
three times more likely to suffer physical and sexual abuse than women 
with no disability. Lesbian, gay, bisexual, and transgender persons 
also face heightened risk. Sexual violence can also directly lead to 
HIV infection. Gender-based violence can foster the spread of HIV by 
limiting one's ability to negotiate safe sexual practices, disclose HIV 
status, and access services due to fear of reprisal.
    Gender-based violence undermines the safety, dignity, health, and 
human rights of survivors as well as the public health, economic 
stability, and security of nations. The United Nations Secretary 
General's 2005 in-depth study on violence against women found that when 
calculated across 13 countries (Australia, Bangladesh, Canada, Chile, 
Finland, Jamaica, Nicaragua, Netherlands, New Zealand, Spain, 
Switzerland, United Kingdom, and United States) the cost amounted to 
USD50 billion per year.
                  usaid work on gender-based violence
    For over two decades, USAID has partnered with nongovernmental 
organizations, public international organizations, faith-based 
organizations, and host government institutions to increase awareness 
of the scope and impact of gender-based violence, improve services for 
survivors of violence, and strengthen prevention efforts.
    Over the last 2 years, USAID has reinvigorated and strengthened its 
work on gender equality and women's empowerment, launching a number of 
new complementary policies and strategies to bolster and leverage our 
efforts. These policies include USAID's ``Gender Equality and Female 
Empowerment Policy,'' which provides guidance to our staff in 
Washington and in the field on pursuing more effective, evidence-based 
investments in gender equality and female empowerment and incorporating 
these efforts into our core development programming. The ``U.S. 
National Action Plan on Women, Peace, and Security'' focuses on gender 
equality and women's empowerment in crisis and conflict-affected 
countries to promote the rights and well-being of women and girls and 
to foster peaceful, resilient communities that can cope with adversity 
and pursue development gains. The ``U.S. Strategy to Prevent and 
Respond to Gender-Based Violence'' established a government-wide 
approach that identifies, coordinates, integrates, and leverages 
current efforts and resources. The ``U.S. Government Action Plan on 
Children in Adversity'' is the first-ever whole-of-government strategic 
guidance on international assistance for children in adversity 
integrating assistance and measuring results to ensure that children 
ages 
0-18 not only survive, but thrive. The ``USAID Vision for Action: 
Ending Child Marriage and Addressing the Needs of Married Adolescents'' 
highlights the need for development efforts to combat early and forced 
marriage and focus on regions, countries, and communities where 
interventions to prevent and respond to early and forced marriage are 
most needed and most likely to achieve results. The updated President's 
Emergency Plan for AIDS Relief (PEPFAR) gender strategy prioritizes 
gender-based violence prevention activities as well as the provision of 
post gender-based violence care, and also seeks to address the harmful 
norms that perpetuate such violence. And finally, the ``USAID Counter-
Trafficking in Persons Policy'' reinvigorates and focuses Agency 
efforts to combat trafficking on concrete, measurable principles and 
objectives.
    USAID's aspiration is simple--to use this framework to build on its 
global reach and expertise in development and humanitarian assistance 
to maximize the impact of Agency efforts to prevent and respond to 
gender-based violence.
    USAID supports many programs that prevent and respond to gender-
based violence around the world. All USAID gender-based violence 
programs seek to reach the most vulnerable populations--including 
women, children, persons with disabilities, lesbian, gay, bisexual, and 
transgendered persons and the elderly--who often face extraordinary 
levels of violence and abuse. Sadly, women and children often fare the 
worst in war, and gender-based violence rates often increase in complex 
crises around the world. Gender-based violence threatens to undermine 
the rights and security of women and girls--and even boys and men. It 
also threatens to stall or even reverse the important development gains 
made in many of the countries in which USAID works.
    Since 2013, USAID has funded 25 humanitarian assistance programs 
designed to prevent and/or respond to gender-based violence in 
countries affected by conflict and natural disaster, including the 
Democratic Republic of Congo, Syria, South Sudan, and the Central 
African Republic.
                         programmatic successes
    USAID programs address the root causes of violence, improve 
prevention and protection services, respond to the health and economic 
needs of those affected by gender-based violence, and support legal 
frameworks that mitigate gender-based violence. Within these programs, 
USAID works to engage women and girls--and to engage men and boys as 
advocates to both prevent and respond to sexual harassment and assault.
Addressing the root causes of violence
    Poverty, social norms, and the imbalance of power between men and 
women are often drivers of gender-based violence. In South Africa, 
USAID is supporting the scale-up of the Intervention with Microfinance 
for AIDS and Gender Equity (IMAGE) Project. The IMAGE project sought to 
find evidence about the scope of women's empowerment and the mechanisms 
underlying the significant reduction in intimate partner violence 
documented by the cluster-randomized trial in rural South Africa. The 
findings, both qualitative and quantitative, indicate that economic and 
social empowerment of women can contribute to reductions in intimate 
partner violence. The IMAGE intervention combined a microfinance 
program with participatory training on understanding HIV infection, 
gender norms, domestic violence, and sexuality. After 2 years, the risk 
of past-year physical or sexual violence by an intimate partner was 
reduced by more than half.
Improve prevention and protection services
    USAID recognizes that protection of vulnerable populations must be 
addressed in both public and private spaces. USAID's Safe Schools Pilot 
Program worked to reduce school-related gender-based violence in 
selected schools in Ghana and Malawi and to support prevention programs 
and support services for 30,000 girls and boys. By the end of the 
project, teachers and students exhibited changed attitudes about 
gender-based violence. The program was scaled up and launched in the 
Dominican Republic, Senegal, Yemen, Tajikistan, and the Democratic 
Republic of Congo. In addition, USAID has formed a partnership with the 
Peace Corps to use the Safe Schools materials and train volunteers on 
how to create a safe classroom environment, integrate gender-equitable 
practices into teaching and classroom management, and promote primary 
school reading.
    Gender-based violence is a long-standing problem in Haiti where the 
risk of violence and sexual exploitation is exacerbated by poverty, 
poor security, and a lack of awareness. USAID provided direct support 
and technical assistance to the Ministry of Women's Affairs for a 
campaign against rape. In addition, USAID is training Haitian health 
care providers at 31 facilities on how to identify and manage gender-
based violence cases and provide referrals to social and legal 
services. Since 2012, more than 177,000 people have been surveyed and 
sensitized on gender-based violence, including 485 staff, over 118,000 
patients, and over 58,500 community members living in high-risk areas.
    Because the crisis in Syria is fundamentally a failure of 
protection of the civilian population, our overall humanitarian 
response strategy within Syria is informed by a protection analysis and 
includes measures to promote the protection of the population--
including prevention of, and response to, gender-based violence. Our 
five protection priorities to address the crisis in Syria are gender 
and protection mainstreaming, gender-based violence prevention and 
response, child protection, psychosocial support, and humanitarian 
access. Additionally, specific activities include improving access to 
urgent clinical care and support, establishment of safe healing and 
learning spaces, basic needs provision, livelihoods opportunities and 
emergency shelters, and, within refugee hosting communities, efforts to 
prevent early marriage, human trafficking, child labor and domestic 
violence.
Responding to health and economic needs
    Effective approaches to providing services to survivors are most 
often holistic in nature. This includes improving access to 
comprehensive sexual and reproductive health services and mental health 
care for survivors of sexual violence so that they can rebuild their 
lives on their own terms, and physically and emotionally move beyond 
the point in time when they were victims of assault. In 2013, USAID's 
Victims of Torture program in the Democratic Republic of the Congo in 
the geographical areas of North and South Kivu reached more than 42,000 
beneficiaries to provide medical treatment, psychological and social 
support, legal assistance, awareness raising and economic 
strengthening. An impact evaluation of the mental health components of 
this program documented positive results for survivors participating in 
therapy, validating research tools that can be applied to similar 
programs in low-resource settings. For example, in this case we learned 
that women who participated in group cognitive processing therapy 
experienced a stronger reduction of post-traumatic stress disorder 
symptoms than women who received individual counseling. Having these 
tools helps us design tailored approaches that are effective for 
supporting survivors in different contexts.
    Through the Gender Equity Program in Pakistan, USAID is providing 
social and economic rehabilitation of gender-based violence survivors 
by supporting 12 shelters and helplines across Pakistan. Through this 
model, thousands of gender-based violence survivors in Pakistan are 
receiving legal services, psychosocial counseling, technical and 
vocational skills training, and economic rehabilitation services for 
the first time. The successful implementation of this model has 
attracted government shelters to adopt a similar approach. The Gender 
Equity Program has also developed a strategy on combating gender-based 
violence which will work as a guideline for the provincial governments 
on addressing gender-based violence issues. The strategy has already 
been endorsed by three provincial governments.
Supporting legal frameworks to mitigate gender-based violence
    This type of engagement with local governments to strengthen laws 
and policies is critical in combating gender-based violence. Even as we 
strengthen our support for survivors, we know that impunity for 
conflict-related sexual violence and other forms of gender-based 
violence is a major challenge for prevention. In 2013, USAID provided 
funding to support a state-of-the art training with Justice Rapid 
Response on the investigation of gender-based violence under 
international law. The training expanded the number and regional 
diversity of experts available to serve on a dedicated roster of 
gender-based violence experts that provides the international community 
with a rapidly deployable, standby capacity to investigate these 
crimes. The training focused on Middle East and North Africa regional 
experts and Arabic-speaking interpreters. We anticipate that some of 
these participants will serve on commissions of inquiry looking into 
allegations of human rights violations and abuses in the Middle East 
and North Africa region.
    USAID in El Salvador is working with the judicial system, the 
Attorney General's Office, the national police, and the Salvadoran 
Institute for the Development of Women to ensure domestic and sexual 
violence survivors receiving humane, efficient, and professional 
treatments. The project also focuses on training police officers and 
judicial staff across the country to protect and respond to the needs 
of survivors who are often forgotten. With USAID's support, 16 Victims 
Assistance Centers have opened, and there will be a total of 31 centers 
by 2018.
                             looking ahead
    Looking ahead, USAID will continue to refine tools and 
interventions to effectively address gender-based violence. USAID is 
developing sector-specific toolkits that will help project design 
teams, project managers, and program officers integrate gender-based 
violence prevention and response efforts into USAID programs. USAID 
will continue to provide resources and training to staff to assist them 
with integrating gender-based violence issues into their work.
    The Agency is actively involved in finding ways to adopt 
appropriate technology that provides innovative, effective, and cost-
efficient solutions to address gender-based violence. USAID cosponsored 
a ``Gender-Based Violence and Innovative Technologies: Opportunities, 
Challenges and Ethical Considerations'' event to bring together select 
researchers and programmers from the United States and abroad who are 
implementing innovative technologies to address gender-based violence 
in a range of settings.
    USAID and many other Agencies, donors and foundations have invested 
in programs to prevent and respond to gender-based violence; however, 
there have not been enough rigorous evaluations of these programs to 
investigate what aspects of programs addressing gender-based violence 
are successful and what may need adjustment. USAID will continue to 
encourage stronger evaluations of activities that address gender-based 
violence.
    USAID has invested in numerous research studies focused on 
understanding the gaps in preventing and responding to gender-based 
violence. In India, USAID is supporting research on the effectiveness 
of conditional cash transfers on delaying marriage among girls until 
the age of 18. In Uganda, USAID is investing in research to evaluate 
the effects of innovative scalable behavior change communication 
programs to prevent gender-based violence, which focus on working with 
adolescents and community gatekeepers to promote and establish gender 
equitable norms, as well as engaging fathers to promote positive 
parenting roles and to reduce conflict between men and their wives. In 
Pakistan, research on the scope and scale of violence against women has 
resulted in more targeted, regionally specific interventions and 
ultimately more effective service provision for survivors. In 
Afghanistan, USAID recently finalized a study on engaging men in ending 
gender-based violence and is funding the upcoming Demographic and 
Health Survey, which will generate detailed data on gender-based 
violence trends. The Afghan Government will use the survey to develop 
programs to address gender-based violence issues.
    In September 2013, Secretary of State John Kerry announced the Safe 
from the Start initiative, a joint USAID and State Department effort to 
build capacity of the humanitarian system for timely, quality and 
effective prevention and response. Agency resources are being used to 
support strategic investments to close knowledge and capacity gaps, 
enhance accountability to ensure gender-based violence prevention and 
response are a priority from the onset of an emergency, and build on 
the significant humanitarian funding State and USAID provide to 
prevention and response efforts each year. Safe from the Start also 
represents the U.S. Government's commitments to the Call to Action, a 
closely related, multicountry effort launched by the United Kingdom 
last year which also aims to drive change across the humanitarian 
system to better meet the needs of women and girls in emergencies. The 
United States is proud to lead the Call to Action in 2014.
    Gender-based violence is a pervasive problem around the globe, and 
in order to effectively combat gender-based violence, USAID needs to 
work with a wide network of partners. Therefore, USAID will continue to 
address gender-based violence through partnerships with host 
governments, civil society organizations, universities, donor 
organizations, foundations and private companies.
    Chairman Boxer, Ranking Member Paul, thank you once again for the 
opportunity to speak to this vitally important issue. I welcome your 
continued advice and counsel and would be pleased to take any questions 
you may have.

    Senator Boxer. Thank you so much.
    And before we turn to our other panelists, I would offer my 
good friend, Senator Durbin, who is the assistant majority 
leader, his 5 minutes, if he would like to take it.

             STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you, Madam Chair. Thank you for your 
leadership on this issue, which has been acknowledged. I am 
sorry I missed our colleagues who were here on the first panel 
to dramatize the importance of this issue.
    I struggle to understand why the United States has failed 
to pass the Convention on the Elimination of All Forms of 
Discrimination Against Women. But I understand politics. We 
have also failed to pass a convention dealing with 
disabilities, though we lead the world in our treatment and 
opportunity for people with disabilities. Time and again, I 
find the Senate is just unresponsive to taking formal action to 
acknowledge our responsibility and our leadership on issues.
    But this is one that we just cannot ignore. What is 
happening to women across the world is well known and 
documented. I can recall years ago attending a speech by then-
First Lady Hillary Clinton who had returned from a trip 
overseas, and she said something I have never forgotten. She 
said if I visit a developing country and I can only ask one 
question to determine what the future might be in that country, 
my question is how do you treat your women. That question and 
that answer will be a better insight into the opportunity for 
progress than almost any other question.
    I have been over to the Democratic Republic of Congo 
several times. Sadly, it may hold the distinction of being the 
rape capital of the world because rape is used as a weapon of 
war there. And I visited the camps and met with many of the 
victims. It is an outrage.
    And you wonder if there is anything that we in the West can 
do. Well, a number of us learned that what was fueling, in many 
instances, the economy in that part of the world was certain 
minerals that were being mined by slaves and sold. And so on a 
bipartisan basis, we tracked down those minerals and we came to 
learn sadly that many of us are carrying those minerals around 
with us every day.
    So we established standards for accountability and 
transparency about where these minerals are being mined and 
under what circumstances and asked the companies that sell us 
the cell phones, as well as many other pieces of technology, to 
accept a corporate responsibility. Some said they would do it. 
Others said we will sue you, and so we are stuck in court on 
that basic question.
    There are so many avenues here for us to follow and proceed 
down in terms of dealing with this issue, but bringing it to 
the attention of the public, as my friend and great writer, 
Nicholas Kristof, does almost on a weekly basis, is part of it.
    Another part of it is to establish policies that are 
consistent with our goals as America's policies. One of them is 
the discouragement of child marriage, which was a provision 
that I added to a bill and ultimately became part of our law.
    So I thank you for this hearing. I thank each of you for 
the work that you are doing. The United States has more that we 
can do, and on behalf of those who have no voice in the world, 
let us give them a voice here in Congress.
    Thank you, Madam Chair.
    Senator Boxer. Senator, thank you, and again, as Senator 
Murray was here and you were here, it just shows, I think, a 
real commitment to this issue on the part of the leadership. 
And I thank you.
    So our first witness from what was going to be our last 
panel--but we will get all the statements in and then we will 
have a chance to question everyone--is Dr. Gary Barker, the 
international director of Promundo, a Brazilian-based NGO that 
works internationally to engage men and boys to promote gender 
equality and reduce violence against women. Dr. Barker has 
conducted extensive research on men, violence, gender, and 
health. He served as a consultant to numerous organizations, 
including the World Bank, the World Health Organization, the 
United Nations Development Program, and USAID.
    Welcome, sir. Please proceed.

   STATEMENT OF GARY BARKER, PH.D., INTERNATIONAL DIRECTOR, 
                    PROMUNDO, WASHINGTON, DC

    Dr. Barker. Thanks. Senator Boxer and other Senators, thank 
you for holding the event on this very important issue. I am 
thrilled to be able to talk about ways that we can engage men 
as part of the solution.
    We heard before that these are not just a handful of 
horrific acts. We know from data, that we have globally, that 
30 percent of the world's women will experience some form of 
violence from a man in their lifetime, most of the time men who 
they know.
    What we do not say often enough is that we also know 
something about which men are using that violence, who are the 
men who are actually carrying this out, whether it is the men 
in India that you referenced at the beginning or men who carry 
out violence against a female partner in their home. We know 
something about them. In about 30,000 interviews that we have 
carried out in nearly 20 countries in a study carried out by 
Promundo and the International Center for Research on Women and 
the U.N., we have looked at which men are more likely to use 
violence.
    First off, men who have seen their father carry this 
violence out against their mother are nearly two and a half 
times more likely to carry it out.
    Men themselves who experience violence in the home or in 
the school, in the community are more likely to carry it out.
    And what we see again and again and again is that about 
two-thirds of those men believe that other men around them 
think this violence is okay. In fact, they think nothing will 
happen to them if they use it. That does not mean they are 
worried about being arrested necessarily. They are not worried 
about being arrested. They are also not worried that the other 
men around them will say anything about it.
    So we have something that is not just the behavior of a few 
bad men. We have something that is really ingrained in the 
silence of other men, how our systems do not react to it, how 
family members, as well as courts and teachers and everyone 
around, is watching this violence but not speaking out.
    We talked a lot about the symptoms or rather the symptoms 
of this violence and the results of it, but we do not do enough 
to talk about these causes. And we think that if we look at the 
causes, we can figure out how we get to solutions.
    Let me tell you first about a man in Brazil who we have 
worked with, Marcio. He is in a favela in Rio de Janiero. He is 
in a setting where he is one of those 40 percent of men who saw 
this violence growing up. He saw his father use this violence. 
And he said once he remembered distinctly his father came home, 
he was drunk, hit his mother. She was swollen. Her eye was 
swollen for a week. And he said my father's version of manhood 
was just that, having lots of women, drinking, parties. I never 
had presents. I never had him around. I had violence from him.
    He talked about how it would be quite easy for him to 
repeat that violence. His anger about it, his inability to know 
other ways to interact with female partners. He came into 
Promundo's program and he was able to talk with other men about 
how to overcome similar situations. To look at Marcio now 
playing with his young son is to believe that change is 
possible. And our challenge now is how do we multiply that a 
million times over.
    We start with the assumption that there is not enough 
prison space to lock up every man who has used violence. If we 
are talking about a behavior that a third of the world's men 
have carried out, we do not have enough prison space. Clearly 
we need to hold men accountable, but we need to think about 
what prevention looks like, how to take it seriously, and how 
to scale it up. And let me give you about five examples of how 
we think you can do that.
    One is school-based work. We have spent a huge amount in 
the last years to get girls in school. Now we have to do this 
tremendous work of making schools safe for girls. We have done 
teacher training, including online teacher training, that we 
can scale up small-scale stuff to train 3,000 teachers in a 
year to reach up to 250,000 students. For a small amount, we 
can take the infrastructure we have invested in and see ways to 
scale up prevention.
    Second, bystander intervention. We get men to follow the 
simple logic: you see something, say something. Speak out when 
you see your peers doing it, whether that is at the household 
level, your neighborhood, your neighbor. Groups like 
Breakthrough, Futures Without Violence, CARE, Promundo, and 
many others are doing this to say it is up to all of us men who 
are abhorred by this violence to speak out in the acts we see 
every day. You see your friend drunk harassing a girl, say 
something. You hear a politician harassing a Japanese 
politician, why do men not also speak out on that?
    Third, we use the health sector. We know that a fifth of 
women will experience violence during pregnancy. We have spent 
a lot with the U.S. Government and others to make birthing 
safer for women. How do we also use that? We are working across 
four countries to train health care workers to reach men with 
activities around how to reduce couple conflict, how to be 
supportive fathers, and how to reduce violence from the very 
beginning. Again, we build on the services that are already 
there.
    Fourth and finally, women's economic empowerment. The 
United States has invested a huge amount in microcredit 
programs, reaching up to 125 million women worldwide. We found 
that if we do a little bit of adding men to those processes, we 
can scale up the impact of that in terms of empowering women 
around autonomy and also reducing gender-based violence.
    The point with all these is that with a small amount, $5 to 
$10, we can add on and scale up and build on the infrastructure 
we have already done to take prevention seriously.
    Thank you.
    [The prepared statement of Dr. Barker follows:]

                Prepared Statement of Gary Barker, Ph.D.

    Honorable Chairwoman Boxer, Ranking Member Paul, and other members 
of the subcommittee, thank you for holding this hearing on such an 
important topic.
    We all know by now the global extent of violence against women: An 
estimated 30 percent of women worldwide will experience physical or 
sexual violence from a man at some point in their lives, the majority 
of those husbands or partners or men they know. We have a growing body 
of evidence on the impact of this violence on women's and girls' lives, 
in terms of personal, political, economic, and health consequences. 
What we too often neglect is that we also know which men are more 
likely to use violence against women and girls.
    From household surveys we and partners have carried out in more 
than 16 countries globally, we know that men who see their fathers or 
another man use violence are up to 2.5 times more likely to use 
violence against their wives or female partners. Men who themselves 
experienced violence in school, the home or the community are nearly 
twice as likely to use violence against women and girls. Men who 
witness and experience various kinds of violence growing up, and those 
who believe they are entitled to women's bodies are more likely to 
rape. Men who are displaced by conflict, men who are economically 
stressed, men who binge drink or drink excessively, and men who think 
their peers support their use of violence against women are also more 
likely to use violence against women.
    The bottom line is that men who use violence against women have 
often witnessed or experienced violence in childhood, or have been 
socialized into believing that they are entitled to having power over 
women and girls. And they often have male peers who support them in 
their use of violence. This is not the behavior of a few bad men. It is 
part of the norms and attitudes about what it means to be men and 
women, and it is about how we raise our sons and daughters to see this 
violence as acceptable or not. The good news is that with this 
information, we know how to break cycles of violence against women.
    Let me offer an example. I want to tell you about Marcio, a man 
from the favela of Santa Marta in Rio de Janeiro. Santa Marta is a 
setting where gang violence and violent response from the police 
against gangs has been chronic, where a third of parents use violence 
against children, where nearly half of children have witnessed a 
homicide, where men and women struggle to find adequate work and to 
provide for their families, and where a third of households have no 
adult man present at all. Marcio said this: ``Once my father came home, 
he was drunk. He hit my mother. Her eye was swollen for a week. His 
version of manhood was just that: having lots of women, drinking, 
parties. I never had presents from my father, or him playing with me. I 
had this: violence and him abandoning us.''
    In group sessions that Promundo organized, Marcio told us about the 
pain and anger he felt in repeatedly witnessing that violence. He also 
talked about how he managed to avoid repeating the violence he saw 
around him: by talking about that pain, participating in a campaign and 
outreach activities that Promundo carried out in his community, and by 
finding other men like him working to break the violence. He told us: 
``Sharing my story with other men, I was able to overcome what I saw 
growing up. And I could help other men get over the violence they had 
seen too.'' Marcio is now a devoted father to a young son. To watch him 
interact with his son is to affirm that cycles of violence can be 
broken, to see that even men who witnessed this violence and 
experienced it can become supportive and nonviolent fathers and 
partners.
    We start with the assumption that men who have used violence must 
be held accountable for that violence. But we also know that there is 
no way to lock up or imprison a third of the world's men. We must have 
functioning justice sectors, and committed individuals within them. 
Many of our partner organizations, such as Vital Voices and others, 
train members of the police and justice sectors, to take services and 
justice for victims seriously. But we must equally forcefully say this: 
we know that prevention works. We know how to end cycles of violence. 
And it's time to scale up the approaches that work. It's time for a 
bold vision to take what we know works to change attitudes, and to work 
with men and boys to break the cycle of violence against women and 
girls.
    Let me offer a few examples:
    First, we can train teachers and youth workers in carrying out 
school-based prevention models. In Brazil, we use online continuing 
education courses to instruct teachers in how to carry out group 
education with students about questioning the norms that underpin 
gender-based violence and gender inequality overall. In a year, we can 
reach more than 3,000 teachers, who in turn can reach more 250,000 
students with a curriculum called Program H that calls young men and 
women to question the norms and attitudes that support inequality and 
violence. We have seen, as have other organizations doing this work, 
that such activities carried out with young people has the potential to 
shape and influence life-long attitudes about manhood and womanhood.
    Second, we can scale up what we call bystander intervention 
programs, in which men, like Marcio and many others, can be trained how 
to speak out when they see other men condone or use violence. Via 
sports-based programming, on the soccer fields, and in locker rooms, 
Promundo, Futures without Violence, Sonke Gender Justice, Breakthrough 
and other organizations engage men and women in questioning the 
violence they see around them and appropriate ways to intervene. This 
is in effect the idea that if ``you see something, you say something.'' 
You see your friend getting drunk and inappropriately harassing a young 
woman, and you speak out or offer help. You hear a man using violence, 
you speak out, you offer help, you make it known that it is not an 
acceptable behavior. You hear a public official use language condoning 
violence, you question it.
    Third, we use the health sector to reach men, in particular via 
prenatal visits. We've seen that violence by men against women often 
goes up during pregnancy. In some of the settings we work in, up to one 
in five women experiences violence during pregnancy. We're working with 
partners and with the health sector, in a model called MenCare+, in 
Rwanda, Brazil, South Africa, and Indonesia to use prenatal visits as a 
place to both screen for violence and to recruit expectant fathers to 
prevent it. Specifically, we train health workers to carry out sessions 
with men on how to communicate better with their wives and partners, 
how to raise their children in nonviolent ways, and how to better 
understand their roles in maternal and child health. With this program, 
men are becoming more involved and less violent fathers. The expanded 
reach of prenatal services for women in countries around the world, 
gives us a tremendous opportunity and entry point; around 60-80 percent 
of fathers across countries are attending at least one prenatal 
appointment with their partners or wives. This interaction with the 
health system provides a key opportunity to engage men in doing their 
share of caregiving and to be involved fathers, as well as to reduce 
violence. And we use infrastructure that already exists.
    Fourth, we can use the power and reach of economic empowerment 
programs for women. Microcredit and microfinance programs for women 
have been one of the success stories of international assistance and 
development. An estimated 125 million women are reached globally with 
these programs, many of those programs supported by USAID and other 
international donors. These programs work to give women income security 
and autonomy. At the same time some studies show that couple conflict 
can increase as women are economically empowered via such programs. 
Thus, we have seen that such programs can work even better if we use 
them as a space to recruit men via community outreach and group 
education with messages about couple cooperation and communication. 
When we have done this, we see that income gains are improved--that is 
women have even more income--couples cooperate more and couple conflict 
is reduced.
    And finally, we're using the workplace as a space to reach men. To 
give an example, in Brazil we work with Petrobras, the national 
petroleum company, to encourage workers not to engage in sexual 
exploitation by having sex or paying for sex with underage girls. Of 
course this is against the law and men should not be doing so in first 
place, but we have carried out surveys in Brazil finding that 14 
percent of men in the cities surveyed reported having paid for sex with 
a girl under the age of 18.
    We know that this sexual exploitation often happens around spaces 
where lots of men are away from home. Petrobras and other employers 
ship men to various parts of the country to build new natural gas and 
petroleum installations, and too often, sexual exploitation comes along 
with that. Of course, Petrobras and others work with the Brazilian 
Government to hold accountable those who traffic young girls, but we 
think that's not enough. We carry out campaigns and training with human 
resources staff to promote discussions with the workers about why men 
pay for sex with underage girls. We work to create a culture in the 
workplace in which men question each other about this. At the beginning 
of these sessions, we'll hear men say things like this: ``I paid for 
the party and drinks and she paid me back.'' At the end of the 
sessions, their peers will question this, speak out against it, and 
take those messages into bars and other spaces. In other words, we stop 
the demand before it happens while collaborating with the legal 
authorities to hold perpetrators accountable.
    These approaches work. We have been able to evaluate impact, as 
partners have in many other settings, and we see changes in attitudes, 
and reductions in violence. Our challenge has been taking them to scale 
and sustaining them. Funding is too often inconsistent and short-term.
    So what can the U.S. Government do? Consistent funding is necessary 
and IVAWA would be a key step toward that. In addition, the U.S. 
Government can look across its existing women's empowerment programs--
economic empowerment; agriculture development; land title and legal 
rights initiatives; maternal, newborn, and child health programs; HIV 
prevention, workplace interventions and others--and find ways to add 
approaches for reaching men to its existing initiatives. We can build 
on the existing infrastructure and existing large-scale programs to 
engage men with these approaches. In no way should this prevention work 
with men take away from the existing work to empower women economically 
and socially. It can and should be part of integrated prevention 
efforts. We have consistently found that if we use this existing 
infrastructure--in schools, the health sector, the workplace or sports-
based programming--we can reach men and boys for as little as $5-$10 
per beneficiary in some settings.
    We stand by colleagues around the world who call for ending the 
impunity that surrounds men's use of violence against women and girls. 
But punishing perpetrators is not enough. Two weeks ago in London, the 
U.S. took a lead with others in calling for ending impunity around 
sexual violence in conflict. But that call and too many others like it 
do not go far enough in saying what we know works to prevent violence 
against women, including sexual violence, from happening in the first 
place. It is not enough only to hold accountable the perpetrators. We 
need to reach all the boys and men, like Marcio, who witness and 
experience violence, to break cycles of violence--to create a 
generation of boys and men who do not use nor believe in using violence 
of any kind against women and girls. And we know how to do it.

    Senator Boxer. Thank you.
    Women cannot do this alone. We cannot. And I would say 
without the men in the Senate--and Barbara Mikulski, before a 
lot of women came here, used to call them the Sir Galahads of 
the Senate. This is a partnership, full-out. So thank you for 
all your work.
    So now we are going to turn to Hauwa Ibrahim. She is the 
senior partner at the Aries Law Firm in Nigeria. Throughout her 
career, Ms. Ibrahim has devoted herself to advancing women's 
rights in Nigeria and is best known for her work defending 
women in northern Nigeria's sharia courts. She was also 
recently selected to serve on the Presidental commission 
established by Nigerian President Goodluck Jonathan to 
investigate the abduction of more than 200 girls from a 
boarding school in northern Nigeria.
    We are very honored to have you here. Please proceed.

              STATEMENT OF HAUWA IBRAHIM, SENIOR 
                PARTNER, ARIES LAW FIRM, NIGERIA

    Ms. Ibrahim. Thank you so much, Madam Chair, and thank you, 
other members. My gratitude knows no bounds. This is an honor 
and this is a privilege to speak about combating violence 
against women as a responsibility of our common humanity beyond 
just women.
    I was born and raised in northern Nigeria. I became 
educated by accident, and I became a lawyer by accident. I 
guess I went to teach at Harvard for 3 years by accident. But 
it is some of this accident that I have written about in a 
longer testimony. And if you do not mind, let me speak from my 
heart.
    Senator Boxer. Yes. We will put the testimony in the 
record. Please proceed.
    Ms. Ibrahim. So I will just speak about a few issues from 
my heart to you.
    I may murder English because English is my fifth language, 
and I never learnt it in the classroom.
    I have been a lawyer for 20 years, like you mentioned. Over 
20 years, I have practiced law in sharia courts. I have been 
defending women sentenced to death by stoning in northern 
Nigeria, and as of recent, I just came back 2 days ago from 
Nigeria and I will speak a little bit about what is happening 
with this Boko Haram and the Chibok girls.
    So on the 6th of May, the President appointed me by name. I 
am the only member appointed by name to serve on this fact 
finding committee. And the past 6 weeks have been eventful. A 
lot of what we have found out and what we have written--it is 
in written testimony and it is classified. So I am not going to 
speak about it. But I will speak about to a few things that are 
public.
    I came back with a heavy heart, but I am glad to be here to 
address the issue of gender-based violence, which is what this 
is all about, the kidnapping of the Chibok girls. Let me say 
that with the full cooperation of the Nigerian community, we 
were able to find out a lot of information as to where those 
girls may be.
    But let me just put out some figures out here. There has 
been a kidnapping. Over 300 girls have been kidnapped; 119 
girls escaped from their kidnappers; 217 are still remaining, 
and in the past couple of weeks, 57 have also escaped. Sadly, 
we have 219 girls still unaccounted for and they are with their 
captors living in a semi-hell.
    Our committee met with grieving parents of the escaped 
girls of Chibok. There is a dire situation of security in 
northern Nigeria, especially in the City of Borno. Boko Haram 
seems to be waxing stronger. They are a threat to peace and 
security in our region and beyond.
    But why Boko Haram, and why is this kidnapping happening 
even today? There are three reasons I want to mention here. 
Boko Haram--so far we have found out they have been very smart 
and they are well organized. They have more sophisticated arms. 
And with respect, I want to say that this is something that is 
heavy in my heart. The arms that are out there are so 
unnecessary--they create more violence, especially are gender-
based violence. There are issues that have to do with 
motivation on both sides, first, on the Boko Haram, on the 
other side, Nigerian security that hopefully, in a bigger 
picture, we will address in the future.
    But let me say that one of the challenges we found on the 
ground is the issue of food security. We also realize that 
there is a forest called Sambisa and there is a mountain called 
Mandara Mountains where the Boko Haram will be camping. And 
hopefully, with the assistance of the United States and the 
international community, we will be able to surmount some of 
these difficulties of finding where they are and slowing them 
down, especially creating in a bigger picture of global peace 
and security.
    What is the way forward? I believe engaging them and 
collaboration could be one way. Getting back our girls is 
something that is very dear to our hearts. It is more of a 
collective interest. It is beyond north versus south or 
Christian versus Muslim. It is beyond our greed and our 
corruption. It is more about engaging women, especially 
mothers, sisters, grandmothers, and aunts. Today is day number 
71 that the girls have been with their kidnappers. It is 1 day 
too many.
    Let me speak briefly about the United States as a city on a 
hill and a beacon of hope for all of us. I was in Jordan last 
week, and what I have to show for this is a broken ankle. But 
we had 17 countries that were represented, Madam Chair, and for 
all the 17 countries that have spoken, the United States was 
mentioned and was mentioned positively. So may I say that you 
are, indeed, a beacon of hope and a city on the hill. And I 
hope that that is taken seriously.
    The passing of CEDAW and the IVAWA, if that is done, will 
lead to a partnership in our work and it will make our workload 
easier. It will help in our economic activities.
    My time is up and I want to conclude by saying that 
northern Nigeria has been hidden in isolation, sometimes self-
imposed. The land is bleeding. There is much distrust. 
Recently, the parents of the Chibok girls have been suffering 
with high blood pressure. Two of them have died in the past few 
weeks. No to violence against women is what I stand here to 
say, and no to all form of control of a woman's body. But we 
hope that we have partners in you and friends as we believe 
that we will rise again, and I believe that the sun will shine 
again. And with your help and commitment, we will get the girls 
back.
    A powerful force unites us in this room, irrespective of 
the sex or color of our skin or our religious affiliation or 
our creed or our privileges. My hope today, and it will so 
remain, is that there is a powerful force that binds us and 
that is our common humanity. That is the dignity of all of us. 
And with that, we hope with the passage of CEDAW and IVAWA in 
the United States, the world will be a better place for 
generations to come.
    Thank you.
    [The prepared statement of Ms. Ibrahim follows:]

                  Prepared Statement of Hauwa Ibrahim

    I want to begin with my sincere appreciation for this invitation to 
testify before your subcommittee this morning not only because of the 
recent tragedies in northern Nigeria but also because of my 
longstanding commitment to combating discrimination and gender based 
violence on an International scale. My presence here is meaningful not 
simply because I have the opportunity to speak on behalf of the 
``Chibok girls''--but more so, because serendipity and age are the only 
two things that distinguish me from the 219 still missing girls. I was 
born and lived most of my life in Gombe state in northern Nigeria. I 
was a child in a poor family and raised in a Muslim home. As was the 
local practice, I was given away in marriage at age 10. Being the 
``stubborn'' child in my family, at 11 I ran away from home to a 
boarding school for girls. My family told me not to come back but I was 
determined to get an education. I eventually became a lawyer--the first 
women from my state and returned there to practice law. However, since 
the courts in northern Nigeria use sharia law women were not allowed to 
speak, so I had to pass notes to male lawyers to represent my clients, 
including women sentenced to death by stoning for adultery. Most of my 
cases were pro bono helping women and children gain justice primarily 
through informal negotiations outside the courts. Today I am a visiting 
lecturer at Harvard University but all this happened accidentally. The 
life situation of the kidnapped schoolgirls, who are most likely 
enduring living hell, is one for which my empathy and concern is 
boundless.
    On April 14, Boko Haram came to Chibok with the intention of 
kidnapping the girls. To distract attention from this nefarious 
purpose, the Boko Haram first attacked the village and a nearby 
military base. They arrived at the school at 11:45 at night, the girls 
were all in bed and the men had official uniforms and trucks and buses. 
They told the girls that Boko Haram was about to attack the school and 
they should leave with them. Then they proceeded to steal all the food 
and kitchen equipment and burn down the school. This is how Boko Haram 
operates. As has been reported, there were 330 girls boarding at the 
school in order to take the national exam for higher education; 219 of 
these girls are still missing; 130 boys also took exams at the school 
but did not board overnight. I am serving on the President's Commission 
along with government representatives and representatives of other 
nongovernmental organizations. I was one of the few people appointed by 
name as a result of my experience of living and working in the North, 
helping women in the community to secure justice under shariah law.
    In order to fully understand the situation of the kidnapping of the 
Chibok girls, it is important to note the vast differences between the 
southern and northern parts of Nigeria. The South has benefited from 
development and local resources with infrastructure and modernization, 
including a greater public role for women. Girls receive an education 
and while challenges persist, the opportunities for a girl growing up 
in the South are vastly different than in the North. Though I don't 
have exact figures, I can report that the majority of boys in the North 
receive an education but the proportion of girls in school is precious 
few. Girls are expected to marry young and as I was told at home, ``The 
heaven for a woman is at your husband's feet.'' That is partly why 
these girls and their families were so determined to take the national 
exam which is the gateway to higher education. And that is also why I 
have been determined to use the opportunities and education that I have 
received to help the people in the region, particularly women and 
girls.
    Violence against these girls, against women, and our children, is 
simply unacceptable. I am glad and hopeful, as the United States has 
not left the issue unresolved. Both in response to our own hearts and 
minds that refuse to accept violence against the kidnapped girls and to 
the mourning and grief of the girls' families and friends, the United 
States has continued and will hopefully continue to fight against 
violence and for peace. Especially the comprehensive leadership by the 
United States to support efforts to build the capacity of local women's 
and other human rights organizations to fight violence against women 
and girls by committing financial resources to such efforts. Future 
joint efforts by the international community should not simply fight 
violence--they should insist on full transparency, accountability and 
willingness to share intelligence, and uphold integrity of budgetary 
decisions.
    Beyond the scope of the Chibok kidnapping, the northern region of 
Nigeria is undergoing its toughest moments, with over 70 percent youth 
unemployment, widespread abject poverty, desolation, and hopelessness. 
In adverse situations, religion and religious extremism become 
dangerous opium to the hopeless. It is clear that perverse religious 
indoctrination by Boko Haram, among others, is anything but Islamic. We 
have seen atrocities. We have witnessed horrific incidences, 
slaughtering of fellow human beings in the name of doing God's work. We 
are shocked by this high-scale destruction and perverse terrorism. We 
have grieved at the loss of loved ones. A situation where the abducted 
girls were separated from their parents, friends and love ones as well 
as from their religion has no place in Islam. In fact, the Quran 2:56 
says ``There shall be no compulsion in religion.''
    Against the various issues that we as an international community 
face, one goal we can support and reinforce is that of reduced 
violence. Amongst the various types of violence that undermine 
stability today, gender-based violence has yet to be freed from the 
shackles of silence and suppression. The recent kidnapping of over 200 
girls in Chibok, Borno State, in northeastern Nigeria illustrated the 
scale of such gender-based violence and prompted a global call for 
action. Who is better suited for such a call to action than the United 
States of America? I believe that, as a city upon a hill and a beacon 
of hope, the United States has the full capability of combating the 
recent rising tide of violence against women both domestically and 
internationally. And it is not only myself that sees the United States 
as a city upon a hill--throughout a meeting with people from 17 
countries in Amman, Jordan, last week at the invitation of HRH, Prince 
El-Hassan Bin Talal, no single moment passed without a positive 
reference to the United States.
    In looking forward to long-term peace and stability, the various 
countries interested in peace and freedom should invest in cooperative 
technology pooling. Furthermore, the dire deficiency of manpower and 
appropriate counterterrorist training were both key issues during the 
Chibok kidnapping, and I believe that directing resources and funding 
toward military training and personnel recruitment (especially in 
countries facing such high terrorist activity) will reinforce stability 
and global peace.
    I also believe that at the local level in Nigeria our human 
resources could be better used to stop the violence. When members of a 
village unite toward one cause, the commitment and love put forth by 
each individual member become a force to be highly reckoned with. I 
believe that, just as local intelligence and reliance on other local 
means of counterterrorism such as the civilian Joint Task Forces (JTF), 
comprising hunters, fishermen, cow rearers, should be fully utilized in 
future pursuits of stability and peace, establishing a communal safety 
net that would focus on the correct upbringing and teaching of children 
would both mitigate current insurgency manpower and principles and 
limit future influence of fundamentalist indoctrination.
    Yet while even a single candle can defy the surrounding darkness, 
the international community has a rising sun and beacon of hope. While 
I believe that combating gender-based violence should not end with just 
the passing of IVAWA and CEDAW, which I believe is sorely needed, the 
leadership of the United States in ensuring the passing of the 
International Violence Against Women Act (IVAWA) and the ratification 
of CEDAW will undeniably pave a smoother path for future work against 
violence and will certainly make our hands-on work lighter. I strongly 
believe that ratification by the United States will make the treaty 
stronger and give it a higher status that will provide a greater 
incentive for Nigeria and other countries to make a more serious effort 
to end discrimination and violence against women and girls.
    That though it looks dark and hopeless, and we are grieved by our 
inabilities 
to get the girls back, we will not give up, the sun will rise again, 
may be, even brighter.

    Senator Boxer. Thank you for your eloquence. And I could 
not agree with you more on the action items on your list.
    So finally, we are pleased to have Ms. Jacqueline O'Neill, 
the director of the Institute for Inclusive Security, an 
organization dedicated to demonstrating and supporting women's 
contribution to peace-building all over the world. Ms. O'Neill 
consults regularly with NATO and other multilateral 
organizations. She has also designed training for police, 
military, and civilian professionals. Previously she served at 
the United Nations mission in Sudan and as a policy advisor to 
Canada's Secretary of State for Asia-Pacific.
    And we are grateful for the wealth of knowledge and breadth 
of experience that our panel members have. All of them and that 
includes you, Ms. O'Neill. So please let us hear from you.

   STATEMENT OF JACQUELINE O'NEILL, DIRECTOR, INSTITUTE FOR 
               INCLUSIVE SECURITY, WASHINGTON, DC

    Ms. O'Neill. Chairman Boxer, you are known around the world 
for shining a spotlight on these issues. I want to thank you, 
Ranking Member Paul, Chairman Menendez, Ranking Member Corker, 
and the other members.
    For the last 15 years, Inclusive Security has increased the 
inclusion of women in peace and security processes around the 
world. All that we do is driven by the over 3,000 members of 
our global Women Waging Peace Network, many of whom, Senator 
Boxer, you have hosted here in Congress.
    This network includes women like those recently displaced 
by war in South Sudan who, earlier this year, despite living in 
camps literally partitioned in half with a line separating two 
tribes, began crossing the divide at first to talk over tea in 
each other's tents and then to organize a joint march to the 
governor's house, most walking barefoot for hours in the sun, 
to demand an end to the violence and a voice in the process.
    Our network also includes Zainab Bangura, whose father 
threw her out of the house in Sierra Leone at age 12 because 
she refused to marry. Zainab's mother left with her and somehow 
provided her an education. Zainab went on to become her 
country's Foreign Minister and now travels the world as the top 
U.N. envoy on sexual violence in conflict. This near child 
bride from a once war-torn nation told me a few weeks ago, ``I 
say to those men who kidnapped the girls in Nigeria what I say 
to all men who rape. Whoever you are, wherever you are, we will 
run after you. And we will find you.''
    My written submission echoes many of the points that my 
remarkable fellow witnesses have made this morning. So in the 
spirit of compelling action, I want to focus directly on two 
priorities that we see as transformative but generally 
underattended.
    Senator Boxer. We will put your full statement in the 
record.
    Ms. O'Neill. Thank you.
    So the first is that we absolutely must get more women to 
participate directly in more peace negotiations. It is often at 
this stage that the most troubled countries lay the foundation 
for their future. As one woman said to me recently, ``If we're 
not at the table, you can be sure we're on the menu.''
    About 92 percent of those who negotiated peace agreements 
in the last 40 years were men. The result is that half of all 
peace agreements collapse within 5 years, and the vast majority 
fail to address the topic of sexual violence in conflict.
    Evidence shows that, when present, women raise these 
issues, but they often broaden the discussion even further, 
moving beyond who gets to run which ministry and where borders 
are divided, to address the underlying drivers of conflict and, 
importantly, to reduce the structural barriers that contribute 
to violence and discrimination.
    In Guatemala, for example, women ensured that talks 
addressed police power. In Darfur, women spoke about food 
security. In Northern Ireland, they raised integrated 
education.
    The single most important policy tool that the U.S. 
Government has to increase women's participation at peace talks 
is its National Action Plan on Women, Peace, and Security. The 
plan is being rolled out, but progress is much too slow. And 
Congress can help speed up its implementation.
    First, by passing the bipartisan Women, Peace, and Security 
Act, which you, Senator Boxer, and others have championed, and 
second, by holding a hearing about the National Action Plan to 
which you would invite the Secretaries of Defense, State, and 
the Administrator of USAID to talk about progress, gaps, and 
how they are working together.
    The second major priority to which I want to call your 
attention relates to women's roles in security forces. The 
numbers here are dismal. In Pakistan, for example, women make 
up less than 1 percent of the police force. Without a doubt, 
access to protection and justice for survivors of sexual 
violence increases when women are meaningfully integrated into 
security forces. Females are simply far more likely to report 
cases of assault to other women.
    But again, the value that women bring is much broader. They 
contribute to all aspects of mission success and effectiveness 
and, when present in large enough numbers, can transform 
institutions and the public's perception of power, force, and 
legitimacy.
    Women's recruitment, retention, and safety in security 
forces are woefully underresourced, and Congress can change 
this too. Last year, Congress took action on this issue for the 
first time ever, appropriating $25 million for this purpose in 
Afghanistan. A week ago, thanks to the support from many on 
this subcommittee, the Senate Appropriations Committee passed 
its foreign operations appropriations bill which included 
provisions prioritizing the same thing for Pakistan's police 
force. Members can ensure that the final bill retains these 
provisions and that funding is at least maintained this year 
for women in the Afghan National Security Forces in any defense 
spending and authorization bills.
    I will stop here so we can turn to questions.
    [The prepared statement of Ms. O'Neill follows:]

                Prepared Statement of Jacqueline O'Neill

    Chairman Boxer, you're known around the world for shining a 
spotlight on these issues. Thanks to you, Ranking Member Paul, Chairman 
Menendez, Ranking Member Corker, and members of the subcommittee. Thank 
you as well to all in civil society here and abroad who play such an 
important role in provoking change.
    For the last 15 years, The Institute for Inclusive Security, led by 
Ambassador Swanee Hunt, has increased the inclusion of women in peace 
and security processes. We work on current conflicts, in countries 
affected by war, and with policymakers in the U.S., other governments, 
NATO, the U.N., and beyond.
    All that we do is driven by the over 3,000 members of our global 
Women Waging Peace Network.
    The Network includes women like those recently displaced by war in 
South Sudan, who earlier this year, despite living in camps literally 
partitioned in half--with a line separating two tribes--began crossing 
the divide. At first to share stories over tea in each other's tents, 
and then to organize a joint march to the governor's house--most 
walking barefoot for hours under a blazing sun--to demand an end to the 
violence and a voice in the process.
    The Network includes female police officers like some in Pakistan, 
who face harassment from their colleagues at work and isolation from 
their families at home, yet proudly button up their uniforms each 
morning because they feel a call to serve.
    It also includes Zainab Bangura, whose father threw her out of 
their house in Sierra Leone at age 12 because she refused to marry. 
Zainab's mother left with her, and somehow provided her daughter with 
an education. Zainab went on to become her country's Foreign Minister 
and now travels the world as the top U.N. envoy on sexual violence in 
conflict. This near child bride from a once war-torn nation told me a 
few weeks ago, ``I say to those men who kidnapped the girls in Nigeria 
what I say to all men who rape: Whoever you are, wherever you are, we 
will run after you. And we will find you.''
    Zainab and others will agree that if there is any good news in the 
fight against violence and discrimination, it's this: We have not yet 
fully engaged the single greatest resource available--women themselves.
    To a dramatic and disgraceful extent, women continue to be excluded 
from essential areas of decisionmaking. They are not yet full and equal 
partners in developing and maintaining the elements of society that 
most directly impact their ability to live free from violence and 
discrimination.
    Women's full security requires effective governance, where just 
laws are applied equally and there is equity in access to services and 
opportunities. It requires access to justice, which relies not only on 
a well-functioning judiciary and legal system, but also on effective 
and representative police and other security forces. Women's security 
requires their participation in defining the future of their state--as 
formal decisionmakers and as contributors to public discourse.\1\ 
Fundamentally, it also requires widespread acceptance of the dignity 
and value of all persons.
    We will see a significant shift in all forms of violence and 
discrimination when--and only when--we recognize women as fundamental 
actors in every one of those areas.
    How do we do this? What can Congress do? The range of actions 
required is broad; let me call to your attention two priorities that 
are transformative, but underattended.
                           peace negotiations
    First, we absolutely must get more women to participate directly in 
more peace negotiations.
    It's often at this stage that the most troubled countries lay the 
foundation for their future. As one woman said to me recently, ``If 
we're not at the table, you can be sure we're on the menu.''
    About 92 percent of the people who have negotiated peace agreements 
in the last 40 years were men.\2\ The result? Half of all peace 
agreements collapse within their first 5 years, and the vast majority 
fail to address the issue of sexual violence in conflict, the topic of 
the major global conference hosted last week in the U.K.
    Only 18 out of 300 peace accords signed since 1989, and only three 
cease-fire agreements in all of recorded history, have mentioned sexual 
violence.
    Evidence shows that, when present, women raise this issue. But they 
often broaden the discussion even further, moving the conversation 
beyond who gets to run which ministry and where borders are set, to 
address the underlying drivers of conflict and reduce the structural 
barriers that contribute to violence and discrimination.
    In Guatemala, for example, women ensured that talks addressed 
police power. In Darfur, women spoke about food security. In Northern 
Ireland, they raised integrated education.
    Women's exclusion not only jeopardizes the sustainability of an 
agreement; it condemns women to struggle even harder for representation 
and justice later on.
    The single most important policy tool the U.S. Government has to 
increase women's participation at peace talks is its National Action 
Plan on Women, Peace, and Security. Launched via Executive order in 
2011, it's a whole-of-government strategy whose goal is simple but 
profound: to ensure that women are equal partners in preventing 
conflict and building peace.
    The Action Plan is being rolled out, but progress is much too slow. 
Congress can speed up its implementation.
    First, by passing the bipartisan Women, Peace, and Security Act 
which Senators Boxer, Kirk, and others in both Chambers and on both 
sides of the aisle have championed. This bill would strengthen the 
ability of Congress to oversee implementation of the National Action 
Plan and coordinate the funding that has already been employed to 
resource it.
    Second, by holding a hearing about the National Action Plan. 
Members could invite the Secretaries of Defense and State and the 
Administrator of USAID to speak about how far their organizations have 
come, how far they still need to go, and how they're working together.
    Third, by keeping the Nation Action Plan foremost in the minds of 
the nation's leaders. Imagine if every potential appointee to a 
position of influence in diplomacy, defense, or development was asked 
at a confirmation hearing how the principles of the Plan are reflected 
in his or her priorities. Even the fear simply of being caught without 
an answer would prompt meaningful reflection and preparation by 
candidates and agencies that support them.
    Fourth, by ensuring that every congressional delegation, 
particularly those to regions most affected by war and violence against 
women, make a point of meeting with local women leaders from civil 
society and government to signal their importance and hear from them 
directly.
                            security forces
    The second priority to which I want to draw your attention relates 
to women's roles in security forces.
    The numbers here are dismal. In Pakistan, women make up less than 1 
percent of the police force. In Afghanistan, they're less than a third 
of 1 percent of the National Army. Worldwide, women are only about 10 
percent of police. In the Middle East and North Africa, that average is 
2 percent. At the U.N., only 3 percent of military and 10 percent of 
police personnel are women. Even in the U.S., women make up only about 
20 percent of today's military.
    While policies and practices are shifting slowly, in the U.S. and 
around the world there is absurd foot dragging when it comes to 
recognizing that women's full and meaningful involvement in police, 
military, and other services fundamentally increases the effectiveness 
of those forces and their ability to serve and protect men, women, 
boys, and girls.
    Without a doubt, access to protection and justice for survivors of 
sexual violence increases when women are meaningfully integrated into 
security forces. Females 
are simply far more likely to report cases of assault to other women. 
Data from 39 countries show that when women police officers are 
present, there are significantly higher rates of reporting.\3\
    But the value of women in security forces is much broader. They 
contribute to all aspects of mission success and, when present in large 
enough numbers, can transform institutions and the public's perception 
of power, force, and legitimacy.
    Women's recruitment, retention, and safety in security forces are 
woefully underresourced. Congress can change this.
    It's time to redefine the purpose for which the U.S. spends 
billions of dollars on security assistance. U.S. support should, in 
large part, be dedicated to the development of inclusive, 
representative, and professional forces--ones that reflect the makeup 
of the populations they're tasked to serve.
    Being explicit about goals also means being explicit about money. 
Policy priorities need to be resourced with specific appropriations for 
the recruitment, retention, and safety of women in police and 
militaries. Last year, Congress did this for the first time ever, 
appropriating $25 million for this purpose in Afghanistan.\4\
    A week ago, thanks to support from many on this subcommittee, the 
Senate Appropriations Committee passed its Foreign Operations 
Appropriations bill, which included provisions prioritizing the same 
for women in Pakistan's police force. The bill even recognized the 
importance of recruiting more women into security forces to combat 
gender-based violence. Again, for the first time ever.
    Members of this subcommittee can continue to demonstrate leadership 
by ensuring the final bill retains these provisions and by at least 
maintaining funding this year for women in the Afghan National Security 
Forces in any defense spending and authorization bills.
                               conclusion
    It's beyond time to recognize that not only are violence and 
discrimination against women an affront to our collective humanity; 
they're also a threat to our collective security.
    Harvard researcher Valerie Hudson recently analyzed 174 countries 
and found that the best predictor of a state's peacefulness is not its 
level of wealth, its level of democracy, or its ethnoreligious 
identity; it's how well its women are treated. The larger the gender 
gap, the more likely a state is to be involved in violent conflict--
inside and outside of its borders.\5\
    In London last week, the Chief of the Australian Army spoke about 
sexual violence in conflict and the choice to be a protector or a 
perpetrator. He said there is no third option, no bystanders, 
explaining, ``The standard you walk past is the standard you accept.''
    Thank you for trying to stop us in our tracks.

----------------
End Notes

    \1\ Barsa, Michelle. ``Progress or Peril: The Role for Women in 
Defining Afghanistan's Future.'' Presentation, Women's Foreign Policy 
Group, Washington, DC, June 5, 2014.
    \2\ U.N. Women (October 2012). ``Women's Participation in Peace 
Negotiations: Connections Between Presence and Influence.'' (NY: UN 
Women), 3.
    \3\ U.N. Women (2011). ``2011-2012 Progress of the World's Women: 
In Pursuit of Justice.'' (NY: U.N. Women), 59.
    \4\ The Fiscal Year 2014 National Defense Authorization Act and 
Consolidated Appropriations Act reserved no less than $25 million of 
the Afghanistan Security Forces Fund for the recruitment, retention, 
and security of women in the Afghan National Security Forces.
    \5\ Hudson, V.; Ballif-Spanvill, B.; Caprioli, M.; & Emmett, C. 
(2012). ``Sex and World Peace.'' (NY: Columbia University Press), 205.

    Senator Boxer. Thank you. I have a number of questions. So 
I am just going to keep going until I have to go to vote. So we 
will just get started.
    Ms. Markham, many of us know the story of Malala Yousafzai, 
a brave Pakistani school girl and outspoken advocate for girls' 
education who was nearly killed in a brutal attack by Taliban 
gunmen. And I introduced the Malala Yousafzai Scholarship Act. 
The bill would expand an existing USAID scholarship program to 
ensure that 50 percent of the scholarships awarded go to women. 
Not an outrageous request. Previously, only a quarter of the 
recipients had been women. So our bill says, no, you must do 50 
percent.
    Now, my bill has not yet been enacted, but USAID committed 
to providing 50 percent of new scholarships under this program 
to women, which is great. But I was disappointed to learn that 
only 29 percent of the scholarships that have been awarded in 
the first half of 2014 have been for women. Does USAID really 
plan to award at least 50 percent of all scholarships to women? 
I think it is critical that I know now because I do not like 
hearing you are going to do it and then you do not do it. So 
what is the story there?
    Ms. Markham. Thank you for that question.
    As you know, we have been working across a wide range of 
programs in Pakistan to make sure that girls and young women 
are involved in the schools. And I believe that the delay has 
been the fact that we are in between school years just now and 
in the fall we will reach the 50 percent of scholarships 
provided, including the Fulbright Program.
    In addition----
    Senator Boxer. When you say the fall, when will you be able 
to confirm that for me?
    Ms. Markham. I will have to check with my colleagues in the 
Pakistan office, but in this briefing, they said that in the 
first half we had not reached it but that we were fully 
intending to.
    Senator Boxer. But you said the fall.
    Ms. Markham. Yes. Where are we now? We are in June. So in 
the coming months, we will know as they enroll.
    Senator Boxer. So let us just be clear that I will call you 
on October 1.
    Ms. Markham. I look forward to that call.
    Senator Boxer. Okay, good.
    In your testimony, you highlight a number of important 
USAID programs that prevent and respond to violence against 
women from the Safe School pilot program in Ghana to a health 
care provider training program in Haiti. But I am not clear 
whether the programs you discuss fit within a comprehensive, 
targeted approach to ending violence against women. You are 
doing some really good things. Are they part of an overall 
plan? is my question.
    Ms. Markham. So we do believe that all of our gender-based 
violence programs need to have a multisectoral approach, 
whether it is economic development, education, health care. 
Even infrastructure issues have to be taken into account to 
respond to gender-based violence. Some are more specifically 
focused. For instance, in the Democratic Republic of Congo 
where violence against women is so overwhelming, a lot of the 
programs are more focused on that. But even in the Safe Schools 
program, even in economic or microenterprise programs, we try 
to combat gender-based violence and address the root causes of 
the gender imbalance which causes this. Haiti is actually a 
great example. It is going to be our first mission where 
gender-based violence is integrated across all programs. So 
whether it is water, education, health care, even governance 
programs, gender-based violence will be a part of it. In other 
places where the need is more acute, the gender-based violence 
takes more of a lead and those other sectors support that work 
instead of the other way around.
    Senator Boxer. Thank you.
    Ambassador Russell, the International Violence Against 
Women Act is so critical because we want to codify in law the 
existing Office of Global Women's Issues within the State 
Department and the Ambassador at Large for Global Women's 
Issues. It would also require the implementation of a U.S. 
global strategy to prevent and respond to violence against 
women and girls, including the development of comprehensive, 
individual country plans for 5 to 20 countries, which I think 
is critical because different countries will have different 
problems and issues. And I am just asking you a very basic 
question. I think it will not be hard for you to answer. But 
will you commit to working with me to enact IVAWA?
    Ambassador Russell. Yes.
    Senator Boxer. That is good.
    Ambassador Russell. Senator, you know when I was here 
working in the Senate, I worked on that bill, and I think I was 
the first staff person to work on it. I care so much about it. 
And I think, importantly, I really believe in the approach of 
the bill. I think it is critically important to approach it 
that way, comprehensively.
    And I also think we have tried to do, from the 
administration's perspective, what we can setting up my 
position, Susan's position, trying to approach these issues 
that way. But Congress--you all weighing in on this is an 
incredibly powerful statement not unlike what you did here this 
morning. And I think you cannot underestimate the power that 
will have in the world. And I think doing that would make it--
--
    Senator Boxer. I know you have a lot of connections here in 
the Senate. So if people you know are not on this bill, please 
get them on the bill.
    I want to talk about CEDAW, the Convention on the 
Elimination of All Forms of Discrimination Against Women, 
because I feel if you just stopped someone in the street who 
was not that into all of our nuances here and said, can you 
believe that America is standing with countries like Sudan, 
Somalia, and Iran where 187 countries have already ratified 
this, they would be horrified. And so does the administration 
support the ratification of CEDAW?
    Ambassador Russell. Yes. And I would say this. In a way, it 
is somewhat easier for people in the United States to take it 
for granted because our laws are so progressive here. But I 
will say when I travel around the world, it is a lifeline for 
women, and they are desperate for us to pass it because they do 
not understand why we have not. And in their countries, people 
look to the United States and people who are opposed to it in 
their countries say, you know, look, the United States has not 
passed that. And that is a very challenging thing. My colleague 
here is saying yes, that is true. It is very confusing for 
people, and I think it really undermines our efforts and it 
deprives us of a very powerful tool. It is a very conflicting 
statement. And I think this concept of us as a beacon of hope 
is a powerful image, and it is very important to these 
countries and to the advocates in those countries. And we 
should not underestimate the power of that image.
    Senator Boxer. Well, I think it is important that everyone 
within the sound of my voice knows that this administration 
strongly supports CEDAW----
    Ambassador Russell. Yes, we do.
    Senator Boxer [continuing]. And the International Violence 
Against Women Act. In trying to explain it to folks, I would 
explain it this way. It is internal politics and it is 
ludicrous. And it is side issues that have nothing to do with 
the basic message, which is equality.
    Ambassador Russell. It is confusing to people.
    Senator Boxer. It is confusing to people, but I think if 
you say to people it is politics, it is internal politics. It 
is not a rejection of the notion that we are all created equal. 
But it is extremely frustrating nonetheless and ridiculous. It 
should be a nonissue. And we will keep on pushing.
    And my last question for you, Ambassador. Last month, we 
were horrified to learn that two young girls in India were 
murdered after being brutally raped. Tragically attacks against 
women are all too common in India.
    And so I wrote to India's newly elected Prime Minister 
urging him to take immediate action to combat violence and 
improve the safety and security of women and girls.
    Ambassador Russell, you traveled to India in February to 
discuss efforts by Indian police to protect women from violence 
and abuse. Can you kind of give us a report of where you think 
things stand there?
    Ambassador Russell. I can. Obviously, the stories of the 
gang rape, the hangings are absolutely horrifying. The 
interesting thing is that the Indian public had a very strong 
reaction to that as well, and I think the politicians there are 
responding. It will be very interesting to see how the new 
Prime Minister reacts to this, and we are hopeful that there 
will be a positive and forward-thinking reaction.
    We are engaged in a dialogue with the Indian Government, a 
women's empowerment dialogue. That has been ongoing. We are in 
the process of negotiating an MOU with the Indian Government on 
women's issues, and I think that we are fairly optimistic going 
forward. We have been talking to them about gender-based 
violence issues in places that we can share experiences with 
them. And so at this point, I am somewhat hopeful that this 
will be a positive effort going forward.
    Obviously, we are waiting to see how this government reacts 
to those, but we will certainly keep in touch with you on that. 
I know that you have a tremendous interest in it, and we 
certainly do as well.
    Senator Boxer. Please, and I would be very happy to help as 
well.
    Ambassador Russell. That would be terrific.
    Senator Boxer. Now, Mr. Barker--I should say Dr. Barker--I 
am so proud of your work. And it has occurred to me over many 
years now that clearly there is some kind of an advantage that 
men in these countries get--boys and men who commit this 
violence. And if we could just have an ethos around the world 
that said real men do not beat up women, real men protect 
women. I would also add real men vote for women. [Laughter.]
    So we need to get that ethos out there in a pretty strong 
way. You are a weakling if you attack a woman. You do not stand 
for anything. You are low. But if you protect a woman, you are 
really a special human being.
    It seems to me in this day and age of the ability to get 
messages out--have you thought about, for example, recruiting 
men who are looked up to in the sports world? Have you done 
that? Can we do more of that? Because I believe that is the 
most effective way--when you have these real role models 
saying, no, no, no, no. This is not how you become a real man. 
So talk to me about that and whether sports can play a role in 
your work.
    Dr. Barker. Well, it happens to be the World Cup going on 
at the moment. So it is a great moment to talk about sports and 
getting men on the right page.
    I absolutely echo your sentiment that what we are trying to 
do is get the message out and we print this on T-shirts in 
English and kiswahili and Kenya, Rwanda, and Portuguese which 
says men of quality are not afraid of equality. So trying to 
use a message that, yes, men should vote for women. We have 
four women Presidents in the Americas region. We have yet to 
have one here, but who knows what happens in a couple of years.
    So part of this whole change is that, how do----
    Senator Boxer. Meet me afterward and we will talk about it. 
[Laughter.]
    Dr. Barker. I would be glad to.
    Senator Boxer. Some interesting possibilities.
    Dr. Barker. We are very much trying to tap into that. How 
do you use the sports field as a place to say we can change 
these norms? And there are a lot of men out there in silence 
who already are appalled by this violence. So it is not like we 
have got to start a new movement. What we are trying to do is 
make it safe for men to say we expect you to speak out. You 
have been harmed by this violence. You have seen it. Say 
something about it.
    We have got some public service announcements running at 
the moment in Brazil around the World Cup. We have a soccer 
player, football player putting his name out on the issue of 
the sexual exploitation of underage girls. We have done 
household data in Brazil that finds about 14 percent of men 
acknowledge they have ever paid for sex with a girl under the 
age of 18. That, of course, is illegal in Brazil. Lots of 
efforts to do the law enforcement side. But to say, wait a 
minute, as we put their stories out, as we put what they say to 
justify it out, most men are appalled by that. And so, again, 
the message is getting football players, getting fathers, 
getting men everywhere to say we do not agree with this. And 
there are a lot of men who are already resonating to it. So we 
are doing the public service announcements but also trying to 
take it to where guys hang out every day, the locker room, 
schools, after-school programs, so all of the above.
    Senator Boxer. Well, I just want to say anything that we 
can do here to help, the women of the Senate, the men of the 
Senate that care so much about this--we have people who are 
role models to young men and they happen to be other men who 
are successful in the areas of sports and other very 
highlighted professions. I just think in my heart that could 
turn the tide. It really could turn the tide because it is not 
only a question of the right thing to do, but if you do the 
wrong thing, that is not really being a man. And I think that 
is something that has been on my mind for so long and how to do 
that.
    I am a mom of a son and a daughter, and I am a grandmother 
of a little girl and little boys. So for me, their future 
really depends on the fact that we need to have zero tolerance 
for violence of any kind against anyone, any religion, any 
color, anything. There is no tolerance for violence. Zero. So I 
think the people who are the most respected in society out 
there--you know, we need to tap into that. So anything I can do 
to help.
    Ms. Ibrahim, I just want to ask you--when we heard about 
the girls, the audacity of hundreds of girls being kidnapped, 
it shook this country. It shook us. And I wonder in your 
country did it shake people up or was it more or less, oh, 
there they go again? Can you give me a sense of the truth about 
that?
    Ms. Ibrahim. It shocked our conscience. We are still living 
in disbelief that it has happened.
    Our only hope, let me say, is that the assistance that the 
United States and other members of the international community 
have been pouring in to help us, especially with technologies, 
will yield results. But the ability to push--and you have done 
that in this committee and beyond. We cannot rest until we find 
them.
    Senator Boxer. So you would say that the country is shaken 
up about it, and that is across all areas of the country?
    Ms. Ibrahim. Mostly in the north.
    And this also brings the discussion, which I put in the 
paper, about the difference between the north and the south. 
The incident of the Boko Haram and the Islamic fundamentalists 
are more in the north, and that is where we have sharia. In the 
south, we do not. So it is the ability not only to engage 
Nigerians but to engage Nigerians that are the sons and 
daughters of the soil, meaning people that work directly with 
some of the insurgencies and to see how we could long-term be 
able to slow down on this recruitment of--there is over 70 
percent unemployed youth.
    You are asking the question about what men can do. In our 
society, the women can hardly succeed without the men. And 
yesterday the Feminist Foundation and I were trying to call a 
figure, a sentence about what we thought about it. And we said 
something that it is this feeling of the patriarchal continuum 
syndrome that is still prevalent in some of our society. But I 
think this hearing will go beyond this room, and we hope we can 
run with it as we see also the passage of the CEDAW and the 
IVAWA.
    Senator Boxer. Well, I hope the message goes out. Whoever 
is holding those girls, you are not living up to your manhood. 
Let those girls go.
    So in my last question, I want to turn to the issue of this 
lack of enough, it seems to me, female peacekeepers around the 
globe. And I have long been working on that issue as well. 
According to your written testimony, only 3 percent of U.N. 
military and only 10 percent of U.N. police personnel are 
women. Now, we are the largest single contributor to the U.N. 
and the largest contributor to U.N. peacekeeping operations. 
What more can we do to help turn this around--it is absolutely 
wrong--to have more women in these positions?
    Ms. O'Neill. I agree. We can do a few things. As you 
mentioned, the United States is the largest financial 
contributor. We are not the largest troop contributor. So one 
of the areas of pushback that is often received at the U.N. is 
from national militaries and national police forces that we 
simply do not have the women in our forces to contribute. And 
if you want to go upstream on that problem and cut off that 
response, one of the things the United States can do is 
encourage more countries to create national action plans, so 
effective national action plans domestically that increase the 
recruitment and retention of women into national police and 
military forces. Right now, there are only about 43 countries 
in the world that have them, and many of the largest troop-
contributing countries do not. Of course, you just cannot get 
more women into peacekeeping missions if they are not coming 
from these so-called feeder countries.
    The second thing is we need to keep up the pressure on the 
Secretary General and on other member states to appoint more 
women to leadership positions across the United Nations. A 
couple weeks ago, we saw the first-ever appointment of a female 
military commander to lead the military portion of a U.N. 
mission. It was a big step and we need a lot more of those.
    There has also been great pressure on the United Nations 
from countries like the United States in the last several years 
to appoint more women as heads of the mission, so again 
signaling and demonstrating that leadership role that the U.N. 
is able to walk the walk in terms of appointing women to be 
some of its senior leaders and demonstrate that to people 
around the world, men and women in their communities.
    Finally, I would call attention to the issue of reviewing 
the mandates of peacekeeping and peace operations missions. So 
as a member of the Security Council, the United States has an 
opportunity to review the text that informs the purpose of 
those missions. And that is a prime opportunity to ensure that 
there is language inside there that calls for the members of 
those missions to consult regularly with women who are affected 
by conflict, to have more females in the troops and in the 
mission composition itself, and to make sure that the money 
that the United States and others are contributing are actually 
going to the priorities that this committee and others are 
identifying as essential not just for the effectiveness of the 
U.N. but for our broader global security.
    Senator Boxer. Thank you very much.
    I just want to say, because I need to run and vote now, 
this was a very important hearing, and I think the fact that we 
had everybody together in a way, even though it is not exactly 
the protocol, I think it is wonderful because I think when we 
listen to each other, the people who have the power to make the 
changes and the people who are on the ground in a nonprofit 
sense, it is a very important listening moment.
    So what I hear everybody saying is we need to move on 
legislation that carries out this notion that is not very 
radical: that we are all created equally and we have to protect 
all segments of our population. I hope everyone within the 
sound of my voice--and there are people still outside. I am so 
sorry. We did not have any clue we would have such interest. We 
would have had a bigger room--should write to folks who are not 
yet on the International Violence Against Women Act and who 
have not yet declared in favor of ratification of CEDAW. Please 
write to those Senators. We are United States Senators. We 
represent the whole country. I think it is important that this 
country not stand with the most repressive forces in the world 
against CEDAW. It is ridiculous. It is embarrassing. It is 
inexplicable. And we need to get people in the Senate from both 
parties to help us with these two important movements, the 
CEDAW movement, the IVAWA movement, to put into law the fact 
that global women's issues need to be addressed because another 
administration could come in and say it is not important. So we 
need to get it into law. So if you could all help us with that.
    And I just want to say to Ms. Ibrahim, thank you so much 
for your marvelous voice and to all of you.
    And this notion that we are going to get, Dr. Barker, men 
to embrace this. I think we had a very iconic situation here 
when we had all those women Senators. You know, I would like to 
have a lot of male role models in the world sit here and say we 
have joined Dr. Barker in this notion that we are going to step 
out and say no to violence against women. And that would be an 
iconic photograph that I would love to arrange.
    So to all of you who care so deeply about this, it means a 
lot to us up here because there are a thousand issues and you 
know what they are every day. They are all difficult and many 
are complicated. To me this is not complicated. This is an 
issue that has a solution. We have to make sure people 
understand every single person has to be respected and not 
violated. And it is a simple point. I do not think it takes 
that much energy to explain. But sadly there are some people 
who do not get it.
    And so we need those role models. We need those voices. And 
I know so many of you in this room--I dare not start mentioning 
names because I would leave people out. Just keep up what you 
are doing and know that you have in this committee under the 
leadership of Senator Menendez and my subcommittee a place to 
come and a place to show the world that we care so much and to 
show this country that we care about our women and girls. As 
Senator Klobuchar said, we have issues in our own country, and 
we are going to tell other people what to do. We have got to 
make sure that our house is one that is clean.
    So thank you for caring. As Barbara Mikulski often says, we 
will stand sentry on this issue. Thank you very much.
    We stand adjourned. [Applause.]
    And we will keep the record open for statements from other 
colleagues and questions.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Responses of Ambassador Catherine M. Russell to Questions 
            Submitted by Senator by Senator Robert Menendez

    Question. South Sudan.--Gender-based violence--including rape, 
sexual assault, harassment, domestic violence, forced marriage, and 
survival sex--was a persistent problem in South Sudan prior to the 
current conflict. There is no doubt that with the current state of mass 
displacement, ubiquitous armed actors, the complete lack of rule of 
law, the situation has only deteriorated. Indeed, a recent UNMISS Human 
Rights report explains that all parties to the conflict have committed 
acts of sexual violence against women of different ethnic groups. UNFPA 
estimates that 24,500 South Sudanese women and girls are at risk of 
sexual violence.
    Outside the U.N. bases, the dangers for displaced women and girls 
are the most severe. Women and girls face assault when they venture 
outside of the U.N. bases for livelihood activities and firewood 
collection. For example, one South Sudanese woman recently reported 
being raped three times in the last 2 weeks when collecting food for 
her family. While they are reluctant to leave the compounds and fear 
that they will be sexually assaulted by the armed actors outside, they 
take the risk because they understand that men would be killed if they 
leave, whereas women would ``only'' face sexual violence.

  <diamond> What steps is the U.S. taking in cooperation with the U.N. 
        to scale up comprehensive GBV services, including medical and 
        psychosocial support, both inside and outside of the U.N. 
        bases?
  <diamond> Will the U.S. provide funding to protection actors to set 
        up safety patrols to accompany women on trips outside of the 
        U.N. bases for firewood collection or livelihood activities, 
        consistent with the Inter-Agency Standing Committee Guidance on 
        Safe Access to Firewood and Alternative Energy in Humanitarian 
        Settings?

    Answer. So far in fiscal year 2014, the United States has provided 
more than $434 million to international and nongovernmental 
organizations to help conflict-affected people who have been displaced 
within South Sudan and forced to flee to neighboring countries. In 
addition to providing critical relief supplies and services, 
humanitarian actors, including those funded by the United States, are 
providing a multisector GBV prevention and response services, including 
access to specialized medical and psychosocial care for survivors, and 
material supports, both inside and outside of U.N. bases in South 
Sudan. In addition, all U.S. partners are required to ensure that the 
unique needs, safety, and dignity of women, girls, disabled, and other 
groups at increased risk of GBV, are factored into the design, 
delivery, and monitoring of assistance, ensuring that all U.S. funded 
programs include measures to promote the protection and well-being of 
the conflict affected populations.
    U.S. partners are providing proactive, protective presence for at-
risk individuals and communities facing specific threats or risks, and 
UNMISS is providing protective patrolling of access routes in and out 
of humanitarian response areas to deter violence against civilians. 
Partners are also using safety audits and safety assessments to monitor 
the changing environment and circumstances that can put women and girls 
at risk, promoting community-led strategies to mitigate risks and 
engaging the community in promoting gender-sensitive programming and 
services to meet the unique needs of the community. Ongoing protection 
monitoring efforts help partners ensure access to humanitarian 
services, identify risks, and adjust programs to reduce risks. 
Protection activities also support referrals for GBV survivors to 
provide appropriate survivor centered services.
    The Inter-Agency Standing Committee Guidance on Safe Access to 
Firewood and Alternative Energy in Humanitarian Settings provides a 
valuable roadmap for humanitarian partners to identify the best 
household fuel strategy in both the acute and protracted phase of an 
emergency. During this acute phase and in light of the UNMISS mandate's 
increased emphasis on protection of civilians (POC), the United States 
is also encouraging UNMISS to conduct operations to secure key areas in 
towns to enable freedom of movement for IDPs. We are encouraging UNMISS 
to develop a system to inform IDPs and aid workers when a patrol is 
planned, so that IDPs can time their movements outside of the POC sites 
to coincide with these patrols.
    In addition, our government is doing its utmost to help end this 
senseless conflict in the world's newest nation to enable the South 
Sudanese to direct their attention to eliminating the scourge of sexual 
and gender-based violence.

    Question. The Global Summit to End Sexual Violence in Conflict.--We 
are pleased to see the U.S.'s leadership of the Call to Action on 
Protecting Girls and Women in Emergencies and the Safe from the Start 
initiative, both of which aim to address gender-based violence in 
conflict settings and other humanitarian crises.

  <diamond> Following the recent global summit, are there additional 
        concrete actions the U.S. plans to take that link the goals of 
        the global summit with these ongoing initiatives?

    Answer. The goals of the Call to Action on Protecting Girls and 
Women in Emergencies and the Safe from the Start initiative (which 
represents the U.S. Government commitment to the Call to Action) are 
closely aligned with the goals advanced by the June 9-13 Global Summit 
to End Sexual Violence. These efforts emphasize the need for 
comprehensive care for survivors of gender-based violence (GBV) in 
emergencies and the importance of practical steps the international 
community can take to help reduce the dangers that women and girls face 
in conflict and crisis situations around the world.
    The United States worked closely with the United Kingdom to ensure 
that the Call to Action and the humanitarian dimensions of addressing 
sexual violence and other forms of gender-based violence were an 
integral part of the summit agenda and outcomes. In collaboration with 
UNICEF and UNFPA, the United States cohosted several expert-level 
sessions that addressed current efforts to strengthen the humanitarian 
system and build capacity within institutions to better prevent and 
respond to GBV from the start of an emergency. The sessions also 
provided field-based perspectives on needs, challenges and 
opportunities for survivor-centered prevention and response efforts in 
current emergencies, and on how we can scale up evidence-based 
approaches in humanitarian crises. These sessions were also an 
opportunity for the United States to urge other governments, U.N. 
agencies, and NGOs to sign on to the Call to Action communique and 
follow through on existing monetary and operational commitments to the 
Call to Action.
    At the summit, the United States also provided an update on our 
efforts under Safe from the Start and our commitment to the Call to 
Action, including extensive stakeholder consultations to further 
develop and refine a roadmap for progress. Building on the success of 
the global summit, the United States will continue to identify and 
leverage all available opportunities for outreach at the global, 
regional, and local levels, to promote accountability and encourage 
concrete action and chance by key actors. In addition, the Department's 
Bureau of Population, Refugees, and Migration announced a new 
opportunity for nongovernmental organizations to compete for Safe from 
the Start funding to develop programs to prevent and respond to gender-
based violence in acute refugee emergencies. Secretary Kerry also 
affirmed our intent to build on our initial $10 million commitment for 
Safe from the Start at the U.N. General Assembly this September, where 
we will launch several new programs and partnerships currently in 
development.
    The Department of State and U.S. Agency for International 
Development look forward to building on the momentum generated by the 
summit to engage new stakeholders and continue to advance a strategic 
vision for collective action to tackle all forms of GBV. This will 
include strengthened coordination across all departments and agencies 
to implement the U.S. National Action Plan on Women, Peace and 
Security, and the U.S. Strategy to Prevent and Respond to Gender-based 
Violence Globally.

    Question. Training for USG Personnel on Gender Integration.--In 
recent years, the USG has demonstrated that women and girls should be 
integral to all diplomatic efforts and has instituted mechanisms to 
ensure that all bureaus, both regional and functional, and missions in 
the field consider gender issues. Still, NGOs see a gap in training on 
gender issues for some field-deployed personnel that hinders robust 
programming on women's issues.

  <diamond> Will the USG include mandatory training and capacity-
        building for all of our personnel on gender integration issues, 
        particularly those deployed to regional hubs and bilateral 
        missions?
  <diamond> Training for field-deployed personnel should also include a 
        full briefing on the U.S. National Action Plan on Women, Peace 
        and Security, the U.S. Strategy to Prevent and Respond to GBV 
        Globally, the Call to Action to End Violence Against Women in 
        Emergencies, and Safe from the Start, to ensure that these 
        initiatives are fully implemented at all levels.

    Answer. The Department's Foreign Affairs Manual (``Promoting Gender 
Equality to Achieve our National Security and Foreign Policy 
Objectives''; 18 FAM 030) directs the Department to provide relevant 
training for our diplomats and development professionals on gender 
equality and advancing the status of women and girls in service of our 
national security and foreign policy objectives. In addition, Secretary 
Kerry has released policy guidance directing all Department bureaus and 
offices to further the implementation of 18 FAM 030, including 
expanding the structures, tools, and training necessary to 
institutionalize a focus on gender equality. As part of the 
implementation of these requirements, the Secretary's Office of Global 
Women's Issues (S/GWI) and the Foreign Service Institute (FSI) signed a 
Memorandum of Understanding in January 2013 to develop a stand-alone 
course on gender equality, with modules that could be included in other 
relevant regional, tradecraft, and leadership courses. The Department 
is exploring additional training initiatives and actions, including the 
possibility of mandatory training, to further build capacity of all 
employees on gender integration issues.
    Since 2012, FSI's 3-day classroom course, ``Promoting Gender 
Equality to Advance U.S. Foreign Policy Objectives,'' has trained more 
than 200 State Department personnel, including field-deployed 
employees. As part of the course curriculum, participants are required 
to read the U.S. National Action Plan on Women, Peace, and Security and 
the U.S. Strategy to Prevent and Respond to Gender-based Violence 
Globally. During the course, experts from the Department of State, 
USAID, and civil society engage course participants on how to implement 
these strategies, including in various regional contexts. FSI and S/GWI 
consult regularly with other Department bureaus and USAID to 
incorporate briefings on relative initiatives and opportunities, such 
as the Call to Action to End Violence Against Women in Emergencies, and 
Safe from the Start, into the course curriculum.
    Additionally, FSI and S/GWI are developing an optional distance 
learning training course that will cover key definitions and the gender 
policy framework. This course, which will be accessible to all 
employees, will significantly further the Department's ability to train 
field-deployed employees on gender integration issues.

    Question. Safe From the Start.--Last fall, Secretary Kerry 
announced the provision of $10 million for the Safe From the Start 
Initiative to prevent and respond to GBV in humanitarian emergencies.

  <diamond> What specific programming has been developed to help women 
        refugees?
  <diamond> What specific positive actions and developments have 
        resulted from the Safe From the Start funds?

    Answer. The first organizations in 2013 to receive funding through 
Safe from the Start were the U.N. Refugee Agency (UNHCR) and the 
International Committee of the Red Cross (ICRC), two critical 
humanitarian organizations with global operations. ICRC is using the 
Safe from the Start funding to strengthen its global response to sexual 
violence, including in the Central African Republic and the Democratic 
Republic of the Congo, through programs including support for survivors 
and raising awareness in communities to reduce stigma and prevent 
further violence. UNHCR has developed a comprehensive program of action 
through Safe from the Start, including new mandatory training on GBV 
for all personnel, innovative new programs including a pilot financial 
empowerment initiative for Syrian refugee women in Cairo, Egypt facing 
GBV and community protection mechanisms in Uganda for South Sudanese 
refugees, and the creation of a new roster of emergency protection 
staff who will be responsible for strengthening the GBV response at the 
onset of a crisis. The first of these staff deployed to Erbil, Iraq, in 
May to assist arriving Syrian refugees, and additional personnel are 
preparing to start new assignments in Cameroon and Uganda to address 
the CAR and South Sudanese crises.
    In addition, State/PRM is supporting the Women's Refugee Commission 
to develop a roadmap and consultative process around the Call to Action 
commitments. This will assist in bringing additional donors and 
stakeholders to the table to maximize our collective impact. State/PRM 
also released a new funding opportunity for nongovernmental 
organizations on June 6, and proposals will be reviewed later this 
summer.
    State and USAID are developing additional partnerships and programs 
and expect to announce these at the U.N. General Assembly in September.
                                 ______
                                 

                Responses of Susan Markham to Questions 
                  Submitted by Senator Robert Menendez

    Question. Haiti has been recognized by USAID as a country that is 
implementing gender-based violence (GBV) programming across all 
sectors. What are concrete examples of GBV programming implementation 
across the following sectors: Agriculture, Nutrition, Political 
Competition and Consensus Building, Public Health, Rule of Law and 
Human Rights, Education, and Civil Society Strengthening?

    Answer. While USAID/Haiti is currently addressing GBV with 
programming across several sectors, the mission will expand to 
additional sectors as the post-earthquake reconstruction strategy is 
fully implemented. To ensure further GBV integration across the 
portfolio, USAID/Washington is sending a team of gender specialists to 
Haiti in August 2014 to review existing programs, suggest opportunities 
for GBV integration, and identify mechanisms for monitoring and 
evaluation. The team will also bring USAID staff working on GBV 
programming in different sectors together with local stakeholders and 
implementing partners.
                         gbv-related programing
    USAID/Haiti addresses GBV both directly with targeted prevention, 
treatment and advocacy work and indirectly by empowering women through 
agriculture and economic growth programs that aim to elevate their 
status, improve their economic security, and reduce vulnerability to 
GBV.
                             public health
    Through the Haitian Group for the Study of Kaposi's Sarcoma and 
Opportunistic Infections (GHESKIO), USAID is providing female victims 
of sexual violence with access to integrated health services. Since 
2012, over 3,000 GBV victims have been referred to voluntary counseling 
and testing for HIV services, reproductive health, and/or psychological 
support services. USAID is also training Haitian health care providers 
at 31 facilities on how to identify and manage GBV cases and provide 
referrals to social and legal services. Since 2012, more than 177,000 
people have been sensitized and surveyed on GBV, including 485 staff, 
over 118,000 patients, and over 58,500 community members living in 
high-risk areas. The new service delivery program, awarded in September 
2013, will expand treatment and support services for victims of GBV to 
additional health sites. USAID is also designing a new program, 
Combating Violence, which will aim to strengthen GBV survivor-centered 
services and referral pathways and prevent future GBV in emergency 
settings. It will focus on improving survivors' access to integrated 
services, including medical care and referral services, physiological 
care and support, and economic opportunities.
              political competition and consensus building
    During the coming election cycle, USAID will support efforts to 
comply with a recent constitutional amendment mandating a 30-percent 
quota of women in political parties and public life by training women 
candidates in communications and platform development, encouraging 
political parties to respect the 30 percent quota, and supporting civil 
society organizations to promote women candidates in the political 
process.
                      rule of law and human rights
    Haiti enacted legislation criminalizing human trafficking in 2014 
with support from the U.S. Government. In collaboration with the 
Women's Parliamentary Caucus, USAID also plans to provide support on 
gender-based violence bills in the 2014 current legislative session. 
Through Collective Action for Security against Exploitation (acronym 
AKSE in Haitian Creole), USAID is strengthening advocacy efforts for 
human rights in the areas of gender-based rights, sexual and gender-
based violence (GBV), and child protection.
                               education
    USAID is currently designing a program to increase equitable access 
to education, which leads to greater economic opportunity and reduced 
vulnerability to GBV. The program will target vulnerable populations, 
including street children and restaveks,\1\ and address violence and 
GBV as barriers to access to education by providing psycho-social 
support to victims, training teachers and administrators in mitigation 
techniques, and raising awareness through classroom materials.
---------------------------------------------------------------------------
    \1\ A Haitian Creole term for children in forced domestic service.
---------------------------------------------------------------------------
                      civil society strengthening
    USAID provided support to three women's organizations, including 
the Commission of Women Victims for Victims (KOFAVIV), to establish a 
call center that provides public information on resources available to 
victims of GBV. Additionally, the human rights program referenced 
above, AKSE, will employ small grants to local institutions to provide 
services to victims and map existing informal SGBV and women's 
protective service networks, including providers specific to the 
lesbian, gay, bisexual, transgender, and intersex community.
                              agriculture
    In addition to helping plant and harvest crops, women are the 
primary vendors at the marketplace, often referred to in Haitian Creole 
as ``Madame Saras.'' Madame Saras benefit from USAID-supported 
investments in the value chain including access to credit, improved 
roads, and an SMS-based communication system providing market price 
information in real time. To date, USAID trained over 2,800 female 
farmers and certified 738 female master farmers in production 
techniques and natural resource management, helping to increase farm 
yields. Additionally, more than 40 percent of the nearly 13,000 farmers 
enrolled in the Haiti Hope mango program are women.
                               nutrition
    The new Development Food Aid Program, awarded in August 2013, 
reduces food insecurity and vulnerability by supporting the Government 
of Haiti in establishing a safety net system and expanding capacities 
to prevent child undernutrition. The new program supports the Ministry 
of Women's Affairs and Rights with technical guidance on gender 
integration related to food security and social assistance programming. 
The program also supports activities to engage men in promoting female 
decisionmaking and participation and is piloting social and behavioral 
change communications strategies to challenge norms around masculinity 
and violence.

    Question. The Global Summit to End Sexual Violence in Conflict.--We 
are pleased to see the U.S.'s leadership of the Call to Action on 
Protecting Girls and Women in Emergencies and the Safe from the Start 
initiative, both of which aim to address gender-based violence in 
conflict settings and other humanitarian crises.

  <diamond> Following the recent global summit, are there additional 
        concrete actions the U.S. plans to take that link the goals of 
        the global summit with these ongoing initiatives?

    Answer. The goals of the Call to Action on Protecting Girls and 
Women in Emergencies and the Safe from the Start initiative (which 
represents the U.S. Government commitment to the Call to Action) are 
closely aligned with the goals advanced by the June 9-13 Global Summit 
to End Sexual Violence. These efforts emphasize the need for 
comprehensive care for survivors of gender-based violence in 
emergencies and the importance of practical steps the international 
community can support to reduce the dangers that women and girls face 
in conflict and crisis situations around the world.
    The United States worked closely with the United Kingdom to ensure 
that the Call to Action and the humanitarian dimensions of addressing 
sexual violence and other forms of gender-based violence (GBV) were an 
integral part of the summit agenda and outcomes. In collaboration with 
UNICEF and the United Nations Population Fund (UNFPA), the United 
States cohosted several expert-level sessions that addressed current 
efforts to strengthen the humanitarian system and build capacity within 
institutions to better prevent and respond to GBV from the start of an 
emergency. The sessions provided field-based perspectives on needs, 
challenges, and opportunities for survivor-centered prevention and 
response efforts in current emergencies, and on how we can scale up 
evidence-based approaches in humanitarian crises. These sessions were 
also an opportunity for the United States to urge other governments, 
U.N. agencies, and NGOs to sign on to the Call to Action communique and 
follow through on existing monetary and operational commitments to the 
Call to Action.
    At the summit, the United States provided an update on our efforts 
under Safe from the Start and our commitment to the Call to Action, 
including extensive stakeholder consultations to further develop and 
refine a roadmap for progress. Building on the success of the Global 
Summit to End Sexual Violence in Conflict, the United States will 
continue to identify and leverage all available opportunities for 
outreach at the global, regional, and local levels, to promote 
accountability and encourage concrete action and change by key actors. 
In addition, the U.S. Department of State's Bureau of Population, 
Refugees, and Migration (State/PRM) announced a new opportunity for 
nongovernmental organizations to compete for Safe from the Start 
funding. Secretary Kerry also affirmed our intent to build on our 
initial $10 million commitment for Safe from the Start at the U.N. 
General Assembly this September where we will launch several new 
programs and partnerships currently in development.
    The United States looks forward to building on the momentum 
generated by the summit to engage new stakeholders and continue to 
advance a strategic vision for collective action to tackle all forms of 
GBV. This will include strengthened coordination across all departments 
and agencies to implement the U.S. National Action Plan on Women, Peace 
and Security, and the U.S. Strategy to Prevent and Respond to Gender 
Based Violence Globally.

    Question. Safe From the Start.--Last fall, Secretary Kerry 
announced the provision of $10 million for the Safe From the Start 
Initiative to prevent and respond to GBV in humanitarian emergencies. 
What specific programming has been developed to help women refugees? 
What specific positive actions and developments have resulted from the 
Safe From the Start funds?

    Answer. The first organizations in 2013 to receive funding through 
Safe from the Start were the Office of the U.N. High Commissioner for 
Refugees (UNHCR) and the International Committee of the Red Cross 
(ICRC), two critical humanitarian organizations with global operations. 
ICRC is using the Safe from the Start funding to strengthen its global 
response to sexual violence, including in the Central African Republic 
(CAR) and the Democratic Republic of the Congo, through programs 
including support for survivors and raising awareness in communities to 
reduce stigma and prevent further violence. UNHCR has developed a 
comprehensive program of action through Safe from the Start, including 
new mandatory training on GBV for all personnel; innovative new 
programs including a pilot financial empowerment initiative for Syrian 
refugee women in Cairo, Egypt, facing GBV; community protection 
mechanisms in Uganda for South Sudanese refugees; and the creation of a 
new roster of emergency protection staff who will be responsible for 
strengthening the GBV response at the onset of a crisis. The first of 
these staff deployed to Erbil, Iraq, in May to assist newly arriving 
Syrian refugees, and additional personnel are preparing to start new 
assignments in Cameroon and Uganda to address the CAR and South 
Sudanese crises.
    In addition, State/PRM is supporting the Women's Refugee Commission 
to develop a roadmap and consultative process around the Call to Action 
commitments. This will assist in bringing additional donors and 
stakeholders to the table to maximize our collective impact. State/PRM 
also released a new funding opportunity for nongovernmental 
organizations on June 6, and proposals will be reviewed later this 
summer.
    The Department of State and USAID are developing additional 
partnerships and programs and expect to announce these at the U.N. 
General Assembly in September 2014.

    Question. Training for USG Personnel on Gender Integration.--In 
recent years, the USG has demonstrated that women and girls should be 
integral to all diplomatic efforts and has instituted mechanisms to 
ensure that all bureaus, both regional and functional, and missions in 
the field consider gender issues. Still, NGOs see a gap in training on 
gender issues for some field-deployed personnel that hinders robust 
programming on women's issues.

  <diamond> Will the USG include mandatory training and capacity 
        building for all of our personnel on gender integration issues, 
        particularly those deployed to regional hubs and bilateral 
        missions?

    Answer. The USAID Gender Equality and Female Empowerment Policy 
requires all Agency staff who design, evaluate, or manage strategies 
and projects, or who directly or indirectly supervise these staff, to 
receive basic gender training. This includes live and online courses 
designed by the Office of Gender Equality and Female Empowerment 
(GenDev), colleagues in the Bureau of Policy, Planning and Learning 
(PPL) and USAID technical experts. In July 2012, GenDev hired a full 
time Training Coordinator who is responsible for the Agency's overall 
gender integration training strategy and designing courses with input 
from staff across the Agency.
                             online courses
    ``Gender 101: Gender Equality at USAID'' is a mandatory online 
course to provide USAID staff with the basic knowledge and skills 
needed to ensure an understanding of, and a commitment to, gender 
equality and female empowerment in our Agency's work. The course also 
presents an overview of the goals and objectives of core gender-related 
policies and strategies guiding the Agency's work, including the Gender 
Equality and Female Empowerment Policy, U.S. National Action Plan on 
Women, Peace, and Security, and U.S. Strategy to Prevent and Respond to 
Gender-based Violence Globally. As of June 30, 2014, over 3,600 people, 
approximately one-third of all USAID staff completed this course.
    ``Gender 102: Putting ADS 205 into Action is a companion to Chapter 
205 of USAID's Automated Directive System: Integrating Gender Equality 
and Female Empowerment in USAID's Program Cycle.'' Developed under the 
leadership of the Agency's Senior Gender Advisor in PPL and slated for 
release by the end of September 2014, this course will allow staff to 
develop skills to include attention to gender inequalities in country-
level strategies, project designs, solicitations and evaluations. It 
also covers requirements and techniques for reporting on the USG 
standard Gender Equality and Female Empowerment indicators as well as 
on spending levels.
    On June 30, 2014, the Office of Gender Equality and Female 
Empowerment launched ``Gender 103: Gender 103: Roles and 
Responsibilities of Mission Gender Advisors,'' as an additional online 
resource for staff that includes strategies for carrying out gender 
integration in the Agency's everyday tasks, and tips on working with 
mission leadership and technical and program offices to integrate 
gender across all sectors.
                              live courses
    New Civil Service and Foreign Service employees learned about the 
importance of gender equality and integration during their 
orientations; as well as at a workshop for Foreign Service officers 
from around the world. A key component of the Agency's training 
strategy has been to offer gender trainings at regional hubs in Africa, 
Asia, the Middle East, Latin America and the Caribbean, and Europe and 
Eurasia, as well as customized gender training for bilateral missions 
to address their specific country contexts and specific challenges. 
These are coorganized by USAID's Regional Gender Advisors and the 
GenDev Office, with participation from technical staff with expertise 
in sectors such women, peace, and security; gender-based violence 
prevention and response; women's economic empowerment.
    In addition, some bureaus and technical sectors have incorporated 
gender integration requirements or guidance into their live courses, or 
are doing so with the training currently under design. For example, 
gender has been well-integrated into Bureau for Food Safety and Global 
Health training courses, and in trainings for Global Climate Change. To 
support NAP implementation, specialized training opportunities focused 
on gender integration in crisis prevention, response, recovery, and 
transition environments were developed and are now part of USAID's 
regular complement of training (e.g., Gender and Conflict, Gender and 
Political Transition, Gender: Integration in Democracy, Human Rights, 
and Governance Programs). USAID has also implemented mandatory training 
requirements for disaster assistance response personnel designed to 
increase USAID's ability to deliver effective humanitarian assistance 
for women, men, boys, and girls. In fulfillment of the United States 
National Action Plan (NAP), all Office of U.S. Foreign Disaster 
Assistance (OFDA) staff are required to complete the Interagency 
Standing Committee (IASC) e-learning course, ``Different Needs-Equal 
Opportunities: Increasing the Effectiveness of Humanitarian Action for 
Women, Girls, Boys, and Men.'' Additionally, all OFDA staff deployed on 
Disaster Assistance Response Teams in a program-related function are 
required to complete a training course on humanitarian protection.

    Question. Training for field-deployed personnel should also include 
a full briefing on the U.S. National Action Plan on Women, Peace and 
Security, the U.S. Strategy to Prevent and Respond to GBV Globally, the 
Call to Action to End Violence Against Women in Emergencies, and Safe 
from the Start, to ensure that these initiatives are fully implemented 
at all levels.

    Answer. All field staff with responsibility for programming receive 
basic information on key gender-related policies and strategies and how 
to implement them through Gender 101. This knowledge is supplemented 
with . . . GenDev trainings cover integrating gender-based violence 
prevention and response efforts into sectoral work. For example, the 
above-mentioned regional gender trainings in Africa, Asia. and the 
Latin America and Caribbean regions discuss how GBV issues (including 
trafficking) exist within sectors such as agriculture, energy, and 
infrastructure; how GBV impacts the LGBT community; how males can be 
both allies and victims; and what type of activities USAID could 
consider to address these issues. A recent series of gender integration 
training targeting field staff in missions in the Middle East and North 
Africa region, as well as live ``Operationalizing ADS 205'' courses 
have incorporated instruction on Women, Peace, and Security, including 
objectives and approaches for improving prospects for peace and 
security through the empowerment and protection of women and girls in 
conflict- and crisis-affected environments. USAID is also developing 
sector-specific toolkits that will help project design teams, project 
managers, and program officers integrate gender-based violence 
prevention and response efforts, as well as WPS objectives, into USAID 
programs. In addition, new Foreign Service officers are briefed on the 
U.S. Strategy to Prevent and Respond to Gender-based Violence Globally 
and National Action Plan on Women, Peace, and Security during 
orientation processes. This topic is also covered in the online Gender 
101 training.
    USAID will continue to provide resources and training to staff and 
to assist them with integrating gender issues effectively into their 
work and fulfilling the mandate of these key strategies and 
initiatives.

                               __________

  Statement for the Record Submitted by Senator Maria Cantwell (D. WA)

    Thank you, Madam Chairwoman, for calling this hearing. Last year, I 
was proud to be an original co-sponsor for the reauthorization of the 
Violence Against Women Act, which protects American women against 
violence and human trafficking. I'm especially proud of the tribal 
provisions we included in VAWA, which are critical because nearly 40 
percent of American Indian women will endure domestic violence in their 
lifetime, compared to 24 percent in the general population. VAWA 
ensures that violence prevention programs receive strong federal 
funding, and gives law enforcement powerful tools to fight violence and 
trafficking.
    Violence against women is not just a problem in the United States; 
it's a challenge around the world. That's why I am proud to be a co-
sponsor of the International Violence Against Women Act.
    Madam Chairwoman, thank you for your leadership on empowering women 
around the world to stand up to violence. One key step to empowering 
women around the world is through access to education. Unfortunately, 
for many young women around the world today, educational opportunities 
are limited. According to the United Nations, only 35 percent of young 
women in Sub-Saharan Africa will receive a secondary education, let 
alone the college degree that opens up new opportunities for women in 
the workplace, and in leadership positions around the world.
    But even though gender disparities in education remain high, 
especially in the developing world, countries and nongovernmental 
organizations are stepping up to the plate to make a difference. Today, 
I want to share the story of an organization which empowers young women 
in Rwanda by helping them receive a strong secondary-school education.
    Rwanda was devastated by the war and genocide in 1994, but against 
all odds, Rwandans have managed to rebuild their country and become a 
model of low corruption, economic growth and gender parity in 
government. The constitution mandates a minimum 30 percent 
representation for women in parliament, and today, remarkably, it is 64 
percent women. These women have been instrumental in the reconciliation 
and rebuilding of the country and continue to lead today. However, 
women are not represented at this level in all sectors, and in the 
rural areas, many parents are skeptical of the value of educating their 
girls. As is typical in many developing countries, if parents have 
limited money to send their children to school, many will send only 
their boys and keep the girls at home to help with household chores 
like collecting wood and tending to younger siblings. In Rwanda, 97 
percent of girls attend primary school, but less than 13 percent attend 
secondary school, meaning that only a small fraction of Rwanda's young 
women will have the opportunity to go to university.
    Rwanda Girls Initiative (RGI) was founded in 2008 in Seattle, 
Washington, with the mission of educating and empowering girls of 
Rwanda to reach their highest potential. RGI believes that education is 
the foundation on which all other development is built, and educating 
girls can exponentially increase this impact. With this belief, and 
with a strong partnership with the government of Rwanda, RGI started 
the Gashora Girls Academy of Science and Technology in 2011. Gashora 
Girls Academy is an upper-secondary university prep boarding school for 
270 girls in grades 10-12 located in the Gashora sector of Bugesera 
District, a poor, agricultural area located an hour to the south of 
Kigali, the capital of Rwanda. This area was particularly devastated 
during the country's genocide in 1994. Gashora Girls Academy offers a 
curriculum that focuses on STEM subjects (science, technology, 
engineering, and math) with an underlying belief in the importance of 
educating and nurturing the ``whole girl.'' Beyond the STEM coursework, 
students focus on developing life skills, leadership, critical 
thinking, and problem-solving abilities. Crucially, they get an 
education in a safe environment, free from the violence that is all too 
common for many young women in Rwanda and around the world.
    In October 2013, Gashora Girls Academy graduated their first class 
of seniors. Of 85 graduates, 25 are admitted to schools in the U.S., 
including Harvard, Yale, Smith, the University of Pennsylvania, and 
Seattle University. Two more girls are going to McGill University in 
Canada. These 27 girls coming to North America will be receiving 
approximately $4.8 million in financial aid in order to attend world-
class institutions. Other graduating students are attending schools in 
Costa Rica, China, South Africa, Ghana, and right at home in Rwanda. 
These girls will become national leaders, doctors, scientists, 
teachers, and more, each contributing to the success of their country.
    Enatha Ntirandekura is a recent graduate from Gashora Girls 
Academy. Both of her parents are subsistence farmers and the very 
little income they make is from a small plot of land. Though Enatha was 
always a strong student, some in her village discouraged her parents 
from allowing her to continue her studies. They said that a girl 
shouldn't be educated. At one point, someone in the village burned her 
family's coffee trees, their sole source of income. But her parents 
continued to send her to school, and she had the top score in her 
district on the national exam after middle school. She was offered a 
scholarship by the Rwanda Girls Initiative to attend Gashora Girls 
Academy. Enatha is a tenacious student and scored perfectly on the 
national exam she took after graduating this past year. Because of her 
success, she has been selected as a Presidential Scholar and will 
receive a full scholarship to an American university this fall. She 
hopes to study agriculture, and then go back to Rwanda to work on the 
problem of malnutrition and food scarcity to help her community.
    As we can see from Enatha, educating a woman is a tremendous 
investment. When Enatha returns home with her degree in agricultural 
science, that one scholarship to Gashora Girls Academy will empower her 
to help many more people in Rwanda. And Enatha's story is not unique; 
in fact, it is the norm. One extra year of secondary school increases a 
girl's future wages by 15 to 25 percent. When a woman in the developing 
world receives seven or more years of education, she marries later and 
has fewer children. When women and girls earn income, they reinvest 90 
percent of it into their families, creating a ripple effect for coming 
generations. Helping Enatha and the young women like her become 
doctors, teachers, and leaders will transform not only individuals, but 
entire communities.
    Educating girls and young women is the surest way to empower them. 
Education empowers them to teach, to lead, and to stand up against 
violence. I am honored to stand with my female colleagues to draw 
attention to this important issue. A great education transforms lives 
and can lift up entire communities and countries. I look forward to 
working with the Chair and my colleagues to empower women and girls 
around the world.

                               __________

    Statement Submitted for the Record by Sen. Susan Collins (R. ME)

    Madame Chairwoman, Ranking Member Paul, thank you for holding this 
hearing on a topic that could not be more timely. We are all aware of 
Boko Haram's kidnapping of nearly 300 schoolgirls in Nigeria in mid-
April. They were targeted for the sole offense of seeking an education. 
They are still missing, and the more time that passes, the more 
difficult it will be to reunite these girls with their families. And 
there are additional reports that Boko Haram kidnapped another 20 women 
a week ago.
    Meanwhile, in India, two girls were found dead outside their 
village May 29; they had been raped and then hanged. Two more teenage 
girls were found hanged in India on June 12. In Pakistan last month, a 
woman was stoned to death by her own family members outside a court 
building in a major city, because her family was outraged that she 
married the man she loved rather than the man they had chosen for her.
    These anecdotes illustrate a phenomenon that is well-documented. 
According to U.N. Women, the U.N. organization that promotes gender 
equality, 35 percent of women worldwide have experienced either 
physical or sexual abuse. In some countries, that figure rises as high 
as 70 percent. This type of violence ranges from domestic violence to 
rape and acid burnings to dowry deaths and so-called ``honor 
killings.'' Violence against women and girls is a human rights 
violation, a public health epidemic, and a barrier to solving global 
challenges such as extreme poverty, HIV/AIDS, and conflict.
    I believe the U.S. can and should be a leader in ending one of the 
biggest obstacles to not only U.S. national security but also global 
stability, development, prosperity, and human rights for all. This is 
why I am proud to be one of the original sponsors of the bipartisan 
International Violence Against Women Act (IVAWA, S. 2307), a bill that 
would ensure the U.S. has a comprehensive strategy in place to secure 
the safety and rights of women and girls, men and boys, across the 
world.
    The International Violence Against Women Act--IVAWA--would ensure 
that the U.S. will continue to take a leadership role in combatting 
these problems. It would establish that it is the policy of the United 
States to take action to prevent and respond to violence against women 
and girls around the globe and to systematically integrate and 
coordinate efforts to address gender-based violence into U.S. foreign 
policy and foreign assistance programs. IVAWA would permanently 
authorize the State Department's Office of Global Women's Issues and 
the position of the Ambassador-at-Large for Global Women's Issues. It 
would require the Administration to develop and implement an annual 
strategy to prevent and respond to violence against women and girls for 
each of the five years after the date of enactment of this Act. This 
bill would ensure that efforts begun under President George W. Bush and 
President Obama to combat gender-based violence will continue in future 
Administrations.
    Violence has a profound effect on the lives of women and girls. In 
addition to being a pressing human rights issue, such violence 
contributes to inequality and political instability, making it a 
security issue as well as a moral issue for us all. I am committed to 
continue working with my colleagues to end violence against women and 
girls and to provide the assistance and resources necessary to achieve 
this goal, and I call on all of my colleagues who are concerned about 
the global problem of violence against women and girls to join Senator 
Boxer and me in co-sponsoring the International Violence Against Women 
Act of 2014.
    Madame Chairwomen, Ranking Member Paul, I thank you again for 
holding this hearing.

                               __________

                 Statement Submitted for the Record by 
                Congresswoman Carolyn B. Maloney (D. NY)

    Chairman Boxer, Ranking Member Paul, I would like to thank you for 
hosting the hearing titled, ``Combating Violence and Discrimination 
Against Women: A Global Call to Action'' in the Senate Foreign 
Relations Subcommittee on International Operations and Organizations, 
Human Rights, Democracy, and Global Women's Issues.
    I have long believed, like you, that it is critical we empower 
women on a global scale. It has been clear for many years that 
expanding opportunities for women not only improves their position in 
society, but also has a positive impact on economic growth and 
burgeoning democracies. It is of upmost importance that we continue to 
raise awareness and highlight the need for action on the fundamental 
right of equality for all.
    That is why I introduced H. Res 19, expressing the sense of the 
House of Representatives that the Senate should ratify the Convention 
on the Elimination of All Forms of Discrimination Against Women 
(CEDAW). This bipartisan House Resolution urges the Senate to vote to 
ratify CEDAW, the landmark international agreement that mandates 
governments to take positive steps to ensure the full development and 
advancement of women, and their equal enjoyment of human rights, and 
that governments change or eradicate discriminatory laws, customs, and 
practices. Ratification of CEDAW would continue our nation's proud 
bipartisan tradition of promoting and protecting rights for all. Yet, 
the United States is the only western country in the world that has not 
ratified the treaty, although its fundamental principles of equality 
and nondiscrimination are central to our constitution. By not ratifying 
CEDAW, the United States becomes a bystander in creating a greater 
solution for women's equality around the world. The Senate's 
ratification of CEDAW would strengthen our standing as a global leader 
for the rights of women and girls everywhere.
    I also reintroduced legislation in this Congress, HR. 2947, the 
International Women's Freedom Act, condemning violations of women's 
rights and gender equality while advocating for the improvement of the 
status of women around the world and the achievement of their equality 
with men. This bill would put in place a more sophisticated network for 
monitoring and evaluating the status of women worldwide. With a better 
evaluation system that includes greater consultation with both 
government groups and non-governmental organizations; more information 
on women's rights will be available to Congress and the public at 
large. This, vastly increases both the quality and quantity of 
information available to combat gross violations of women's rights. The 
bill also would require the U.S. Department of State to issue a report 
rating countries on their treatment of women. As is the case with the 
annual State Department Trafficking in Persons report, countries care 
about their ``score'' and work to improve their status, which 
ultimately helps the victims.
    The United States needs high-level commitment in the form of laws 
which lay out explicit benchmarks for progress on women's rights around 
the world, backed by accountability mechanisms and the resources to 
achieve stated goals. Guaranteeing human rights for women is 
inextricably linked to a larger struggle for peace. development-- and 
uniting for meaningful change. I strongly believe we owe it to the 
women of the world to shine a spotlight on the status of their rights 
in an effort to improve them.

                               __________

           Statement Submitted for the Record by Esta Soler, 
            President and Founder, Futures Without Violence

    On behalf of Futures Without Violence, I would like to thank the 
Members of the Senate Foreign Relations Subcommittee on International 
Operations and Organizations, Human Rights, and Democracy, and Global 
Women's Issues for holding this congressional hearing on one of the 
most compelling causes of our time: ending gender-based violence 
globally.
    For more than 30 years, Futures Without Violence has led the way 
and set the pace for groundbreaking education programs, national and 
international policy development, professional training programs, and 
communication campaigns designed to end gender-based violence around 
the world. In 1994, FUTURES (then the Family Violence Prevention Fund) 
was instrumental in developing the landmark Violence Against Women Act 
passed by the U.S. Congress. Ten years later, FUTURES built a major 
coalition of experts from across the United States and around the world 
to tackle gender-based violence globally. Working together with 
congressional leaders in the House and Senate, we helped craft the 
International Violence Against Women Act (IVAWA) which the House and 
Senate both reintroduced in the 113th Congress with unprecedented 
bipartisan support.
    This hearing comes at an opportune time. Advocates across the 
United States and local leaders around the world are applauding and 
calling for more U.S. government initiatives that provide a diplomatic, 
programmatic, and policy framework for the prevention and reduction of 
gender-based violence internationally. We applaud the U.S. government 
for presenting the first ever U.S. Strategy to Prevent and Respond to 
Gender-Based Violence Globally (Strategy) and U.S. National Action Plan 
on Women, Peace and Security (NAP). These two historic policy frames 
align closely with provisions in IVAWA. As a group, these form the 
foundation of efforts to achieve gender equality, promote women's and 
girls' empowerment, end gender-based violence, and institutionalize 
these approaches in U.S. foreign policy. In addition to the work 
undertaken by the U.S. government to implement the Strategy and NAP, 
FUTURES celebrated last year when the U.S. Congress reauthorized the 
Violence Against Women Act, which included important provisions to end 
child marriage internationally and also reauthorized the Trafficking 
Victims Protection Act.
    The implementation of these initiatives arrives at a critical 
moment. Recent cases of horrific violence against girls and women in 
Nigeria, Pakistan, and India have galvanized the world around the need 
to address gender-based violence. Nations large and small, 
international agencies and financial institutions, nongovernmental 
organizations, and women and men of diverse communities, ethnicities, 
faiths, and political affiliations, all recognize that gender 
inequality and violence against women and girls are among the greatest 
barriers to global development, security, and prosperity.
    Most importantly, this global movement is driven by the voices of 
those denied their most basic human rights simply because they are 
female. I am talking about the 23 year-old student gang-raped and 
beaten on a bus during her daily commute; the hundreds of girls 
abducted from school by militants and sold into forced marriages; the 
newly married 25 year-old bludgeoned to death by her father who 
disapproved of her choice in husband and sought to restore his family's 
honor; the teenage cousins raped and hanged while venturing to use a 
public restroom; the adolescent boys forcibly recruited to participate 
in violence; and the young girls whose breasts are ``ironed'' flat 
under the misguided notion that it will delay puberty and deter 
possible rape. Violence against women and girls and men and boys is an 
emergency every day and it claims a toll in every country.
    All too often, the world's leaders are moved to act in the face of 
critically urgent and high profile emergencies, like the recent floods 
in the Balkans, the tragic aftermath of the earthquake in Haiti, and 
the typhoon in the Philippines. These crises demand urgent action--and 
it is imperative that such action takes into account the heightened 
vulnerability of women and girls to become targets of violence, sexual 
assault, and trafficking--but these leaders, and all of us, have to 
understand that violence is not relegated to times of great 
humanitarian crises and conflict--it happens every day.
    In regions of armed conflicts horrific sexual and physical violence 
are being committed against women and girls and men and boys, often as 
a tool of war. The Democratic Republic of Congo remains ground zero for 
horrific acts of sexual violence, including sons being forced to rape 
their own mothers and young girls being kidnapped and gang raped on a 
regular basis.
    Importantly, activists and leaders and everyday citizens around the 
world are taking action to stop the violence. I want to talk 
specifically about the role men can play in ending violence against 
women and girls. At Futures Without Violence, we began intentionally 
focusing on the role men can play in this work almost two decades ago. 
We asked men about their stake in the issue, and what they were willing 
to do to end the violence. We explored who helped them develop their 
attitudes and beliefs. Then we built on that research to create our 
Founding Fathers campaign through which, each Father's Day, men across 
the nation re-dedicate themselves to teaching the next generation that 
violence against women and girls is wrong. Founding Fathers include 
people like M.L. Carr, former all-star with your Boston Celtics; Ted 
Waitt, founder of Gateway Computer; Terry Lundgren, Chairman, President 
and CEO of Macy's; and hundreds of others.
    Those lessons also led us to create Coaching Boys Into Men in 2002. 
It invites fathers, uncles, teachers, coaches and other men to teach 
the next generation that violence is always wrong. It has changed men's 
behavior in the United States, significantly increasing the number of 
fathers, and men, who talk to boys about violence. As a result, we 
adapted those strategies overseas. We are proud that, with support from 
our partners, we have put in place Coaching Boys Into Men in India, 
where cricket coaches and players are helping educate boys about the 
need to treat girls with respect. We have learned that when messages 
come from popular, respected coaches and players, boys listen.
    Deep-seated change will only come when we stand together to stop 
this violence. There is a role for each of us.
    With each passing day there is a growing understanding of the 
correlation between improving the status of women and girls and 
achieving peace and prosperity. Nations that promote gender equality 
and empower women and girls, and that remove the often formidable 
barriers for women and girls to access education, secure safe 
employment, participate in civic life, and live free from violence, 
also experience reductions in the rates of HIV and AIDS, decreases in 
incidents of child and maternal mortality, improvements in economic 
productivity, and the enrichment of participatory and democratic 
government. When we eliminate violence against women and girls and when 
we empower women and girls, everyone benefits.
    The International Violence Against Women Act codifies many of the 
groundbreaking initiatives undertaken by the U.S. government that are 
having an immediate and direct impact in saving the lives of women and 
girls around the world. Most notably, IVAWA:

   Directs the Department of State and U.SID to continuing to 
        implement a comprehensive multisectoral strategy to prevent and 
        respond to gender-based violence;
   Integrates efforts to prevent and respond to violence against women 
        and girls as part of U.S. foreign assistance programs including 
        health, education, economic growth, legal reform, political 
        participation, social norm change, humanitarian assistance, and 
        foreign security training, among others;
   Supports overseas non-governmental and community-based 
        organizations working to end gender-based violence; and,
   Ensures uniform data collection and accountability measures are in 
        place to track investments in programs that address gender-
        based violence.

    We need the U.S. Congress to stand together and affirm with 
unquestioned conviction that gender-based violence is not only 
deplorable, but is an issue that requires U.S. leadership. We need the 
U.S. Congress to move beyond the rhetoric and to pass the International 
Violence Against Women Act.
    Ending gender-based violence is a moral imperative, but it is also 
an essential feature for building stable democracies, enabling economic 
development, and improving global security. This is an issue that rises 
above partisan politics. It is about the promotion of universal human 
rights and about creating a better world for everyone, women and girls, 
and men and boys alike. Thank you.

                               __________

         Statement Submitted for the Record by Amanda Klasing, 
             Women's Rights Researcher, Human Rights Watch

    Chairwoman Barbara Boxer, Ranking Member Rand Paul, and other 
members of the Senate Foreign Relations Subcommittee on International 
Operations and Organizations, thank you for the opportunity to submit a 
written statement for today's hearing on violence and discrimination 
against women.
    Human Rights Watch has been documenting violence against women as a 
human rights violation for almost a quarter of a century. We are 
pleased that your Committee is taking up this issue as a global call to 
action, as we believe that it will take significant leadership on the 
part of the United States to prevent, punish and eliminate violence 
against women globally, and to ensure adequate protections and services 
for survivors.
    On June 13, 2014, Secretary of State John Kerry said in a statement 
at the Global Summit to End Sexual Violence in Conflict, held in 
London, ``Gender-based violence, anywhere, is a threat to peace, 
security, and dignity everywhere.'' Human Rights Watch could not agree 
more. Gender-based violence is pervasive in the lives of hundreds of 
millions of women and girls around the world, including in our own 
country. It is well past time for Congress to take meaningful action to 
address violence against women globally, Violence against women spans 
geography, class, age, race, caste, creed, disability and sexual 
orientation, and eradicating it will require comprehensive 
understanding of its many manifestations. In this submission, Human 
Rights Watch would like to direct the subcommittee's attention to a few 
key areas of concern: child marriage; impact of conflict on women and 
girls; violence against women and girls with disabilities; and, women 
human rights defenders.
Child marriage
    Child marriage occurs when at least one of the parties of a 
marriage is below 18 years of age. It is a violation of human rights 
that disproportionately affects hundreds of millions of girls and 
women. Child marriage also violates other human rights, including the 
rights to education, freedom from violence, reproductive rights, access 
to reproductive and sexual health care, employment, freedom of 
movement, and the right to consensual marriage.
    Human Rights Watch has documented human rights violations against 
married girls in Afghanistan, Bangladesh, India, Iraq, Kenya, Malawi, 
Papua New Guinea, South Sudan and Yemen.1 The accounts of the girls and 
women who were married as girls illustrate the profoundly detrimental 
impact of child marriage on their physical and mental well-being, 
education and ability to live free of violence. The consequences of 
child marriage do not end when child brides reach adulthood, but often 
follow them throughout their lives as they struggle with the health 
effects of being pregnant too young and too often, their lack of 
education and economic independence, domestic violence and marital 
rape.
    The worst abuses linked to child marriage can be mitigated when 
governments set and enforce age limits for marriage, establish and 
enforce compulsory marriage registers, and prosecute perpetrators of 
forced marriage.
Impact of conflict on women and girls
    Human Rights Watch first documented sexual violence in conflict in 
1993 in a report about Indian security forces in Kashmir that used rape 
to brutalize women and punish their communities. Since then, we have 
investigated and documented rape in numerous conflicts around the 
world, most recently in Afghanistan, Central African Republic, 
Colombia, Democratic Republic of Congo, Cote D'Ivoire, Guinea, Libya, 
Somalia, Sri Lanka, and Syria.2 Regardless of the setting, we have 
found that efforts to hold attackers to account and medical and 
rehabilitation services for victims have largely been inadequate.
    The international community has made progress in recognizing the 
prevalence of sexual violence and taken steps to address it. Rape in 
conflict is prosecuted as a war crime and a crime against humanity, and 
the United Nations Security Council, with leadership from the United 
States, passed a resolution in 2008 expressing its willingness to 
``adopt appropriate steps'' to address widespread or systematic sexual 
violence. Security Council Resolution 1820 urges all parties to 
conflicts to provide sustainable assistance to victims of sexual 
violence in armed conflict and post-conflict situations. However, rape 
during and after war continues to terrorize women and girls, and 
impunity for these crimes is the norm. Most often survivors receive 
neither justice nor services, including comprehensive post-rape medical 
care.
    In addition to sexual violence, Human Rights Watch has documented 
multiple abuses affecting women in war, including forced displacement; 
the targeting and punishment of women because of their own activism or 
activism by male relatives; the drive towards earlier, forced and child 
marriages because of instability and a lack of security for girls and 
younger women; an increase in domestic violence and sexual violence 
committed by civilians; lack of access to food, shelter and health 
care; the interruption of education; and, sexual exploitation and 
trafficking, to name but a few. When resources are mobilized to address 
sexual violence in conflict, they must also be deployed to address the 
full range of violations against women's and girls' rights that occur 
during and after conflict.
    Lastly, women and girls may face specific and additional challenges 
to accessing education during conflict. In armed conflicts worldwide, 
students, teachers, and schools have been deliberately targeted. In 
some instances, female students and teachers and schools that educate 
girls and women are singled out. Armed groups have attacked, killed, 
and abducted female students because of opposition to girls and 4 women 
receiving an education, or in opposition to adolescent girls and women 
receiving an education alongside boys and men. In addition, since 2005, 
government armed forces and non-state armed groups have occupied and 
used schools and universities for military purposes in at least 23 
countries with armed conflict. The use of schools for military purposes 
endangers students' and teachers' safety as well as their education. 
Girls studying alongside soldiers inside their schools may be sexually 
harassed, abused, and raped. Parents of girls are often particularly 
unwilling to send their girls to schools that are being occupied out of 
real or perceived concerns about such risks. Activities such as 
soldiers using school toilet facilities and excluding adolescent girls 
from using them also negatively affect girls' attendance and education.
Violence against women and girls with disabilities
    Women and girls with disabilities who suffer gender-based violence 
face distinctive barriers to accessing gender-based and sexual violence 
prevention programs, post-violence medical care, and the justice system 
because of limitations in physical mobility, communication barriers, 
and isolation. These barriers leave them vulnerable to abuse, including 
physical and sexual violence.
    In northern Uganda, for example, Human Rights Watch documented 
sexual violence against women with disabilities and found that more 
than one-third of 64 women with disabilities interviewed had 
experienced sexual or gender-based violence, often at the hands of 
relatives. Women with disabilities have a greater chance of being raped 
because abusers perceive them as less able to defend themselves or 
demand justice for violence. For women with disabilities, the process 
of reporting violence may be more difficult because of limited access, 
such as when limited mobility impedes their ability to reach justice 
institutions or when such institutions lack sign language interpreters. 
Several women with disabilities explained to Human Rights Watch how 
their efforts to seek justice for such crimes had failed. Because of 
the stigma already associated with disability and the stigma associated 
with rape, women with disabilities have enormous difficulty reporting 
incidents of sexual violence to the local authorities.
    Women and girls with disabilities also face many challenges in 
accessing reproductive and sexual health services, which may only be 
exacerbated if they are a victim of gender-based violence. In many 
countries, women with disabilities face ignorance, discrimination and 
verbal abuse from healthcare personnel.
    For example, our research in northern Uganda showed that women with 
disabilities who survive rape find it especially difficult to get post-
exposure prophylaxis and other necessary treatment, such as emergency 
contraception, because of physically inaccessible transportation and 
healthcare facilities, as well as lack of confidentiality due to deaf 
women's need to bring family members as sign language interpreters.4
    Emergency shelters for survivors of domestic violence are 
inaccessible to women with disabilities in many countries. In Turkey, 
Human Rights Watch researched the response to domestic violence in six 
cities, and found that none of these locations had domestic violence 
shelters (state or private) that could accommodate women with physical 
disabilities.
Women human rights defenders
    In order to do our work effectively, Human Rights Watch 
collaborates closely with women and groups worldwide who fight for the 
rights of women. All human rights defenders may face risks, but we have 
seen firsthand that women defenders suffer additional threats and 
unique obstacles because they are women. The actions taken by 
governments are at times insufficient to address the gendered nature of 
risks and assaults. And even worse, we have documented examples where 
governments themselves target women human rights defenders.
    Human Rights Watch has documented various abuses against women 
human rights defenders: physical attacks, hand-delivered threats, 
terrifying phone calls, sexual harassment, rape and threats against 
children of activists-all creating a chilling environment in an effort 
to silence these women. Often, no one is held accountable, and 
sufficient protection measures for these women are rare.
    In some contexts, governments themselves target, arrest, and 
assault women because of their activism for women's rights. Human 
Rights Watch has documented sexual harassment and attacks on women by 
government forces for demonstrating in public. And, in some cases, 
women and girls have been arrested and abused by their male relatives 
because of their activism.
    Many Human Rights Watch researchers have seen personally the 
tremendous toll that human rights work takes on women working at the 
grassroots level to seek justice for abused women, in particular 
victims of sexual violence. The women defenders I have worked with have 
been raped multiple times for their activism, have had their children 
threatened or abused, or have had to flee their homes. In one 
particularly difficult case, the stress of continuous threats led one 
woman defender to take her own life. I cannot imagine holding a hearing 
on the issue of combating violence against women without reflecting on 
the unmatched sacrifice and bravery of women human rights defenders 
around the world who are waging the difficult and daily fight to end 
violence in their own communities.
Recommendations
    Human Rights Watch welcomes the global call to action raised by the 
Senate Foreign Relations Subcommittee on International Operations and 
Organizations, Human Rights, Democracy, and Global Women's Issues. 
Combatting violence against women requires a global effort to end 
abuses against women and girls. For years, Human Rights Watch has 
called for U.S. ratification of the Convention on the Elimination of 
All Violence against Women. We renew that call, and are disappointed 
that it appears unlikely that there are sufficient votes necessary for 
ratification. We will continue to ask for the ratification. However, as 
fundamental first steps, Human Rights Watch recommends that the U.S. 
Senate:

   Pass the bipartisan International Violence Against Women Act, S. 
        2307.
   Request that the Secretary of State provide an update regarding the 
        development and implementation of the multi-year and multi-
        sectoral strategy to end child marriage, as outlined in the 
        domestic Violence Against Women Reauthorization Act passed in 
        March 2013.
   Press the administration to provide leadership at the U.N. Security 
        Council for following up on its resolutions related to women, 
        peace and security.
   Call on the administration to provide public information regarding 
        its progress in implementing the December 2011 U.S. National 
        Action Plan on Women, Peace and Security and the U.S. Strategy 
        to Prevent and Respond to Gender-Based Violence Globally, 
        including lessons learned and best practices.
   Ensure that U.S. funding for services to victims of violence 
        includes comprehensive post-rape medical care.
   Urge the administration to show leadership in the global 
        negotiations around the post-2015 sustainable development goals 
        and push for the inclusion of a strong goal on gender equality 
        and women's rights, including targets related to ending gender-
        based violence, ending child marriage, and ending all forms of 
        discrimination against women, all with clear target dates.
   Strengthen the U.S. commitment to addressing accountability and 
        justice for sexual violence in conflict by developing relevant 
        benchmarks for all U.S. assistance related to security sector 
        reform, such as visible and clearly defined efforts from the 
        recipient government to investigate and prosecute serious 
        violations of international humanitarian law. This entails 
        prosecuting individuals who were criminally liable because they 
        ordered such crimes or who as a matter of command 
        responsibility failed to prevent or punish them.

                               __________

        Statement Submitted for the Record by Dr. Nancy Okail, 
      Executive Director, Tahrir Institute for Middle East Policy

    To the Honorable Chairwoman Barbara Boxer, Ranking Member Rand 
Paul, and Members of the Subcommittee:
    Thank you for convening this important hearing to examine the 
growing threats to safety and security of women around the world. The 
Tahrir Institute for Middle East Policy is very grateful, Madam 
Chairwoman, for your many efforts to strengthen protections for women 
globally through engagement with both U.S. officials and our 
international partners at the United Nations and around the world. It 
is an honor to submit my testimony before the first congressional 
subcommittee specifically charged with addressing global women's 
issues.
    Efforts to address gender inequality over the last several decades 
have resulted in considerable advancements in women's rights. In that 
time, the international community has embraced increased international 
legal protections for women and girls, including, notably, the U.N. 
Convention on the Elimination of All Forms of Discrimination against 
Women, which has been ratified or acceded to by nearly every U.N. 
member state (although, regrettably, not the United States). 
Additionally, the constitutions of more than 130 countries now 
guarantee gender equality, and more than 115 countries outlaw sexual 
harassment and gender violence.
    Despite these important advances, as the United Nations said nearly 
20 years ago, ``no society treats its women as well as its men.'' 
Unfortunately, that remains as true today as it was then. Much more 
work remains to be done to combat violence and discrimination against 
women around the world, particularly in the Middle East. As we have 
seen in Egypt, women continue to be subordinated by a society that 
embraces patriarchal social norms and diminishes or ignores the daily 
sexual harassment and increasingly frequent mass sexual violence 
perpetrated against women. The failure by the government of Egypt to 
adequately enforce its domestic and international legal obligations to 
protect women has contributed to a culture of impunity that severely 
undermines efforts to achieve gender parity in Egypt.
    I am grateful for the opportunity, Madam Chairwoman, to join your 
global call to action to address these problems, and hope that the 
following assessments and recommendations will be valuable in reversing 
this very disturbing trend.
Discrimination and violence against women and girls in Egypt
            Gender inequality
    The problem of gender inequality in Egypt is one that affects all 
aspects of daily social, political, and economic life for women. 
According to the World Economic Forum's 2013 Gender Gap Index, which 
measures the gap between men and women across four categories, Egypt 
ranks 125 overall out of 136 countries, putting only a few paces ahead 
of Syria, Saudi Arabia, Iran, and Yemen. These rankings factor into 
account women's economic participation and opportunity, educational 
attainment, health and survival, and political empowerment. 
Comparatively, the Middle East ranks last among other regions in 
closing the gender gap. The region has only closed 59 percent of the 
gender gap between men and women (by comparison, North America has 
closed 74 percent of its gender gap).
    The wide gender gap between men and women in Egypt is largely 
attributable to social norms: Egyptian society is in many ways 
patriarchal, and the family is considered to be the main unit of 
society. As a result, women's primary role in society is widely viewed 
to serve a caretaker function, although many women are informally 
employed. Men, meanwhile, are regarded as the breadwinner and head of 
the family.
    Unfortunately, this social perception of a woman's place in society 
was recently echoed in remarks made by then-candidate Abdel Fattah al-
Sisi, who called upon to women to ``encourage [their] husbands and 
children to work,'' reflecting the deeply-ingrained view that a woman's 
proper place is at home. Sisi went on to say that women should help to 
save electricity by ``going around the house and turning off the 
lights,'' and referred to women as the ``calm, soft, and rational voice 
in the house"--in both instances overtly suggesting that women belong 
at home, rather than in the workforce.
    This social structure may explain why the literacy rate for women 
remains far below that of men. The 2013 Gender Gap Index reports that 
the female literacy rate in Egypt only stands at 66 percent, compared 
with 82 percent for males. According to one woman, ``reading doesn't 
make a woman socially acceptable or useful.'' Indeed, while education 
rates for girls and boys are reported to be virtually the same for 
primary and tertiary education levels, in many rural areas--where girls 
are sometimes not even registered with the state after being born--an 
estimated 80 percent of girls do not attend school.
    Low literacy rates and social expectations of women keep them from 
becoming contributing members of the labor market. According to the 
2013 Gender Gap Index, women's labor force participation in Egypt only 
stands at 25 percent, compared with 78 percent for men. These rates 
remain largely unchanged from 2011, when, according to the U.N. 
Children's Fund (UNICEF), only 22 percent of Egyptian women aged 15 and 
above were actively engaged in the labor market by either working or 
looking for work, compared with 75 percent of Egyptian men. By 
comparison, the global labor participation rate for women was 52 
percent in 2011.
    Women's low labor force participation helps to perpetuate the 
social expectation that women will stay at home, which may in turn help 
to explain why women's political empowerment in Egypt is also low as 
compared with international rates. The 2013 Gender Gap Index found that 
only 12 percent of Egypt's ministers and 2 percent of its 
parliamentarians are female. Globally, women make up more than 20 
percent of national parliaments, nearly 6 percent of the world's heads 
of state, and close to 8 percent of heads of government, putting Egypt 
behind the international average.
    We have seen some recent efforts to improve women's political 
participation in Egypt. An earlier-proposed version of Egypt's 
parliamentary elections law would have required that 24 seats in 
Egypt's new parliament (4 percent of the 603 total number of seats) be 
set aside for women. A recently-revised law now sets aside 40 seats for 
women, or 6 percent. While these rates would mark an improvement in 
women's parliamentary representation over last year's 2 percent rate, 
they still fall far below the international average, and of course do 
not reflect the fact that women make up nearly half of Egypt's 
population. By keeping women out of politics in Egypt, they are denied 
opportunities to strengthen legal protections and participate in 
decision-making structures that could help to elevate the status of 
women and girls.
Female genital mutilation
    Discrimination and violence against women in Egypt is a problem 
that often begins during girlhood. Patriarchal social stigmas 
surrounding women and their role in society have resulted in their 
being cast as symbolic representatives of the family's ``honor.'' As a 
result, the violation of a woman's sexual purity--be it through rape, 
assault, sexual promiscuity, or some other offense--is considered a 
violation of a family's honor.
    In order to reduce a woman's sexual desire and maintain her purity 
and faithfulness, the parents of young girls often subject their 
daughters to female genital mutilation (FGM), which involves the 
circumcision of a girl's clitoris. Indeed, the practice has no effect 
on sexual desire, but instead makes sex painful for women. According to 
UNCEF, 91 percent of women in Egypt between the ages of 15 and 49 have 
been subjected to FGM. The practice confers absolutely no medical 
benefit, and is instead a violation of a child's right to health, 
security, physical dignity, and right to be free from torture or cruel, 
inhuman, or degrading treatment, as well as the right to life (where 
cases result in death).
    The crime has been outlawed since 2008 but the FGM ban has never 
been enforced in the courts until now, after one young girl died last 
year following a botched FGM procedure. The incident has led to the 
country's first prosecution of the crime. The crime is punishable by a 
prison term of anywhere from three months to two years, and a fine of 
up to EGP 5,000 (U.S. $700).
Sexual harassment and violence
    The problem of sexual harassment and violence against women are, 
regrettably, common occurrences in Egypt, and have been for years. 
According to a 2013 study released by the United Nations Entity for 
Gender Equality and the Empowerment of Women (U.N. Women report), 99.3 
percent of Egyptian women have experienced some form of sexual 
harassment, ranging from verbal remarks to physical touching. The 
majority of women interviewed for the study said that harassment occurs 
regardless of attire, looks, age, marital status, or economic class. 
Likewise, violence against women in Egypt is an endemic problem that 
led to Egypt being labeled the ``worst Arab state for women'' last 
year. (Other factors surveyed included women's status within the 
family, reproductive rights, and women's political and economic 
participation.
    Unfortunately, since the start of Egypt's revolution three years 
ago, reports of harassment and violence against women has gone up as 
more and more women occupy public spaces.
    According to several Egyptian non-governmental organizations, more 
than 500 sexual violence survivors experienced assaults between 
February 2011 and January 2014. A separate group--Shoft Taharosh (``I 
Saw Harassment'')--reportedly documented 730 cases of sexual harassment 
in October 2012, only three of which were reported to the police.
    Several of the more violent attacks against women have gained 
worldwide attention. The international community reacted with outrage, 
for instance, to the violent mob assault in February 2011 against CBS 
reporter Lara Logan, who was covering protests that led to the downfall 
of former President Hosni Mubarak, and to reports last July that more 
than 150 counts of sexual mob attacks had occurred in Tahrir Square 
during protests that led to the ouster of former President Mohamed 
Morsi.
    The international community was shocked once again when, two weeks 
ago, violent mobs sexually assaulted several women in Tahrir Square 
during celebrations of Mr. Abdel Fattah al-Sisi's presidential 
election. The imagery of dozens of men sexually assaulting a lone woman 
in a video of one of the attacks incited strong emotional reactions 
among Egyptians as well, which ranged from summary condemnation of the 
incident to a dismissal of the attack as the product of excessive 
``celebration.'' Blame was ascribed to the Muslim Brotherhood, accused 
of committing the violence in an attempt to ruin Sisi's celebration, as 
well as to the victims themselves.
    In his response to the incident, even President Sisi failed to 
adequately address the cause of such violence. In a public apology to 
the victim, whom President Sisi visited in the hospital--along with a 
spray of television cameras to capture the moment--he remarked that 
``our honor is being violated on the streets.'' Overlooked in his 
remarks is the fact that it is not Egypt's honor that is being 
violated, but women's bodies and sense of human dignity.
    President Sisi's public acknowledgement of this problem is 
laudable, but his choice of words is regrettable, because it is 
precisely this concept of ``honor'' that often discourages victims from 
reporting abuses them. A woman may be urged by her family or the police 
to keep quiet about the incident in order to avoid bringing shame upon 
the family or upon the victim--as if the victim was somehow complicit 
in her own attack.
    Indeed, the notion of personal or family honor is one of the 
reasons that women do not report abuses committed against them. 
According to the U.N. Women report, nearly 35 percent of women surveyed 
claimed that they did not report incidents of harassment to the police 
either because they feared for their reputation or for their family's 
reaction. Both this notion of honor and the problem of victim-blaming 
are deeply entrenched in Egyptian culture. Often, female victims will 
be blamed for provoking the attacks because of the clothing or makeup 
they wear. This harmful discourse places the blame for such attacks on 
the victim, releasing the perpetrators from culpability.
    In the same report, another 23 percent of women said that they 
failed to report the incident because they did not know that harassment 
was illegal. It is incredible to think that the harassment of women in 
Egypt is so common, systematic, and undisciplined that nearly a quarter 
of Egyptian women do not even know that it is a crime and that they 
have a right to be free from such abuse.
    Also telling of the problems intrinsic in Egypt's legal and 
judicial system is the fact that almost 10 percent of women in the 
survey said that they feared they would be harassed by the police if 
they tried to report the abuse. Those fears are not unfounded: among 
women who had reported harassment, 5 percent said that they were 
harassed by police when they tried to file a complaint, while nearly 14 
percent said that the police scolded and mocked them.
    The state's complicity in perpetuating this violence goes beyond 
simply discouraging women from filing complaints: security and police 
forces also perpetrate sexual violence against women, with impunity. In 
early 2011, allegations surfaced that the military had conducted so-
called ``virginity tests'' against female detainees. According to 
remarks made by then-General al-Sisi, who defended the tests, the 
military needed to determine whether the women were virgins in order to 
protect the military from rape allegations--insidiously implying that 
only virgins can be raped. Of course, abuses by the military and police 
forces against women did not end there. Continued abuses produced 
protests against law enforcement officers in late 2011 and mid-2012, 
further confirming the perception that reporting such crimes to 
institutions that abet them is a lost cause.
Assessment of recent commitments by the government of Egypt to address 
        violence
            Legal reforms
    Until recently, the crime of sexual harassment was not specifically 
defined under Egyptian law. That changed on June 5, 2014, when, just 
days before leaving office, former interim President Adly Mansour 
issued Decree No. 50 of 2014 which amends Egypt's penal code to define 
the crimes of harassment and sexual harassment, and imposes increased 
penalties for certain violations.
    According to the amendments, harassment is now defined as when one 
``approaches another person in a public, private, or familiar place 
with sexual or suggestive objects, suggestions, or insinuations, be it 
by allusion, word, or action in any way, including wired and wireless 
communication networks.'' Harassment is punishable by a term of 
imprisonment of not less than six months or a fine of EGP 3,000 (about 
U.S. $419). Repeat offenders may be punished by a prison term of one 
year and the fine to EGP 5,000-10,000 (about U.S. $700-1,400).
    The behavior defined above is considered sexual harassment if done 
``with the purpose of the criminal receiving benefit of a sexual nature 
from the victim.'' The crime is punishable by a minimum prison term of 
one year and a fine of EGP 10,000-20,000 (about U.S. $1,400-2,800). Any 
individual who is in a position of authority over the victim ``through 
employment, family or education,'' or if ``the crime was committed by 
two or more people, or at least one of the offenders is armed with a 
weapon,'' will be punished with a term of imprisonment of between two 
and five years and a fine of EGP 20,000-50,000.
    The penal code defines rape as ``sexual intercourse with a female 
without her consent.'' The penalty for rape is life in prison, but in 
cases where the victim is a minor or the rapist has a position of 
employment, familial, or educational authority over the victim, the 
penalty can include capital punishment.
National strategy
    Last week, newly-elected President Sisi proposed additional 
measures to combat the problem of sexual violence in response to the 
violent sexual assaults against women in Tahrir Square. Among other 
things, President Sisi ordered the formation of a ministerial committee 
that included representatives from the government, Muslim and Christian 
religious establishments, and civil society to identify ``the 
underlying causes behind the proliferation of this phenomenon and 
delineate a national strategy to address it.''
    On June 12, the committee announced its plan to tackle sexual 
harassment, which includes an increase in security presence in public 
squares; the creation of an ``integrated security team'' to combat 
sexual harassment and assault; an increase in police officers assigned 
to the interior ministry's human rights sector to respond to sexual 
harassment and assault claims; implementing Egypt's newly-amended 
sexual harassment provisions; researching the causes of such abuse to 
create a national strategy to combat it; amending school curricula to 
include lessons on equality and violence against women; and launching 
public education campaign during Ramadan. The plan also includes asking 
state hospitals to care for victims of sexual assaults (incredibly, one 
of the victims of the recent Tahrir Square assaults was turned away 
from several public hospitals before being admitted to a private one).
Assessment
    Many of these proposals by the government of Egypt to tackle the 
problem of sexual assault against women are laudable, and could mark 
the turning page for Egypt--if the government follows through on its 
commitments. At the same time, some of these proposals do not go far 
enough in addressing the problem and need to be reconsidered.
    The recent amendments to Egypt's penal code are a step in the right 
direction, but certain provisions still make it difficult to prosecute 
sexual harassment. For instance, the crime of sexual harassment 
requires the perpetrator to have intended to receive sexual 
gratification from the victim. A defendant need only claim that his 
actions were accidental or not intended to be harmful, and the burden 
of proof thus shifts to the prosecutor--and thereby, the victim--to 
prove the defendant's culpability.
    Rather than making it all but impossible for victims to prove that 
they were harmed, the focus of the law in punishing sexual harassment 
should instead be on the abuse committed and its effect on the victim, 
rather than the intent of the perpetrator. The government should re-
amend this provision to eliminate the burdensome intent requirement.
    Other provisions of the penal code also place an inordinate burden 
upon the victim in proving her victimization. The amendments to the 
penal code, for example, did not eliminate the existing requirement 
that a victim of sexual harassment bring her harasser and two witnesses 
to the police station in order to file a claim. This provision 
effectively perpetuates patriarchal norms by suggesting that the 
victim's word is not good enough to be taken at face value.
    The law should be amended to eliminate the requirement that the 
victim furnish the perpetrator and witnesses. The responsibility of 
procuring witness statements and interviewing the accused should 
rightly fall upon the police, who are charged with enforcing the law. 
Police, for their part, should be trained and equipped to properly 
investigate allegations of sexual harassment and violence.
    Also problematic in the penal code is the definition of rape, which 
only criminalizes ``sexual intercourse with a female without her 
consent.'' The law fails to account for rape by other means, including 
anal and oral penetration, and also only criminalizes intercourse, 
which does not include penetration by other body parts or instruments. 
Unfortunately, many victims of gang rapes have been assaulted with 
sharp objects and fingers, which are not covered under the rape law. 
Moreover, the law only considers women to be the plausible victims of 
rape, completely excluding male victims, many of whom are victimized by 
police forces in prison.
    The penal code should be amended to more broadly define rape as the 
vaginal, anal, or oral penetration of a male or female by intercourse, 
other body parts, or instruments, without consent or in coercive 
circumstances that negate consent.
    The enactment of improved laws is an important first step in trying 
to tackle the sexual harassment epidemic facing Egypt, but the law is 
only a useful tool in combating these crimes if it is properly 
enforced, and there we see additional problems. Police are sometimes 
complicit in attacks against women, and often lack the training and 
capacity to properly process such complaints.
    While an increased security presence in public squares may, 
theoretically, help to deter sexual violence against women, police are 
also part of the problem. According to the U.N. Women report, 17 
percent of reported cases of sexual harassment are perpetrated by 
police and security officers. Without a commitment by the government to 
hold officers accountable for abuse, an increased police presence may 
only exacerbate the problem.
    The government must fully acknowledge that the extent of this 
problem goes beyond private actors and includes the government itself. 
Egypt must dedicate itself to holding its own officials accountable for 
violating the same laws they are responsible for enforcing.
    Police are not the only perpetrators of sexual abuse who escape 
with impunity. Lax law enforcement procedures and corrupt police 
practices have led to deeply troubling trends in the miscarriage of 
justice, as reflected by the many accounts of arbitrary arrests and 
forced disappearances in Egypt. It is not uncommon for innocent 
individuals to be charged with crimes that they did not commit, either 
because the prosecutions are pursued as a form of retribution against 
the defendant or his family, or because police are pressured to close 
out cases. In the latter instance, police often arbitrarily arrest 
young men, typically from poorer neighborhoods, who are less likely to 
have the resources or connections to avoid arbitrary arrest or 
detention.
    This form of miscarriage of justice has led some to question 
whether the newly-amended sexual harassment laws will be appropriately 
enforced, or whether enforcement will only be selectively directed at 
certain individuals. It is not an absurd notion to consider, given that 
the government has also attempted to silence its critics by routinely 
targeting opposition leaders, activists, NGO workers, and journalists 
for malicious prosecutions based on fabricated charges.
    While we applaud plans by the government to increase security 
sector resources to respond to sexual crimes, given the prevalence of 
lax investigatory and enforcement procedures, the government must 
ensure that all police officers are properly equipped to address sexual 
abuse claims and are properly trained in due process standards in order 
to avoid miscarriages of justice.
    Other measures recently announced by the government to address this 
issue include researching the causes of sexual abuse to create a 
national strategy to combat it; amending school curricula to include 
lessons on equality and violence against women; and launching a public 
education campaign on sexual harassment.
    All of these proposals are commendable, but to be successful and 
have buy-in from relevant stakeholders, their implementation must 
include input from civil society actors, including women's and human 
rights groups, victim treatment centers, survivors' groups, educators, 
religious leaders, and other important actors.
    Moreover, although we likely will not know the details of the 
national strategy for several weeks or longer, any plan proposed by the 
government should adopt measures that ensure adequate medical and 
psychological support for victims of sexual assault. These measures 
should address victim confidentiality, the provision of timely 
treatment, support for rehabilitation and recovery, referrals to other 
services. Police and medical officials should receive training on these 
measures.
Recommendations for the U.S. Government
    While the Egyptian government has taken commendable steps in 
addressing the issue through the recent ratification of a new law 
criminalizing sexual harassment, there is much left to accomplish. As a 
strategic ally to Egypt, the United States government can play an 
important role in encouraging Egyptian leaders to take appropriate 
measures, as described above, to meaningfully address systemic 
discrimination and violence against women. The U.S. government can also 
ensure that adequate funding is provided for programs that advance 
these goals.

   Engage with Egyptian government leaders and encourage them to adopt 
        the measures outlined above to ensure that Egypt's legal 
        protections and social norms more fully protect the rights of 
        women and girls;
   Ensure that U.S. funding to Egypt supports programs that will 
        strengthen Egypt's public education and awareness-raising 
        efforts on the topics of equality and violence against women, 
        and also support public education programs and campaigns on the 
        topic of female genital mutilation;
   Continue to provide funding that supports women's and girls' 
        education, and work with Egyptian leaders to ensure that all 
        girls--particularly those living in rural areas--are properly 
        registered so that they can receive an education;
   Continue to support civil society groups in Egypt that are working 
        to address the problems of discrimination and violence against 
        women, and encourage the government of Egypt to engage and 
        collaborate more directly with civil society leaders on these 
        issues; and
   Encourage Egyptian leaders to consider revising the parliamentary 
        elections law to allow for greater female representation in 
        Egypt's parliament, and support U.S. aid programs that empower 
        women to become more politically engaged.

                               __________

      Statement Submitted for the Record by Amnesty International

    Thank you Chair Boxer, Senator Paul, and to the members of the 
Committee, for holding this important hearing and for your leadership 
in helping to end gender based violence globally.
    Amnesty International U.S is pleased to testify at this critical 
and timely hearing. Amnesty International's testimony will focus on the 
international human rights framework that exists to address gender-
based violence, and offer recommendations on concrete actions that the 
United States Government can take to help prevent, respond, and 
ultimately end the violence.
    Our organization's campaigns to end gender-based violence around 
the world have produced hundreds of reports documenting these human 
rights abuses; offered detailed recommendations for action by 
governments, non-state actors, and international organizations; and 
clearly illustrated the connection between this violence and other 
violations of human rights around the world.
    Violence against women takes many forms, including rape, domestic 
violence, female genital mutilation, child and forced marriage, and 
acid attacks to name a few. It's a global human rights crisis that 
exacerbates instability and insecurity around the world.
    But is also an issue that affects individual women intimately. 
United Nations statistics show that one in three women will be raped, 
beaten, coerced into sex or otherwise abused during their lifetime. A 
shocking number and potentially a vast underestimation of the true 
number of women affected.
    Over the last 25 years, violence against women has increasingly 
been understood and accepted as a human rights issue. Whereas violence 
was previously dismissed as an unpreventable consequence of war, 
cultural norm, or simply a private matter, the international community 
has acknowledged that women and girls often are targets of abuse 
because of their gender--whether in conflict, where rape is often used 
as a weapon of war, in communities and schools, or in the home where 
violence occurs within the family. These crimes are now recognized as 
human rights abuses that governments must prevent, prohibit and punish.
    Amnesty International has recommended four U.S. policy initiatives 
which will make a significant impact in the work to end gender-based 
violence globally. These are:

   Passage of the International Violence Against Women Act;
   Passage of the Women, Peace and Security Act;
   U.S. promotion of reform of laws and policies that discriminate 
        against women and girls, and;
   U.S. ratification of the Women's Treaty, officially known as the 
        Convention on the Elimination of All Forms of Discrimination 
        Against Women (CEDAW).

    We see progress on two of our past recommendations to Congress--the 
promulgation of both a U.S. Strategy to Prevent and Respond to Gender-
Based Violence Globally and a U.S. National Action Plan on Women, Peace 
and Security. But much work remains to be done.
    Every day, women and girls around the world are threatened, beaten, 
raped, mutilated, and killed with impunity. Worldwide, nearly one 
billion women will be beaten, coerced into sex, or otherwise abused in 
her lifetime, whether at the hands of family members, government 
security forces, or armed groups.
    Today, what unites women internationally--transcending class, race, 
culture, religion, nationality and ethnic origin--are violations of 
their fundamental human rights, and their persistent efforts to claim 
those rights.
Human rights framework
    The rights of all women as human beings, around the world, were 
first and most fundamentally recognized by the Universal Declaration of 
Human Rights (UDHR). Adopted in 1948 by the U.N. General Assembly, the 
UDHR states in clear and simple terms rights that belong equally to all 
people in all nations, ``without distinction of any kind such as race, 
color, sex, language . . . or any other status.''
    The Convention on the Elimination of All Forms of Discrimination 
Against Women is the first and only international treaty to 
comprehensively address women's rights within political, cultural, 
economic, social and family spheres. Adopted by the U.N. in 1979, CEDAW 
provides an international standard for protecting and promoting women's 
human rights and is often referred to as a ``Bill of Rights'' for 
women.
    The 1993 U.N. Declaration on the Elimination of Violence Against 
Women (DEVAW) sets forth ways in which governments should act to 
prevent violence, and to protect and defend women's rights. DEVAW calls 
on states to ``exercise due diligence to prevent, investigate and, in 
accordance with national legislation, punish acts of violence against 
women, whether those acts are perpetrated by the state or by private 
persons."
    The Geneva Conventions designate many acts of sexual violence--
including rape, enforced prostitution, sexual slavery, and sexual 
mutilation--as war crimes, and grave breaches of the Conventions.
    The U.N. Protocol to Prevent, Suppress and Punish Trafficking in 
Persons, Especially Women and Children defines human trafficking as the 
illegal recruitment, sale, transport, receiving of, and/or harboring of 
human beings through force, deceit, coercion or abduction for the 
purpose of all forms of forced labor and servitude (Article 3(a)). Many 
cases of sexual violence during armed conflicts occur under conditions 
of slavery.
    The Rome Statute of the International Criminal Court is the first 
international treaty to expressly recognize a broad spectrum of sexual 
and gender-based violence as constituting genocide, war crimes and 
crimes against humanity, and is the first time that sexual slavery and 
trafficking have been expressly recognized as crimes against humanity 
in an international treaty. The majority of cases that have been 
brought before the ICC to date involve gender-based violence.
    U.N. Security Council Resolution 1325 and subsequent related 
resolutions emphasize the responsibility of all states to put an end to 
impunity and to prosecute those responsible for war crimes involving 
sexual and other violence against women. It calls for an increase in 
the participation of women at decisionmaking levels in conflict 
resolution and peace processes. It also calls for the protection of 
human rights of women and girls during the reconstruction process, 
particularly as they relate to the constitution, the electoral system, 
the police, and the judiciary. Six subsequent resolutions have been 
passed since 1325 that further aim to protect women and girls from 
conflict-related sexual violence and promote their role in the 
peacemaking process.
Violations of women's human rights
    The ways in which women experience human rights abuses are unique. 
While human rights are understood as the rights that everyone has by 
virtue of their humanity, the assumption that all humans have the same 
experiences and needs is particularly problematic for women.
    Historically, states have assumed responsibility for human rights 
violations only when state agents or officials were the perpetrators, 
and certain forms of violence against women by state agents have been 
acknowledged as torture. However, women more often face abuses from 
non-state actors, such as their employers, partners, husbands, 
families, friends and community members. It is critical to note that 
whether abuses against women are committed by state or non-state 
actors, in the public or private spheres, the state is obliged to 
condemn, prevent and punish all acts of violence against women and to 
take measures to empower women.
    When international law is applied without an understanding of the 
state's responsibility for abuses committed by private actors, women 
are denied an essential part of the protection that the human rights 
system is supposed to provide. When the state dismisses the majority of 
violence against women as private or domestic matters, thereby allowing 
this violence to continue, it sends a clear message that violence 
against women is condoned.
    Human rights abuses against women are often complicated by further 
discrimination on the grounds of race, religion, sexual orientation, 
gender identity, disability, caste, culture, or age. The type and 
prevalence of violence and discrimination that women experience are 
often determined by how their gender interacts with these and other 
factors.
    In the case of women's human rights, the principle of universality 
continues to be challenged. Some justify violations of women's human 
rights by placing precedence on cultural values and traditions, but 
this view ignores the fact that some practices and beliefs attributed 
to ``culture'' or ``tradition'' often shape women's lives in a way that 
subordinates and discriminates against them.
    In fact, violence against women is rooted in a global culture that 
discriminates against women and denies them equal rights. Women today 
earn less than men, own less property than men, and have less access to 
education, employment, housing and health care. This global culture of 
discrimination denies women their human rights and legitimizes the 
violent appropriation of women's bodies for individual gratification or 
political ends. By limiting the universality of the human rights of 
women, cultural values rooted in unequal power relations between women 
and men become justification for the systematic denial of civil, 
cultural, economic, political and social rights.
States' responsibilities in relation to women's human rights
    Each of the human rights treaties, and the human rights framework 
as a whole, are essential for the realization of women's full spectrum 
of rights. Whether abuses against women are committed by state or non-
state actors, in the public or private spheres, the state is obliged to 
act. State obligations under international human rights law can be 
summarized under three categories:
    Respect: The state has an obligation to respect women's human 
rights through its direct action, agents and structures of law. A 
state's constitution must recognize equality between women and men in 
all spheres; state or official actors must be held accountable when 
they perpetrate violence against women; private actors who perpetrate 
violence against women must be prosecuted.
    Protect: The state has an obligation to protect women's human 
rights. The state must take all necessary measures to prevent 
individuals or groups from violating the rights of each individual. As 
such, the state must take affirmative steps to prevent direct and 
indirect discrimination against women. Women must be fairly represented 
in government and have legal access to all forms of employment.
    Fulfill: The state is also required to fulfill the human rights of 
women by ensuring opportunities for individuals to obtain what they 
need and to provide that which cannot be secured by personal efforts. 
This obligation ranges from providing a healthy environment, clean 
water, food, housing and education, to creating the conditions 
necessary for women's organizations to form and function.
    International law has developed the standard of due diligence as a 
way to measure whether a state has acted with sufficient effort to live 
up to its responsibilities to respect, protect and fulfill human 
rights. This standard has been explicitly incorporated into United 
Nations standards, such as the DEVAW, which says that states should 
``exercise due diligence to prevent, investigate and, in accordance 
with national legislation, punish acts of violence against women, 
whether those acts are perpetrated by the state or by private 
persons.'' Increasingly, U.N. mechanisms monitoring the implementation 
of human rights treaties, the U.N. independent experts, and courts at 
the national and regional level are using this concept of due diligence 
as their measure for assessing the compliance of states with their 
obligations to protect bodily integrity. Any act of violence against 
women perpetrated in the public or private sphere whether by state or 
non-state actors invokes the due diligence obligations of States to 
prevent, investigate, punish and provide compensation for all acts of 
violence.
    Violence against women will continue until those responsible are 
held accountable under domestic laws in accordance with international 
human rights and humanitarian law. Factors contributing to impunity for 
crimes of violence against women are many, and include:

   An overall climate of indifference towards many forms of violence;
   Tacit acceptance of rape and other sexual violence as unavoidable;
   Threats and reprisals against those who reveal abuses;
   Laws granting amnesty to perpetrators as part of peacemaking 
        ``deals''.

    Governments have a responsibility to ensure that violence against 
women is punished in accordance with international standards for fair 
trials, and to that end, that the judicial system in their country 
functions independently of the government, and that law enforcement, 
judicial officials, and security forces receive adequate training to 
prevent violence and assist survivors. Despite such obligations, many 
countries have discriminatory laws that make it difficult for women to 
access justice, or their laws are interpreted in such a way as to 
facilitate impunity.
    For example, when violence against women is committed in the 
context of armed conflict, national courts may lack jurisdiction over 
soldiers who are foreign nationals or it may be impossible to seek 
their extradition. The code of military law may not expressly address 
violence against women.
What should the United States government do?
    Amnesty International U.S. urges the United States government to 
take four policy steps to help end violence against women globally. The 
United States should:
    Pass the International Violence Against Women Act, which will:

   Make ending violence against women and girls a top diplomatic and 
        foreign assistance priority for the United States by supporting 
        and improving coordination of existing U.S. anti-gender-based 
        violence efforts across the whole of government.
   Support survivors, hold perpetrators accountable, and prevent 
        gender-based violence.
   Address violence against women and girls comprehensively and multi-
        sectorally by supporting health, legal, economic, education and 
        humanitarian assistance sectors and incorporating violence 
        prevention and response into such programs;
   Codify and implement the U.S Strategy to Prevent and Respond to 
        Gender-Based Violence Globally, the first government-wide 
        effort of its kind to address violence against women and girls 
        globally across sectors, in five select countries which have a 
        high incidence of violence against women;
   Permanently authorize the Office of Global Women's Issues in the 
        State Department, as well as the position of the Ambassador-at-
        Large for Global Women's Issues, who is responsible for 
        coordinating activities, policies, programs, and funding 
        relating to gender integration and women's empowerment 
        internationally, including those intended to prevent and 
        respond to violence against women;
   Alleviate poverty and increase the cost effectiveness of foreign 
        assistance by investing in women;
   Prevent violence by transforming social norms about the 
        acceptability of it by engaging men and boys and supporting 
        public awareness programs to change attitudes that condone, and 
        at times encourage, violence against women and girls, as well 
        as men and boys, and will emphasize community-based solutions;
   Enable the U.S. government to develop a faster and more efficient 
        response to violence against women in humanitarian emergencies 
        and conflict-related situations; and,
   Build the effectiveness of overseas non-governmental organizations 
        -- particularly women's non-governmental organizations--in 
        addressing violence against women.

    The IVAWA provides a comprehensive approach to address these 
priorities within a human rights framework by enhancing the efficacy 
and efficiency of existing U.S. government programs that tackle gender-
based violence.

    Pass the Women, Peace and Security Act which will:

   Increase women's meaningful inclusion in peace-building and 
        conflict prevention processes;
   Protect women and girls from gender-based violence in conflict and 
        post-conflict settings;
   Ensure women and girls have equitable access to humanitarian 
        assistance;
   Require the State Department and U.SID to report to Congress on 
        progress under the U.S. National Action Plan on Women, Peace 
        and Security to promote women's participation in peace building 
        and conflict prevention processes;
   Ensure that each relevant U.S. government agency integrates women 
        as equal partners into all efforts to prevent and mediate 
        conflict, respond to humanitarian crises, promote and build 
        peace and democracy, and rebuild post conflict;
   Incorporate comprehensive training programs on women's 
        participation in peace and security matters for diplomatic, 
        defense, and development personnel; and,
   Require robust monitoring and evaluation of the impact of U.S. 
        foreign assistance on women's meaningful inclusion and 
        participation and revise approaches to employ best practices.

    The Women, Peace and Security Act recognizes the untapped potential 
and significant value that women bring to the peacemaking table. Half 
of all peace agreements around the world fail within the first five 
years. One missing component to creating a lasting and sustainable 
peace is the inclusion of those who are disproportionately and uniquely 
affected by conflict: women. The Act requires the U.S. to promote the 
meaningful inclusion and participation of women in all peace processes 
that seek to prevent, alleviate or resolve armed conflict, which will 
increase the likelihood of successful conflict resolution.
Promote reform of discriminatory law and policies
    The United States has a responsibility to press for legislative 
reform and to facilitate implementation of laws and policies that 
ensure women the same rights as men. This is especially the case in 
areas of property rights, access to employment, access to health 
services, and education for women and girls, as well as on laws 
relating to citizenship, the rights to enter into marriage willingly, 
and to have the same legal rights as men as parents of their children.
    The United States should provide assistance for legal reforms that 
promote and protect fulfillment of human rights for women and children, 
and facilitate contact and collaboration with international 
organizations, including the United Nations mechanisms, which can 
assist and advise legislatures on legal reforms and policy 
implementation to support women and children. The U.S. should also 
increase its training of foreign security forces on addressing violence 
against women in armed conflict and on military codes of conduct 
regarding sexual exploitation and abuse.
Ratify the Convention on the Elimination of All Forms of Discrimination 
        Against Women
    CEDAW is a landmark international agreement that affirms 
fundamental human rights and equality for women around the world. It 
offers countries a practical blueprint to achieve progress for women 
and girls by calling on each ratifying country to overcome barriers to 
discrimination.
    Around the world, CEDAW has been used to reduce sex trafficking and 
domestic abuse; provide access to education and vocational training; 
guarantee the right to vote; ensure the ability to work and own a 
business without discrimination; improve maternal health care; end 
forced marriage and child marriage; and ensure inheritance rights.
    CEDAW and its Optional Protocol remain the only international 
treaties devoted to the rights of women. Partly due to the success of 
CEDAW, there have been significant advances in women's rights in the 
more than thirty years since CEDAW was adopted, although much remains 
to be done. The treaty has been ratified or acceded to by 187 
countries, making it second only to the Convention on the Rights of the 
Child in terms of universal acceptance.
    Adopted by the U.N. General Assembly in 1979, CEDAW obliges states 
parties to undertake legislative, administrative and practical measures 
to eliminate discrimination against women, in order to enable women to 
enjoy civil and political, as well as economic, social and cultural 
rights, as enshrined in the treaty. States parties are required to 
condemn discrimination against women, devise policies for its 
elimination and take steps to ensure the full development and 
advancement of women.
    States parties undertake to submit reports to the Committee on the 
Elimination of Discrimination against Women at least every four years. 
The review of a state party report provides an opportunity for 
national-level review of implementation and the identification of 
obstacles which impede the enjoyment of the rights protected by CEDAW. 
The outcome of these reviews, as contained in the concluding comments 
of the Committee on the Elimination of Discrimination against Women, 
provide an important benchmark for measuring present compliance and 
future progress for the state party, civil society and different U.N. 
actors seeking to integrate them into country-based initiatives.
    CEDAW is a tool that women around the world are using effectively 
to bring about change in their conditions. CEDAW ratification has 
encouraged the development of citizenship rights in Botswana and Japan, 
inheritance rights in Tanzania, and property rights and political 
participation in Costa Rica. CEDAW has fostered development of domestic 
violence laws in Turkey, Nepal, South Africa, and South Korea and anti-
trafficking laws in Ukraine and Moldova.
    The ratification of human rights treaties is a basic but essential 
step which every government can take to demonstrate its commitment to 
protecting human rights. When a government becomes a party to 
international human rights treaties, it affirms to the international 
community its determination to respect the dignity and worth of the 
human person.
    Acceptance of international obligations helps to establish more 
durable commitments in the field of human rights protection. Adherence 
to these instruments not only invigorates domestic efforts at 
implementation but also preserves the achievements of today's 
governments against retrogression by those of tomorrow. Adherence by 
all states to these important instruments would be a major step forward 
in the further development and strengthening of international human 
rights protection for the benefit of all people.
    The United States has a legacy of promotion and defense of human 
rights. However, the United States is one of only seven countries that 
have not yet ratified CEDAW, including Iran, South Sudan, Somalia, 
Palau, and Tonga. As such, the United States has the dubious 
distinction of being the only country in the Western Hemisphere and the 
only industrialized democracy that has not ratified this treaty. The 
U.S. Government's failure to ratify serves as a disincentive for other 
governments to uphold CEDAW's mandate and their obligations under it to 
end discrimination against women.
    Ratification of CEDAW would strengthen the United States as a 
global leader in standing up for women and girls and provide a path for 
the full realization of women's human rights globally. With U.S. 
ratification, CEDAW would become a much stronger instrument in support 
of women's struggles to achieve the full realization of their human 
rights. Amnesty International believes that ratification would be a 
critical demonstration of the U.S. government's commitment to women's 
equal protection and equality of treatment before the law.
    Amnesty International strongly urges the Senate to use this hearing 
as a meaningful step in the ratification of CEDAW. In addition, we urge 
the Senate to not attach any limiting interpretations, declarations and 
reservations to the ratification of CEDAW and to ensure that all U.S. 
laws, policies and practices conform to the principles espoused in 
CEDAW.
    The abduction of over almost 300 schoolgirls in Nigeria provides us 
with a poignant example of why these recommendations are necessary.
    In April, Boko Haram kidnapped hundreds of girls from their school 
in the town of Chibok. Boko Haram is an Islamist armed group that has 
waged a brutal insurgency in northeast Nigeria, carrying out similar 
abductions on a smaller scale in the past. Nearly two months later, the 
majority of the girls remain in captivity, and it is feared that the 
girls may face sexual violence or trafficking.
    A life free from violence is a fundamental human right. Yet nearly 
a billion women around the world will not have that freedom.
    To affect real change in the lives of women globally, action is 
needed now, and the United States must continue to be a leader on this 
issue by ratifying CEDAW and by passing legislation such as the 
International Violence Against Women Act and the Women, Peace and 
Security Act.
    Chair Boxer, Senator Paul, and members of the Committee, on behalf 
of the abducted Nigerian schoolgirls and the nearly one billion women 
around the world who have experienced gender-based violence, Amnesty 
International U.S thanks you for holding this important hearing and 
urges you to take swift action.
    Thank you.

                               __________

                  Statement Submitted for the Record 
                  by Second Chance Employment Services

    We, Second Chance Employment Services, wish to thank Chair Barbara 
Boxer and Ranking Member Rand Paul of the Senate Foreign Relations 
Subcommittee on International Operations and Organizations, Human 
Rights, Democracy, and Global Women's Issues for convening this hearing 
on ``Combating Violence and Discrimination Against Women: A Global Call 
to Action.'' We call on the Senate Foreign Relations Committee and the 
U.S. Senate to move forward to pass the International Violence Against 
Women Act (IVAWA) and to ratify CEDAW in this Congress. These tools 
will give the United States greater clout to urge other countries to 
take all necessary steps to combat discrimination and violence against 
women and girls.
    Gender-based violence (GBV) is the most widespread human rights 
violation in every part of the world. The well-documented cases of 
using rape as a weapon of war in the Congo, acid attacks on the faces 
of girls going to school in Afghanistan, the 2012 shooting of Pakistani 
education and women's rights activist, Malala Yousafzai, by the 
Taliban, and the recent horrific sexual assaults and hanging of girls 
and young women in India are only the most visible evidence of 
pervasive violence against women and girls. Unfortunately, intimate 
partner violence, often less visible, is also an epidemic, affecting 35 
percent of women globally every year. Women have organized campaigns 
calling on their governments not only to adopt laws to provide services 
and safety for women and their children, bring perpetrators of violence 
to justice, educate the public, and engage boys and men, but also to 
address the underlying causes of discrimination and gender 
inequalities.
    In addressing violence against women, many countries have been 
aided by the Convention on the Elimination of All Forms of 
Discrimination Against Women (CEDAW), also known as the women's 
equality treaty. CEDAW considers gender-based violence--that is, 
violence directed at women and girls just because they are female--to 
be a form of discrimination under the Convention, because such violence 
impairs or nullifies women's full enjoyment of their basic human 
rights.
    CEDAW offers countries a practical blueprint to achieve progress 
for women and girls by calling on each ratifying country to overcome 
barriers to discrimination. For example, when activists in Afghanistan 
proposed the Law on the Elimination of Violence Against Women, they 
looked to CEDAW as a model to guide their approach. The South Korean 
Women's Movements Against Gender Violence looked to CEDAW to propose 
laws on domestic violence, which were then adopted by the government. 
Mexico, in adopting its General Law on Women's Access to a Life Free 
from Violence, drew on CEDAW, among other international and regional 
treaties. Following recommendations from the CEDAW Committee,
    Mexico is now training its federal judiciary in human rights, 
gender-based violence and non-discrimination along with CEDAW to 
promote women's access to justice. In line with recommendations of the 
CEDAW Committee, Turkey enacted the Protection of the Family and 
Prevention of Violence against Women Law in 2012. Other examples of how 
CEDAW has been used to combat violence against women can be found in 
Recognizing Rights, Promoting Progress: The Global Impact of the 
Convention on the Elimination of all forms of Discrimination Against 
Women (www.icrw.org).
    One hundred eighty-seven countries have ratified CEDAW. The United 
States is one of only seven countries in the world that has not 
ratified CEDAW, along with Iran, Somalia, Sudan, South Sudan, Palau, 
and Tonga. The United States' failure to ratify CEDAW undermines its 
leadership in the global fight to combat discrimination and violence 
against women, calls into question its credibility, and gives the 
appearance that the United States does not believe that reducing 
discrimination and violence against women should be a priority for 
governments around the world.
    The scourge of violence against women and girls, however, threatens 
the basic security of the United States and the world. This epidemic 
not only affects women, their families and communities, but it also 
undermines the stability and prosperity of whole societies. This, in 
turn, has a direct impact upon U.S. foreign policy, security interests, 
and democracy and peace-building efforts. Gender-based violence against 
women does not stop at U.S. borders. Instead, it affects the well-being 
of U.S. citizens by contributing to global instability. The United 
States Senate must ratify CEDAW to enhance U.S. leadership in this area 
and support the important work to combat discrimination and violence 
against women being done by the U.S. Department of State and other 
Departments and agencies. CEDAW gives the United States another tool to 
advance the status of women and increase opportunity for prosperity for 
everyone.
    Another mechanism central to the global prevention of and response 
to gender-based violence is the bipartisan International Violence 
Against Women Act, H.R. 3571/S. 2307, (IVAWA). IVAWA makes ending 
violence against women and girls a top diplomatic and foreign 
assistance priority by codifying, implementing, and giving 
congressional oversight to the ongoing U.S. Strategy to Prevent and 
Respond to Gender-Based Violence Globally (the Strategy). The Strategy, 
created by Executive Order in August 2012, calls for a coordinated, 
multi-sectoral response to gender-based violence--a process led by an 
Interagency Working Group to ensure maximum efficiency. IVAWA also 
permanently authorizes the State Department's Office of Global Women's 
Issues with the position of Ambassador-at-Large, who coordinates 
policies, programs, and funding relating to gender integration and 
women's empowerment internationally, including those intended to 
prevent and respond to gender-based violence (GBV). In addition, IVAWA 
authorizes the position of U.SID Senior Gender Coordinator, who is 
responsible for working with senior leadership and mission staff to 
fully integrate gender equality and female empowerment into U.SID's 
policies, programs, and strategies. These entities exist within the 
current structures of both agencies and would not add a new level of 
bureaucracy; rather, their existence contributes to greater 
accountability of the gender-focused policies and programming currently 
in place.
    IVAWA would streamline and better coordinate anti-GBV programming 
across various U.S. government agencies, making addressing GBV a 
cornerstone of U.S. development and foreign policy. Since this 
legislation is aimed at coordinating and integrating existing programs, 
it does not require the appropriation of additional funding. The bill 
also focuses on preventing violence by transforming social norms about 
the acceptability of it. IVAWA recognizes that while women and girls 
disproportionately suffer from violence, men and boys experience 
targeted violence too. The bill intentionally utilizes the term GBV 
throughout, making it inclusive of all persons and not precluding 
programs from supporting men and boys. IVAWA will support public 
awareness programs to change attitudes that condone, and at times 
encourage, violence against women and girls, as well as men and boys, 
and will emphasize community-based solutions.
    This integral piece of legislation would also increase legal and 
judicial protection to address gender-based violence; integrate 
programs to address gender-based violence into already existing health 
programs focused on child survival, health, and HIV/AIDS prevention, 
care, and treatment; reduce women and girls' vulnerability to violence 
by improving their economic status and educational opportunities; and, 
promote women's inclusion in civil and political life.
    We believe the U.S. can and should be a leader in ending one of the 
biggest obstacles not only to U.S. national security but also global 
stability, development, prosperity, and human rights for all. Ending 
violence against women and girls, men and boys, and advancing women's 
equality is fundamental to the United States' national security 
interests and today is a cornerstone of America's foreign policy. 
Countries are more peaceful and prosperous when women have full and 
equal rights and opportunities. We acknowledge the leadership taken by 
the United States to condemn gender-based violence wherever it occurs--
from Afghanistan and Guatemala, to Nigeria and the DRC, to the gender-
based violence women experience every day in the United States--and we 
applaud the adoption of the Violence Against Women Act of 2013.
    But today is a call to action because more needs to be done to 
combat gender-based violence globally. There are two more tools in the 
United States' toolbox that are before this Committee right now.
    We, Second Chance Employment Services, call on the Senate Foreign 
Relations Committee and the U.S. Senate to move forward to pass the 
International Violence Against Women Act (IVAWA) and to ratify CEDAW in 
this Congress. These important tools will give the United States 
greater ability to work with and support other countries to take all 
necessary measures to prevent and one day end discrimination and 
violence against women and girls. The time to act is now.

                               __________

   Statement Submitted for the Record by International Medical Corps

    Chairwoman Boxer, Ranking Member Paul, and members of the 
Subcommittee, on behalf of International Medical Corps, we thank you 
for holding this important and timely hearing.
    International Medical Corps is a global, humanitarian, nonprofit 
organization dedicated to saving lives and relieving suffering through 
health care training and relief and development programs. Its mission 
is to improve the quality of life through health interventions and 
related activities that build local capacity in underserved communities 
worldwide. By offering training and health care to local populations 
and medical assistance to people at highest risk, and with the 
flexibility to respond rapidly to emergency situations,
    International Medical Corps rehabilitates devastated health care 
systems and helps bring them back to self reliance.
    Throughout the world, gender-based violence (GBV) is a pervasive 
public health and human rights issue that significantly affects women 
and girls. Worldwide, one in three women has been beaten, coerced into 
sex, or abused in some way, according to the United Nations. The toll 
is enormous, costing billions of dollars in social, judicial, and 
health costs, in addition to lost wages and productivity, and 
incalculable physical and emotional hardship.
    Despite the seriousness of this issue, services to prevent and 
appropriately respond to GBV are still inadequate. This is particularly 
true in emergency settings, where women and girls face increased risks 
of violence.
    Since 2005, International Medical Corps has worked with communities 
and service providers to address violence against women and girls in 
diverse and challenging environments such as Afghanistan, Philippines, 
Syria, Central African Republic, Iraq, DRC and Russia. As risks and 
types of violence vary across cultures, countries and regions, 
International Medical Corps develops context-specific approaches to 
increase protection for women and girls and to respond to the needs of 
survivors of violence.
    International Medical Corps' core programming activities are 
implemented at the community level, where close collaboration with 
local service providers and grassroots social support networks is a 
highest priority.
    Working closely with these actors allows us to design programs that 
are culturally appropriate and well tailored to the particular needs of 
targeted populations.
    We strongly support and urge swift passage of S. 2307, the 
International Violence Against Women Act of 2014 (IVAWA) and believe 
its enactment is of paramount importance for the U.S. government in 
prioritizing an end to violence against women and girls globally. This 
violence threatens peace and stability, hinders recovery and 
development, and is a barrier to women and girls fully enjoying and 
exercising their rights.
    International Medical Corps commends these bipartisan efforts to 
continue this vital and urgent work to ending violence against women 
and girls' front and center of diplomatic efforts. S. 2307 would 
facilitate the allocation of key human resources, funding and space for 
coordination that this issue critically needs for strategic and lasting 
change to take place. We also welcome the legislation's recognition of 
the importance of assistance to both preventing violence against women 
and girls, as well as responding to the needs of survivors in their 
road to recovery.
    Once again, International Medical Corps applauds you for your 
ongoing leadership and commitment in creating a forum to discuss and 
guide our efforts, as we join together to end gender-based violence 
around the world.

                               __________

      Statement Submitted for the Record by Various Organizations

    We, the 74 undersigned organizations, wish to thank Chair Barbara 
Boxer and Ranking Member Rand Paul of the Senate Foreign Relations 
Subcommittee on International Operations and Organizations, Human 
Rights, Democracy, and Global Women's Issues for convening this hearing 
on ``Combating Violence and Discrimination Against Women: A Global Call 
to Action.'' We call on the Senate Foreign Relations Committee and the 
U.S. Senate to move forward to pass the International Violence Against 
Women Act (IVAWA) and to ratify the Convention on the Elimination of 
all forms of Discrimination Against Women (CEDAW) in this Congress. 
These tools will give the United States greater clout to urge other 
countries to take all necessary steps to combat discrimination and 
violence against women and girls.
    Gender-based violence (GBV) is the most widespread human rights 
violation in every part of the world. The well-documented cases of 
using rape as a weapon of war in the Congo, acid attacks on the faces 
of girls going to school in Afghanistan, the 2012 shooting of Pakistani 
education and women's rights activist, Malala Yousafzai, by the 
Taliban, and the recent horrific sexual assaults and hanging of girls 
and young women in India are only the most visible evidence of 
pervasive violence against women and girls. Unfortunately, intimate 
partner violence, often less visible, is also an epidemic, affecting 35 
percent of women globally every year. Women have organized campaigns 
calling on their governments not only to adopt laws to provide services 
and safety for women and their children, bring perpetrators of violence 
to justice, educate the public, and engage boys and men, but also to 
address the underlying causes of discrimination and gender 
inequalities.
    In addressing violence against women, many countries have been 
aided by the Convention on the Elimination of All Forms of 
Discrimination Against Women (CEDAW), also known as the women's 
equality treaty. CEDAW considers gender-based violence--that is, 
violence directed at women and girls just because they are female--to 
be a form of discrimination under the Convention, because such violence 
impairs or nullifies women's full enjoyment of their basic human 
rights.
    CEDAW offers countries a practical blueprint to achieve progress 
for women and girls by calling on each ratifying country to overcome 
barriers to discrimination. For example, when activists in Afghanistan 
proposed the Law on the Elimination of Violence Against Women, they 
looked to CEDAW as a model to guide their approach. The South Korean 
Women's Movements Against Gender Violence looked to CEDAW to propose 
laws on domestic violence, which were then adopted by the government. 
Mexico, in adopting its General Law on Women's Access to a Life Free 
from Violence, drew on CEDAW, among other international and regional 
treaties. Following recommendations from the CEDAW Committee, Mexico is 
now training its federal judiciary in human rights, gender-based 
violence and non-discrimination along with CEDAW to promote women's 
access to justice. In line with recommendations of the CEDAW Committee, 
Turkey enacted the Protection of the Family and Prevention of Violence 
against Women Law in 2012. Other examples of how CEDAW has been used to 
combat violence against women can be found in Recognizing Rights, 
Promoting Progress: The Global Impact of the Convention on the 
Elimination of all forms of Discrimination Against Women 
(www.icrw.org).
    One hundred eighty seven countries have ratified CEDAW. The United 
States is one of only seven countries in the world that has not 
ratified CEDAW, along with Iran, Somalia, Sudan, South Sudan, Palau, 
and Tonga. The United States' failure to ratify CEDAW undermines its 
leadership in the global fight to combat discrimination and violence 
against women, calls into question its credibility, and gives the 
appearance that the United States does not believe that reducing 
discrimination and violence against women should be a priority for 
governments around the world.
    The scourge of violence against women and girls, however, threatens 
the basic security of the United States and the world. This epidemic 
not only affects women, their families and communities, but it also 
undermines the stability and prosperity of whole societies. This, in 
turn, has a direct impact upon U.S. foreign policy, security interests, 
and democracy and peace building efforts. Gender-based violence against 
women does not stop at U.S. borders. Instead, it affects the well-being 
of all people in the United States by contributing to global 
instability. The Senate must ratify CEDAW to enhance U.S. leadership in 
this area and support the important work to combat discrimination and 
violence against women being done by the U.S. Department of State and 
other Departments and agencies. CEDAW gives the United States another 
tool to advance the status of women and increase opportunities for 
prosperity for everyone.
    Another mechanism central to the global prevention of and response 
to gender-based violence is the bipartisan International Violence 
Against Women Act, H.R. 3571/S. 2307, (IVAWA). IVAWA makes ending 
violence against women and girls a top diplomatic and foreign 
assistance priority by codifying, implementing, and giving 
congressional oversight to the ongoing U.S. Strategy to Prevent and 
Respond to Gender-Based Violence Globally (the Strategy). The Strategy, 
created by Executive Order in August 2012, calls for a coordinated, 
multi-sectoral response to gender-based violence--a process led by an 
Interagency Working Group to ensure maximum efficiency. IVAWA also 
permanently authorizes the State Department's Office of Global Women's 
Issues with the position of Ambassador-at-Large, who coordinates 
policies, programs, and funding relating to gender integration and 
women's empowerment internationally, including those intended to 
prevent and respond to gender-based violence (GBV). In addition, IVAWA 
authorizes the position of U.SID Senior Gender Coordinator, who is 
responsible for working with senior leadership and mission staff to 
fully integrate gender equality and female empowerment into U.SID's 
policies, programs, and strategies. These entities exist within the 
current structures of both agencies and would not add a new level of 
bureaucracy; rather, their existence contributes to greater 
accountability of the gender-focused policies and programming currently 
in place.
    IVAWA would streamline and better coordinate anti-GBV programming 
across various U.S. government agencies, making addressing GBV a 
cornerstone of U.S. development and foreign policy. Since this 
legislation is aimed at coordinating and integrating existing programs, 
it does not require the appropriation of additional funding. The bill 
also focuses on preventing violence by transforming social norms about 
the acceptability of it. IVAWA recognizes that while women and girls 
disproportionately suffer from violence, men and boys experience 
targeted violence too. The bill intentionally utilizes the term GBV 
throughout, making it inclusive of all persons and not precluding 
programs from supporting men and boys. IVAWA will support public 
awareness programs to change attitudes that condone, and at times 
encourage, violence against women and girls, as well as men and boys, 
and will emphasize community-based solutions.
    This integral piece of legislation would also increase legal and 
judicial protection to address gender-based violence; integrate 
programs to address gender-based violence into already existing health 
programs focused on child survival, health, and HIV/AIDS prevention, 
care, and treatment; reduce women and girls' vulnerability to violence 
by improving their economic status and educational opportunities; and, 
promote women's inclusion in civil and political life.
    We believe the United States can and should be a leader in ending 
one of the biggest obstacles not only to U.S. national security but 
also global stability, development, prosperity, and human rights for 
all. Ending violence against women and girls, men and boys, and 
advancing women's equality is fundamental to the United States' 
national security interests and today is a cornerstone of America's 
foreign policy. Countries are more peaceful and prosperous when women 
have full and equal rights and opportunities. We acknowledge the 
leadership taken by the United States to condemn gender-based violence 
wherever it occurs--from Afghanistan and Guatemala, to Nigeria and the 
DRC, to the gender-based violence women experience every day in the 
United States--and we applaud the adoption of the Violence Against 
Women Act of 2013.
    But today is a call to action because more needs to be done to 
combat discrimination and gender-based violence globally. There are two 
more tools in the United States' toolbox that are before this Committee 
right now.
    We, 74 undersigned organizations, call on the Senate Foreign 
Relations Committee and the U.S. Senate to move forward to pass the 
International Violence Against Women Act (IVAWA) and to ratify CEDAW in 
this Congress. These important tools will give the United States 
greater ability to work with and support other countries to take all 
necessary measures to prevent and one day end discrimination and 
violence against women and girls. The time to act is now.





9to5

American Association of University Women

American Civil Liberties Union

American Jewish Committee

American Jewish World Service

American Psychological Association

Amnesty International U.S

Anti-Defamation League

Baha'is of the United States

Better World Campaign California Women's Agenda

Center for Gender & Refugee Studies

The Center for Health and Gender Equity

Center for Reproductive Rights

Communications Workers of America

Decisions In Democracy International

Demos

Equality Now

Feminist Majority

Freedom House

Futures Without Violence

Gender Action

GlobalSolutions.org

Guatemala Human Rights Commission

Hadassah, The Women's Zionist Organization of America, Inc.

Human Rights Advocates

Human Rights Watch

The Hunger Project

IMA World Health

Institute for Science and Human Values, Inc.

The Interfaith Center of New York

International Psychoanalytical Association

Jacob Blaustein Institute for the Advancement of Human Rights

Jewish Board of Family and Children's Services

Jewish Women International

Jewish World Watch

The Leadership Conference on Civil and Human Rights

MomsRising

The National Conference of Puerto Rican Women, Inc.

National Council of Jewish Women

National Council of Women's Organizations

National Education Association

National Network to End Domestic Violence

National Organization for Women

National Women's Law Center

Pathfinder International

Peaceful Families Project

Population Action International

The Roosevelt Institute, Women and Girls Rising Program

Tahirih Justice Center

UJA-Federation of New York

United Methodist Women

United Nations Association of the United States of America

U.S. National Committee for U.N. Women

U.S. Women and Cuba Collaboration

U.S. Women Connect

Vital Voices Global Partnership

Women Donors Network

Women Employed

Women Enabled

Women for Women International

Women Graduates-USA

Women Legislators' Lobby

WomenNC

Women Thrive Worldwide

Women Watch Afrika, Inc.

Women's Action for New Directions

Women's Business Development Center

Women's Campaign International

Women's City Club of New York

Women's Intercultural Network

Women's U.N. Report Network

YWCA U.S

Zonta International


                                  <all>
</pre></body></html>
